<html>
<title> - OVERSIGHT OF THE DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                 OVERSIGHT OF THE DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2017

                               __________

                           Serial No. 115-47

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
                                _________ 
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
 32-380                     WASHINGTON : 2018             
        
        
        
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              

                           NOVEMBER 14, 2017
                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................     4

                               WITNESSES

The Honorable Jefferson B. Sessions III, Attorney General, United 
  States Department of Justice
    Oral Statement...............................................     7

                        OFFICIAL HEARING RECORD

Questions for the record submitted to The Honorable Jefferson B. 
  Session........................................................    92


                 OVERSIGHT OF THE DEPARTMENT OF JUSTICE

                              ----------                              


                       TUESDAY, NOVEMBER 14, 2017

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 10:03 a.m., in Room 
2141, Rayburn House Office Building, Hon. Bob Goodlatte 
[chairman of the committee] presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Smith, 
Chabot, Issa, King, Franks, Gohmert, Jordan, Poe, Marino, 
Gowdy, Labrador, Farenthold, Collins, DeSantis, Buck, 
Ratcliffe, Bishop, Roby, Gaetz, Johnson of Louisiana, Biggs, 
Rutherford, Handel, Conyers, Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Gutierrez, Bass, Richmond, 
Jeffries, Cicilline, Swalwell, Lieu, Raskin, Jayapal, and 
Schneider.
    Staff Present: Shelley Husband, Staff Director; Branden 
Ritchie, Deputy Staff Director; Zach Somers, Parliamentarian 
and General Counsel; Bobby Parmiter, Chief Counsel, 
Subcommittee on the Constitution and Civil Justice; Perry 
Apelbaum, Minority Chief Counsel, Chief of Staff, and Staff 
Director; Danielle Brown, Minority Parliamentarian and Chief 
Legislative Counsel; Aaron Hiller, Minority Chief Oversight 
Counsel; Joe Graupensperger, Minority Chief Counsel, 
Subcommittee on Crime, Terrorism, Homeland Security, and 
Investigations; Monalisa Dugue, Minority Deputy Chief Counsel, 
Subcommittee on Crime, Terrorism, Homeland Security, and 
Investigations; David Greengrass, Minority Counsel; Maunica 
Sthanki, Minority Counsel; Arya Hariharan, Minority Counsel; 
and Veronica Eligan, Minority Professional Staff Member.
    Chairman Goodlatte. The Judiciary Committee will come to 
order. And, without objection, the chair is authorized to 
declare recesses of the committee at any time.
    We welcome everyone to this morning's hearing on oversight 
of the Department of Justice. I will begin by recognizing 
myself for an opening statement.
    Good morning. Today, we welcome Attorney General Jeff 
Sessions for the Judiciary Committee's annual Department of 
Justice oversight hearing.
    Mr. Attorney General, you have a long and distinguished 
career in public service. You've continued that service by 
leading the Department of Justice, an agency that, by its very 
nature, is prone to controversy because of the public's varied 
opinions on what it seeks to see--what it means to seek and 
obtain justice. However, you clearly understand that the 
department you lead must have the confidence of the American 
people, even when your decisions are not always well-received.
    Your first year leading the Department of Justice has not 
been without difficulty, which is expected at the outset of a 
new administration. While much has been done to correct the 
improper political engagement by the Department of Justice 
under the Obama administration, more work must be done to 
ensure the Department is operating to impartially administer 
justice.
    Our last DOJ oversight hearing was beyond disappointing. 
Attorney General Loretta Lynch gave the least fulsome and least 
transparent testimony that I can recall in my time in Congress. 
It was plainly a disservice to the American people. Ms. Lynch 
failed to respond substantively to nearly every question posed 
by members of this committee.
    Before Ms. Lynch, former Attorney General Eric Holder 
became the first Attorney General in history to be held in 
contempt by the House of Representatives for his own 
stonewalling with regard to documents connected to the reckless 
operation Fast and Furious.
    I expect, Mr. Attorney General, that you will be more 
willing to candidly answer questions from members on both sides 
of the aisle.
    You are going to hear question after question today 
concerning your knowledge of or involvement with Russia and its 
alleged efforts to interfere in the 2016 Presidential election. 
Whether it concerns your work on behalf of now-President Trump 
during the campaign or your service in the Senate, I suspect 
this theme will be a constant refrain from my friends on the 
other side of the aisle.
    While I understand your decision to recuse yourself was an 
effort by you to do the right thing, I believe you, as a person 
of integrity, would have been impartial and fair in following 
the facts wherever they led.
    I have chosen, as chairman of this committee, to let 
Special Counsel Robert Mueller do his job, free from undue 
political influence. At the same time, however, this committee 
will do its duty and conduct oversight of the Department of 
Justice.
    To that end, we sent two letters to you, one in July and 
another in September, calling on you to name a second special 
counsel to restore the public's confidence in our justice 
system. Numerous matters connected to the 2016 election remain 
unresolved. To date, the Department has not appointed a second 
special counsel.
    Consequently, this committee had no choice but to open our 
own joint investigation with the House Oversight and Government 
Reform Committee to review DOJ and FBI's handling of the 
investigation into former Secretary Hillary Clinton and her 
mishandling of classified information.
    As we said earlier this year, it is incumbent on this 
committee, in its oversight capacity, to ensure that the 
agencies we oversee are above reproach and that the Justice 
Department, in particular, remains immune to accusations of 
politicization. Whoever is Attorney General, the Justice 
Department must evenhandedly administer justice.
    You have recused yourself from matters stemming from the 
2016 election, but there are significant concerns that the 
partisanship of the FBI and the Department has weakened the 
ability of each to act objectively. I look forward to hearing 
your thoughts on this and what steps you are taking to remove 
politics from law enforcement.
    However, these investigations are but a few of the many 
important issues we need to discuss today. For instance, we 
just overwhelmingly reported the USA Liberty Act out of 
committee last week. This bipartisan legislation would 
reauthorize section 702 of the Foreign Intelligence 
Surveillance Act.
    The administration has chosen to oppose any reform of the 
law. I understand the desire for a clean reauthorization of 
this vital program. However, I believe this stance is a 
miscalculation that risks further eroding trust in our 
intelligence apparatus. We hope we can work with you, now that 
the USA Liberty Act, which reauthorizes a law that is vital to 
our Nation's battle against terrorism while protecting American 
civil liberties, has been reported out the committee.
    This is especially important given the ongoing threat of 
terrorist attacks in the United States. As we all know, not 2 
weeks ago, eight people were killed and almost a dozen injured 
when an ISIS-inspired jihadist drove a rented pickup truck into 
a crowded bicycle path near the World Trade Center in New York. 
The terrorist threat is real and ongoing. We can not afford to 
play politics with national security.
    I also look forward to continuing to work with you on 
efforts to reform our Nation's criminal justice system. There 
is bipartisan support to do this in Congress, and, with your 
help, we can make changes that crack down on violent offenders 
while also doing more to rehabilitate Federal prisons and curb 
abuses in the system as well as excessive punishments.
    To your credit, since you assumed leadership of the 
Department of Justice, there has been a significant increase in 
the prosecution of firearms offenses in the United States. For 
years, I have criticized lax enforcement of the gun laws 
already on the books. Enforcing these laws is the most 
effective way to combat violent crime in our cities and 
neighborhoods.
    Under your leadership, the number of defendants charged 
with unlawful possession of a firearm has increased by nearly 
25 percent; the number of defendants charged with armed drug 
trafficking has increased 10 percent. I commend you for your 
focus on these prosecutions, because they will help make our 
streets safer.
    There are many other matters on which we share common 
ground, especially when it comes to rectifying the failures of 
the Obama administration.
    For example, earlier this year, the House passed 
legislation to ban settlement payments to non-victim third 
parties following your policy directive to shut down the use of 
such mandatory donations. These reform initiatives followed a 
concerted effort by the Obama administration to use settlements 
to benefit its political allies.
    We commend your efforts to combat illegal immigration, 
protect our citizens from criminal aliens, and to fight back 
against so-called sanctuary cities. More than 2 years has 
passed since Kate Steinle was murdered by an illegal immigrant 
who had been deported five times. We have addressed this issue 
head-on by moving legislation to combat sanctuary cities and 
find and remove criminal gang members.
    Mr. Attorney General, our country is at a crossroads. Our 
constituents are gravely concerned that our justice system does 
not work for them. Under your leadership, the Justice 
Department has taken strides to mitigate the harms done in the 
prior administration. I implore you to work with us to continue 
that trend, and I thank you sincerely for your appearance here 
today.
    I now recognize the ranking member of the committee, the 
gentleman from Michigan, Mr. Conyers, for his opening 
statement.
    Mr. Conyers. Thank you, Mr. Chairman.
    Top of the morning.
    In the ordinary course of business, any one of the dozen 
topics related to the Department of Justice would be worthy of 
its own hearing. And, to be clear, I would rather spend our 
time today discussing the upkeep of the criminal justice 
system, the enforcement of civil rights, and the work we must 
all do to ensure access to the ballot box.
    Instead, we must spend our time debating the troubles of a 
wayward administration, how the Attorney General conducts 
himself before Congress, how President Trump undermines the 
integrity of the justice system, and how the Department 
continues to ignore the oversight requests of this committee.
    Although this is the Attorney General's first appearance 
before the House, he's already made three visits to our 
colleagues in the Senate.
    At his confirmation hearing, he testified that he did not 
have communications with the Russians. Last month, he testified 
that a continuing exchange of information between Trump 
surrogates and intermediaries for the Russian Government ``did 
not happen, at least to my knowledge, and not with me.''
    We now know, of course, that neither of these statements is 
true. Shortly after the Attorney General made the first 
comment, The Washington Post reported that he met with the 
Russian Ambassador at least twice during the campaign. In the 
past month, we've also learned that the Attorney General must 
have been very much aware of a continuing exchange of 
information between the Trump campaign and the Russian 
Government.
    In charging documents unsealed last month, George 
Papadopoulos, a foreign policy adviser to the Trump campaign, 
admits to extensive communications with Russian contacts. At a 
March 31, 2016, meeting of the campaign's national security 
advisory committee, attended by candidate Trump and chaired by 
Senator Sessions, Mr. Papadopoulos stated, in sum and 
substance, that he had connections that could help arrange a 
meeting between then-candidate Trump and President Putin.
    It does not matter and has been reported that the Attorney 
General remembers this meeting after the fact--remembers it so 
vividly, in fact, that two unnamed sources say the Senator 
``shot George down.''
    Under oath, knowing in advance that he would be asked about 
this subject, the Attorney General gave answers that were, at 
best, incomplete. I hope the Attorney General can provide some 
clarification on this problem in his remarks today.
    I also hope that he can assure us that the Department is 
weathering near-daily attacks on its independence by President 
Trump and that no office of the Department is being used to 
pressure the President's political enemies.
    In recent months, President Trump has attacked the 
``beleaguered'' Attorney General and criticized his ``very weak 
position on Hillary Clinton crimes,'' in quotation.
    The President has talked openly about firing the leadership 
of the Department, including the Attorney General, the Deputy 
Attorney General, the former Acting Director of the FBI and 
Special Counsel, Robert Mueller.
    He did fire former FBI Director Comey, in his own words, 
quote, because of that ``Russia thing with Trump and Russia,'' 
end quotation, as well as Acting Attorney General Sally Yates 
and all 46 sitting United States attorneys.
    Last year, he denigrated a Federal judge because of his, 
quote, ``Mexican heritage,'' end quote. And Judge Curiel was 
born in Indiana, by the way.
    Last month, in a radio interview, President Trump said he 
was ``very unhappy'' with the Justice Department. Hours later, 
he proclaimed the military justice system ``a complete and 
total disgrace.''
    But the one that sticks with me is the President's July 
interview with The New York Times. In that interview, he begins 
by once again attacking the Attorney General's credibility. 
``Sessions never should have recused himself,'' the President 
complains. Then the conversation takes a sinister turn. ``When 
Nixon came along, out of courtesy, the FBI started reporting to 
the Department of Justice, but the FBI person really reports 
directly to the President of the United States.'' He goes on, 
``I could have ended [the Flynn investigation] just by saying--
they say it can't be obstruction because you can say: `It's 
ended. It's over. Period.' ''
    As is often the case, the President requires some 
correction. The Director of the FBI reports directly to the 
Attorney General, and, since the founding of the Bureau, it can 
be obstruction of justice if the President orders an 
investigation closed with a corrupt motive.
    But what strikes me about these comments is the President's 
view that the criminal justice system serves him and not the 
public. President Trump seems to believe that on a whim he can 
bring pressure to bear on his enemies, dismiss charges against 
his allies, and insulate himself and his family from any 
consequence. I cannot overemphasize the danger this perspective 
poses to our Republic.
    And I have served on this committee long enough to remember 
another President who shared this view. I was, myself, on 
Richard Nixon's enemies list. And although we worked to hold 
that administration accountable, our work is not complete. We 
must all remember our common responsibility to prevent that 
kind of abuse from happening again.
    I will look to the Attorney General's partnership in this 
effort, but I have begun to worry about his resolve. Last 
night, in a letter sent by the Department to Chairman 
Goodlatte--without so much as a copy to the ranking member, by 
the way--the Assistant Attorney General seems to leave the door 
open to appointing a new special counsel to cater to the 
President's political needs. The fact that this letter was sent 
to the majority without the customary and appropriate notice to 
me indicates that the charge given to the Department officials 
to evaluate these issues has political motivations.
    Now, in his own words, the Attorney General is recused from 
any questions involving investigations that involve Secretary 
Clinton. Further, we cannot refer an investigation to a second 
counsel if we lack the evidence to predicate a criminal 
investigation in the first place.
    Virtually every Clinton-related matter that President Trump 
complains about has been long litigated, carefully examined, 
and completely debunked. Still, to quote former Attorney 
General Michael Mukasey, ``putting political opponents in jail 
for offenses committed in a political setting is something that 
we don't do here.'' The threat alone resembles, in his words, a 
``banana republic.''
    Finally, there is the matter of routine oversight between 
hearings. In the recent history of this committee, new 
Attorneys General usually come to see us within 2 or 3 months 
of taking office. No Attorney General in recent memory has 
taken more than 6 months before making an appearance here. 
Attorney General Sessions has broken that norm. He has had more 
than 10 months to settle in, making our communications with the 
Department between hearings that much more important.
    To date, my colleagues and I have sent more than 40 letters 
to the Trump administration asking for information necessary to 
carry out our oversight responsibilities. We have sent more 
than a dozen of these letters directly to the Attorney General. 
To date, we have not received a single substantive response.
    We can disagree on matters of policy, Mr. Attorney General, 
but you cannot keep us in the dark forever. When we make a 
reasonable oversight request, we expect you to reply in a 
prompt and responsive manner. And I hope you can explain why 
your Department has chosen to ignore these letters.
    More importantly, I hope that you will be more forthcoming 
with your answers, both in your testimony today and in the 
weeks to come. And I look forward to your testimony.
    And, Mr. Chairman, I thank you and yield back the balance 
of my time.
    Chairman Goodlatte. Thank you, Mr. Conyers.
    Without objection, all other members' opening statements 
will be made a part of the record.
    We welcome our distinguished witness.
    And if you would please rise, I'll begin by swearing you 
in. Please raise your right hand.
    Do you solemnly swear that the testimony that you are about 
to give shall be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Attorney General Sessions. I do.
    Chairman Goodlatte. Thank you.
    Let the record show that the witness answered in the 
affirmative.
    Mr. Jeff Sessions was sworn in as the 84th Attorney General 
of the United States on February 9, 2017. From 1996 to his 
confirmation to lead the Department of Justice, Mr. Sessions 
served as a United States Senator for Alabama.
    Previously, Attorney General Sessions served as an 
assistant United States attorney and United States attorney for 
the Southern District of Alabama, Alabama attorney general, and 
captain in the United States Army Reserve.
    Attorney General Sessions is a graduate of Huntington 
College and the University of Alabama Law School.
    Welcome, Attorney General Sessions. Your entire written 
statement will be entered into the record, and we ask that you 
summarize your testimony in 5 minutes. But I noted that the 
ranking member took a few more minutes than that. If you find 
that necessary, please feel free to do that as well.
    Welcome.

TESTIMONY OF THE HONORABLE JEFFERSON B. SESSIONS III, ATTORNEY 
          GENERAL, UNITED STATES DEPARTMENT OF JUSTICE

    Attorney General Sessions. Thank you very much.
    Mr. Chairman, it's an honor to be before this distinguished 
committee, having served 20 years on your counterpart in the 
Senate, the Senate Judiciary Committee.
    Mr. Chairman, I must note that I note with regret your 
announcement of retirement. And I know that our relationship 
has been good in the past, and I hope it will continue to be 
good after you serve here. You've done a fabulous job in 
leading this committee.
    On my first day as Attorney General, I spoke about, quote, 
``the critical role we at the Department play in maintaining 
and strengthening the rule of law, which forms the foundation 
of our liberty, our safety, and our prosperity. In this rule of 
law, we are blessed beyond all nations''--and I truly believe 
that--``and at this department, we must do all we can to ensure 
that it is preserved and advanced. Such ideals transcend 
politics.''
    From that day to today, we at the Department of Justice 
have worked to be faithful to that mission. Let me share some 
things we've done initially.
    The President sent us an order to reduce crime, not to 
allow crime to continue to increase, and we embraced that 
mission. The violent crime rate has risen and the homicide rate 
has risen by more than 20 percent in just 2 years, really after 
30 years of decline in violent crime.
    After a careful review, we have established a reinvigorated 
Project Safe Neighborhood program as the foundational policy 
for public safety. It has been proven to get results. In its 
first 7 years of implementation, PSN reduced violent crime by 
4.1 percent, with case studies showing reductions in certain 
areas where it was intensely applied of up to 42 percent.
    So we're also focusing on criminals with guns. As you 
mentioned, Mr. Chairman, we've seen a 23-percent increase in 
gun prosecutions in the second quarter of this fiscal year, my 
first year.
    And I'm honored to lead the superb men and women of the 
FBI, the Drug Enforcement Administration, ATF, and the United 
States Marshals Service, who work together every day with our 
State and local partners in this core crime-fighting mission 
that is the responsibility of the Department.
    Last year, we saw a staggering 61-percent increase in the 
number of law enforcement officers killed in the line of duty 
because of a felony. And, on average, more than 150 officers 
were assaulted every single day. These numbers are 
unacceptable.
    Fortunately, the President understands this. He's directed 
us at the beginning of my administration to back our men and 
women in blue. We are making it clear that we stand with our 
law enforcement partners 100 percent. They are the solution to 
crime, not the problem.
    We've also protected the rule of law in our own department. 
We've prohibited so-called third-party settlements that were 
being used to bankroll special interest groups. We've settled 
civil cases regarding the Affordable Care Act's birth control 
mandate; settled the cases of many groups, tax-exempt groups, 
whose status was significantly and wrongfully delayed by the 
Internal Revenue Service.
    We've also provided legal counsel to this administration in 
favor of ending several other unlawful policies. This includes 
President Trump's order ending billions in funding for 
insurance companies that were not appropriated by Congress 
under the Affordable Care Act.
    This action, which the House had filed a lawsuit to stop, 
put an end to one of most dramatic erosions of the 
congressional appropriations power in our history. House 
Members, you are correct to challenge that. You won in the 
district court. We believed you were correct, and we had that--
we reversed the policy and had that matter withdrawn--the 
policy withdrawn.
    We put an end to actions by the previous administration to 
circumvent Congress' duly passed immigration laws on the DACA. 
The policy gave individuals that were here illegally 
certificates of lawful status, work permits, and the right to 
participate in Social Security. We withdrew that unlawful 
policy, and now the issue is in the hands of Congress--really 
where it belongs.
    We have filed briefs defending properly enacted State voter 
identification laws, lawful redistricting plans, religious 
liberty and free speech on college campuses.
    In short, it is our mission to restore the American 
people's confidence in the Department of Justice by defending 
the rule of law and enforcing the laws as you have passed them. 
And it is a mission we are honored to undertake.
    In response to letters from this committee and others, I've 
directed senior Federal prosecutors to make recommendations as 
to whether any matters not currently under investigation should 
be open, whether any matters currently under investigation 
require further resources, and whether any matters under 
consideration may merit the appointment of a special counsel.
    And, as you are aware, the Department's inspector general 
has an active review of allegations that FBI policies and 
procedures were are not followed last year in a number of 
matters that you have addressed. And, Mr. Chairman, the letter 
was addressed to you because it was a response to your letter, 
and that's how it was sent.
    We will make such decisions without regard--hear me--
without regard to politics, ideology, or bias.
    As many of you know, the Department has a longstanding 
policy not to confirm or deny the existence of investigations. 
This policy can be frustrating, I understand, especially when 
there's great public interest about a matter, but it enhances 
justice when we act under the law with professionalism and 
discipline.
    This policy necessarily precludes any discussion on cases I 
may be recused from, because to do so would confirm the 
existence of underlying investigations. To the extent a matter 
comes to the attention of my office that may warrant 
consideration of recusal, I review the issue, consult with the 
appropriate Department ethics officials, and make my decision, 
as I promised the Senate committee when I was confirmed.
    Lastly, I would like to address the false charges made 
about my previous testimony. My answers have not changed. I 
have always told the truth. And I have answered every question 
as I understood them, to the best of my recollection, as I will 
continue to do today.
    I would like to address recent news reports regarding 
meetings during the campaign attended by George Papadopoulos 
and Carter Page, among others.
    Frankly, I had no recollection of this meeting until I saw 
these news reports. I do now recall the March 2016 meeting at 
the Trump Hotel that Mr. Papadopoulos attended, but I have no 
clear recollection of the details of what he said at that 
meeting. After reading his account and to the best of my 
recollection, I believe that I wanted to make clear to him that 
he was not authorized to represent the campaign with the 
Russian Government or any other foreign government, for that 
matter.
    But I did not recall this event, which occurred 18 months 
before my testimony of a few weeks ago. And I would gladly have 
reported it had I remembered it, because I pushed back against 
his suggestion that I thought may have been improper.
    As for Mr. Page, while I do not challenge his recollection, 
I have no memory of his presence at a dinner at the Capitol 
Hill Club or any passing conversation he may have had with me 
as he left the dinner.
    All of you have been in campaigns, let me just suggest, but 
most of you have not participated in a Presidential campaign, 
and none of you had a part in the Trump campaign. And it was a 
brilliant campaign, I think, in many ways, but it was a form of 
chaos every day from day one. We traveled sometimes to several 
places in one day. Sleep was in short supply. And I was still a 
full-time Senator with a very full schedule.
    During this year, I've spent close to 20 hours testifying 
before Congress before today. I have been asked to remember 
details from a year ago, such as who I saw on what day in what 
meeting and who said what to whom. In all of my testimony, I 
can only do my best to answer your questions as I understand 
them and to the best of my memory.
    But I will not accept, and reject, accusations that I have 
ever lied. That is a lie. Let me be clear: I have at all times 
conducted myself honorably and in a manner consistent with the 
high standards and responsibilities of the office of Attorney 
General, which I revere. I spent 15 years in that department. I 
love that department. I honor that department and will do my 
dead-level best to be worthy of your Attorney General.
    So, as I said before, my story has never changed. I've 
always told the truth. And I've answered every question to the 
best of my recollection, and I will continue to do so today.
    With that, Mr. Chairman, I'm honored to take your 
questions.
    Chairman Goodlatte. Well, thank you, General Sessions.
    We will now proceed under the 5-minute rule with questions, 
and I will begin by recognizing myself.
    Under your leadership, the prosecution of firearms offenses 
have increased 23 percent over the same period of the previous 
year. Furthermore, the number of defendants charged with using 
a firearm in violent crimes of drug trafficking rose 10 percent 
over the previous year.
    We have a slide which shows the increase as compared to the 
Obama-era numbers.
    What do these increased prosecutions of firearms offenses 
indicate about the Department of Justice's commitment to 
fighting violent crime, particularly with the use of firearms, 
in this country?
    Attorney General Sessions. Mr. Chairman, as a former 
Federal prosecutor who emphasized gun prosecutions, I've long 
believed that they have a significant impact in reducing 
violent crime. Professors, earlier this year, have explained 
that they share that view based on scientific analysis. It will 
be a high priority of ours. You are correct that prosecutions 
fell.
    One instance that was raised during the Texas--terrific, 
horrible shooting at the church there in Sutherland, Texas, was 
the ability of an individual to get a firearm and whether or 
not they filed correctly their form before you get one that--it 
requires questions about criminal convictions and court 
marshals.
    Those prosecutions, I've noticed, have dropped by over 50 
percent in the last 3 or 4 years. I think those are worthy 
prosecutions. And when a criminal is carrying a gun during a 
criminal act of some other kind, that is a clear and present 
danger to the public. And those cases are important, and the 
impact: reduction of crime.
    Chairman Goodlatte. As you're aware, I and a majority of 
the members of this committee have on multiple occasions 
requested a special counsel to investigate former Secretary 
Hillary Clinton's mishandling of classified information and the 
actions of former Attorney General Lynch with respect to former 
FBI Director Comey's decision not to prosecute former Secretary 
Clinton.
    I am in receipt of the Department's letter from yesterday 
stating that senior Federal prosecutors will review our letters 
and make recommendations as to whether any matters not 
currently under investigation should be open, require further 
resources, or merit the appointment of a special counsel.
    Do I have your assurance that these matters will proceed 
fairly and expeditiously?
    Attorney General Sessions. Yes, you can, Mr. Chairman. And 
you can be sure that they will be done without political 
influence and they will be done correctly and properly.
    Chairman Goodlatte. You also reference an ongoing inspector 
general investigation into many of the matters we have raised. 
Will you ensure that the I.G. briefs this committee on his 
finding, in closed session if necessary?
    Attorney General Sessions. I will do my best to comply with 
that. The inspector general is able to announce investigations 
in a way that we do not on the normal criminal side of 
Department of Justice, and I assume he would be able to do 
that.
    Chairman Goodlatte. Over the past year, we have seen 
numerous apparent disclosures of unmasked names of U.S. 
citizens in the context of intelligence reports.
    Which crimes are violated when these unmasked names are 
disclosed, for example, to the press? How does the Department 
of Justice investigate such unauthorized disclosures?
    Attorney General Sessions. Mr. Chairman, that could 
implicate a number of legal prohibitions. It could be clearly a 
release of classified information contrary to law. And it's a 
very grave offense and certainly goes against the core policies 
of this government to protect those matters from disclosure.
    And the second part of your question was----
    Chairman Goodlatte. How the Department investigates such 
unauthorized disclosures.
    Attorney General Sessions. We have--members of the 
committee, we had about nine open investigations of classified 
leaks in the last 3 years. We have 27 investigations open 
today. We intend to get to the bottom of these leaks. I think 
it reached--has reached epidemic proportions. It cannot be 
allowed to continue, and we will do our best effort to ensure 
that it does not continue.
    Chairman Goodlatte. And on April 11 you issued a memorandum 
to all Federal prosecutors requesting that they make 
prosecution of certain immigration offenses a higher priority.
    To your knowledge, have the number of Federal prosecutions 
increased nationwide for offenses such as harboring aliens, 
improper entry, and illegal reentry?
    Attorney General Sessions. I do not have the statistics on 
that, but I believe there have been some increases in those 
cases.
    One thing we've seen is a reduction of attempts to enter 
the country illegally, and that is good news and should result 
in some decline in some prosecutions.
    Chairman Goodlatte. And, finally, as you know, this 
committee did a great deal of work to enact criminal justice 
reform legislation last Congress.
    Will you continue to work in good faith with me and the 
members of this committee on both sides of the aisle to 
identify and craft responsible reforms?
    Attorney General Sessions. I certainly will, Mr. Chairman.
    Chairman Goodlatte. Thank you, General Sessions.
    I now recognize the ranking member of the committee, Mr. 
Conyers, for 5 minutes.
    Mr. Conyers. Thank you, Mr. Chairman.
    And welcome again, Mr. Attorney General.
    I'd like to begin by putting a few statements by the 
President up on the screen.
    The first, from July 24, 2017: ``So why aren't the 
Committees and investigators, and of course our beleaguered 
[Attorney General], looking into Crooked Hillarys crimes & 
Russia relations?''
    The second, from November the 3rd: ``Everybody is asking 
why the Justice Department (and the FBI) isn't looking into all 
of the dishonesty going on with Crooked Hillary & the Dems.''
    The third, also from November 3rd: ``Pocahontas just stated 
that the Democrats, lead by the legendary Crooked Hillary 
Clinton, rigged the Primaries! Lets go FBI and Justice Dept.''
    I believe he is referring to Senator Elizabeth Warren in 
that last one. When Richard Nixon spoke about us that way, at 
least he had the courtesy to do it behind closed doors.
    Mr. Attorney General, a few questions for you. ``Yes'' or 
``no,'' please.
    In a functioning democracy, is it common for the leader of 
the country to order the criminal justice system to retaliate 
against his political opponents?
    Attorney General Sessions. Is that a question?
    Mr. Conyers. Yes, that's the question.
    Attorney General Sessions. Is it proper? Is that what you 
were----
    Mr. Conyers. No. You answer to me whether it is, ``yes'' or 
``no.'' Your response?
    Attorney General Sessions. But I didn't quite catch the 
beginning of the question. I'm sorry.
    Mr. Conyers. All right. In a functioning democracy, is it 
common for the leader of the country to order the criminal 
justice system to retaliate against his political opponents?
    Attorney General Sessions. Mr. Conyers, I would say that 
it's--the Department of Justice can never be used to retaliate 
politically against opponents, and that would be wrong.
    Mr. Conyers. I interpret that as ``no.'' You----
    Attorney General Sessions. My answer stands for itself, I 
guess.
    Mr. Conyers. Well, I would just--that would make it a 
little easier, if you just responded ``yes'' or ``no,'' if you 
can.
    Here's another: Should the President of the United States 
make public comments that might influence a pending criminal 
investigation?
    Attorney General Sessions. Take great care in those issues.
    Mr. Conyers. Could you respond ``yes'' or ``no''?
    Attorney General Sessions. Well, I don't know exactly the 
facts of what you're raising and what amounts to the concern 
you have. I would say it's improper to influence--it would be--
a President cannot improperly influence an investigation.
    Mr. Conyers. Okay.
    Attorney General Sessions. And I have not been improperly 
influenced and would not be improperly influenced.
    Mr. Conyers. All right.
    Attorney General Sessions. The President speaks his mind.
    Mr. Conyers. Yes, sir.
    Attorney General Sessions. He's bold and direct about what 
he says.
    Mr. Conyers. But----
    Attorney General Sessions. The people elected him. But we 
do our duty every day based on the law and facts.
    Mr. Conyers. Reclaiming my time, I'm not impugning these 
comments to you or what you would do in advance.
    Last night, sir, the Assistant Attorney General sent the 
chairman a letter suggesting that the Attorney General has 
directed senior Federal prosecutors to evaluate certain issues, 
like the sale of Uranium One in 2010.
    Now, at your confirmation hearing, you said, ``I believe 
the proper thing for me to do would be to recuse myself from 
any questions involving those kinds of investigations that 
involve Secretary Clinton and that were raised during the 
campaign or to be otherwise connected to it.''
    Now for my ``yes'' or ``no'' question. Are you recused from 
investigations that involve Secretary Clinton?
    Attorney General Sessions. Mr. Chairman, it's--I cannot 
answer that ``yes'' or ``no,'' because, under the policies of 
the Department of Justice, to announce recusal in any 
investigation would reveal the existence of that investigation, 
and the top ethics officials have advised me I should not do 
so.
    Chairman Goodlatte. The time of the gentleman has expired.
    Mr. Conyers. You----
    Chairman Goodlatte. The chair recognizes the gentleman from 
Wisconsin, Mr. Sensenbrenner, for 5 minutes.
    Mr. Sensenbrenner. Thank you very much.
    Welcome, Mr. Attorney General.
    We're debating whether section 702 should be reauthorized, 
and I want to talk about that issue.
    At the beginning, let me show you a poster that my campaign 
committee put up on the University of Whitewater campus in the 
2014 election during a debate on the USA Liberty Act. And it 
says, ``The GOVERNMENT knows what you did LAST NIGHT! The NSA 
has grabbed your phone calls, texts, Facebook posts, and 
emails. Jim Sensenbrenner thinks that's an outrageous invasion 
of your privacy.'' And it shows that I passed the bill and 
asked the students to vote for me. It worked. My percentage on 
that campus went up 20 points from the previous election.
    Now, we're talking about many of the same issues in terms 
of section 702. And the Foreign Intelligence Surveillance Act 
was designed to collect foreign intelligence, not domestic 
intelligence, but, in reality, we know that a vast number of 
Americans' communications are also collected.
    The committee took a great step in trying to balance 
security and privacy last week when we reported out the USA 
Liberty Act, which made significant changes to the program. 
Notably, this legislation specifies two ways the government can 
query the information under section 702: either foreign 
intelligence or evidence of a crime. USA Liberty Act ensures 
that the government does not abuse 702 by requiring that a 
warrant be issued to access content after querying information 
for evidence of a crime.
    Now, Attorney General Sessions, you have stated on several 
occasions that you believe that a warrant requirement would 
hinder the government's ability to detect and stop terrorists. 
Yet this bill already provides the government to move forward 
without a warrant on foreign intelligence in emergency 
situations.
    Why can't the USA Liberty Act be the compromise? Can't we 
allow the intelligence community to stop terrorists while 
protecting the constitutional rights of Americans?
    Attorney General Sessions. Well, we can. And the 
constitutional rights of Americans should be protected. And I 
know you worked on the PATRIOT Act when it came up, with 
Senator Hatch and Senator Leahy and others. And I know you're a 
champion of civil liberties.
    So I would just say that we can do that. The act, as 
written, as in law today, has been approved by the courts and 
has not been found to be in violation of the law. And so that's 
first and foremost.
    I know the committee has decided to put some additional 
restrictions on the way the act is conducted. We did not think 
that was lawfully required. Congress can make its own 
decisions, and we will continue to be able to share our 
thoughts about how the legislation should be crafted.
    Mr. Sensenbrenner. Well, Mr. Attorney General, the day 
before the committee marked up this bill, the Justice 
Department was actively lobbying members of the committee to 
oppose the measure, stating that it would dismantle section 
702.
    Now, this is a huge gamble, because 702 expires at the end 
of the year. We have a very short timeline. And I want to ask 
you, with a ``yes'' or ``no,'' following my friend from 
Michigan, do you want to risk the real possibility that this 
program will expire by insisting upon a clean reauthorization 
without a sunset?
    Attorney General Sessions. No, we don't want to take that 
risk.
    Mr. Sensenbrenner. Will you commit to working with 
Congress, and not against us, to make sure that section 702 is 
reauthorized, either the way you want it or the way we want it?
    Attorney General Sessions. Mr.--I almost said ``Mr. 
Chairman.'' I know you've held that office. Congress gets to 
dispose; we get to give our opinion.
    Mr. Sensenbrenner. Okay.
    Attorney General Sessions. I believe the act, as passed--
and it had been reauthorized with an even larger vote last 
time--is constitutional. I believe it works. And I am worried 
about additional burdens, particularly a warrant requirement, 
which could be exceedingly damaging to the effectiveness of the 
act.
    We are willing to talk to you about some of the concerns 
that exist out there. Hopefully we can work our way through it 
and accept the concerns and fix the concerns you have without 
going too far.
    Mr. Sensenbrenner. But, with all due respect, there is an 
emergency exemption in the USA Liberty Act, as reported from 
the committee, and that should take care of the problem. And 
yet people in your department were saying this was no good.
    You know, I take your offer, you know, at face value. And I 
will let you know if I hear of members of your department 
actively lobbying to defeat the bill rather than to work 
something out.
    And I yield back the balance of my time.
    Attorney General Sessions. I know you'll let us know, Mr. 
Sensenbrenner.
    Chairman Goodlatte. The chair recognizes the gentleman from 
New York, Mr. Nadler, for 5 minutes.
    Mr. Nadler. Thank you.
    Mr. Attorney General, following up on the questions from 
Mr. Conyers, at your confirmation hearing, you said, ``I 
believe the proper thing for me to do would be to recuse myself 
from any questions involving these kinds of investigations that 
involve Secretary Clinton and that were raised during the 
campaign or to be otherwise connected to it,'' close quote.
    Do you stand by that statement, ``yes'' or ``no''?
    Attorney General Sessions. Yes.
    Mr. Nadler. Thank you.
    Now, I want to show you an image from March 31, 2016, of a 
meeting of the Trump campaign national security advisory 
committee, which you chaired, with yourself in attendance, 
along with then-candidate Donald Trump and Mr. George 
Papadopoulos. Mr. Papadopoulos pled guilty on October 5 to 
making false statements to the FBI.
    The charging papers filed by Special Counsel Mueller 
describe the March 31 meeting, where Mr. Papadopoulos told the 
group that he had connections and could help arrange a meeting 
between Donald Trump and Vladimir Putin. After the meeting, Mr. 
Papadopoulos continued to communicate with the Russian 
Government on behalf of the Trump campaign and appears to have 
told several senior campaign officials about it.
    Now, here is the problem. On October 18 of this year, you 
said under oath in front of the Senate Judiciary Committee, 
quote, ``A continuing exchange of information between Trump's 
surrogates and intermediaries for the Russian Government did 
not happen, at least not to my knowledge and not with me.''
    Senator Franken asked, ``You don't believe that surrogates 
from the Trump campaign had communications with the 
Russians?'', to which you responded, ``I did not, and I'm not 
aware of anyone else that did,'' unquote.
    Now, we now know that, one, the campaign had communications 
with the Russians through Mr. Papadopoulos and others, and, 
two, you seem to have been aware of the fact at the time. So 
let's try and correct the earlier testimony now for the record.
    ``Yes'' or ``no,'' did you chair the March 31, 2016, 
meeting of the national security advisory committee?
    Attorney General Sessions. I did chair that meeting.
    Mr. Nadler. Thank you.
    ``Yes'' or ``no,'' did Mr. Papadopoulos mention his 
outreach to the Russian Government during that meeting?
    Attorney General Sessions. He made some comment to that 
effect----
    Mr. Nadler. ``Yes.'' Thank you.
    Attorney General Sessions [continuing]. As I remember----
    Mr. Nadler. I don't have----
    Attorney General Sessions [continuing]. After having read 
it in a newspaper----
    Mr. Nadler. I asked for ``yes'' or ``no.'' I don't have 
time.
    Attorney General Sessions. All right.
    Mr. Nadler. There are reports that you ``shut George 
down,'' unquote, when he proposed that meeting with Putin. Is 
this correct, ``yes'' or ``no''?
    Attorney General Sessions. Yes. I pushed back, I will just 
say it that way, because it was----
    Mr. Nadler. ``Yes.'' Your answer is ``yes.''
    So you were obviously concerned by Mr. Papadopoulos' 
connections and his possibly arranging a meeting with Putin.
    Now, again, ``yes'' or ``no,'' did anyone else at that 
meeting, including then-candidate Trump, react in any way to 
what Mr. Papadopoulos had presented?
    Attorney General Sessions. I don't recall.
    Mr. Nadler. Okay. So your testimony is that neither Donald 
Trump nor anyone else at the meeting expressed any interest in 
meeting the Russian President or had any concerns about 
communications between the campaign and the Russians?
    Attorney General Sessions. I don't recall.
    Mr. Nadler. Okay.
    Now, we know from multiple sources, including the 
Papadopoulos guilty plea, Carter Page's interview with the 
Intelligence Committee, and Donald Trump, Jr.'s emails, among 
others, that, contrary to your earlier testimony, there were 
continued efforts to communicate with the Russians on behalf of 
the Trump campaign.
    We have established that you knew about at least some of 
these efforts. They caused you such concern that you, quote, 
``shut George down.'' I want to know what you did with this 
information.
    ``Yes'' or ``no,'' after the March 31 meeting, did you take 
any steps to prevent Trump campaign officials, advisers, or 
employees from further outreach to the Russians?
    Attorney General Sessions. Mr. Nadler, let me just say it 
this way. I pushed back at that. You made statements that he, 
in fact----
    Mr. Nadler. But did you----
    Attorney General Sessions. At the meeting, I pushed back.
    Mr. Nadler. We know that. But did you----
    Attorney General Sessions. All right.
    Mr. Nadler [continuing]. After the meeting?
    Attorney General Sessions. I have to be able to answer. I 
can't--I can't be able to----
    Mr. Nadler. I only have 5 minutes. I'm asking you----
    Attorney General Sessions. I'm not going to be able to 
answer if I can't answer completely.
    Mr. Nadler. You said you pushed back. We accept that. After 
the meeting, did you take any further steps to prevent Trump 
campaign officials, advisers, or employees from further 
outreach to the Russians after you stopped it or pushed back at 
that meeting?
    Attorney General Sessions. What I want to say to you is you 
allege there were some further contacts later. I don't believe 
I had any knowledge of any further contacts----
    Mr. Nadler. Okay.
    Attorney General Sessions [continuing]. And I was not in 
regular contact with Mr. Papadopoulos.
    Mr. Nadler. So your answer is ``no'' because you don't 
think there were any such contacts. So you----
    Attorney General Sessions. I'm not aware of it.
    Mr. Nadler. Okay. So I was going to ask you a question of 
did you raise the issue with various people, but your answer is 
``no.''
    Attorney General Sessions. To the best of my recollection.
    Mr. Nadler. Okay.
    So your testimony today is that you communicated with 
nobody in the campaign about this matter after the March 31 
meeting because nothing happened.
    Attorney General Sessions. Repeat that.
    Mr. Nadler. Your testimony, therefore, is that you 
communicated with nobody in the campaign about this matter 
after the March 31 meeting----
    Attorney General Sessions. I don't recall it.
    Mr. Nadler. You don't recall.
    At some point, you became aware that the FBI was 
investigating potential links between the Trump campaign and 
the Russian Government. After you became aware of the 
investigation, did you ever discuss Mr. Papadopoulos' effort 
with anybody at the FBI?
    Attorney General Sessions. Did I discuss the matter with 
the FBI?
    Mr. Nadler. Yes.
    Attorney General Sessions. To ask them questions about what 
they may have found?
    Mr. Nadler. Did you discuss the Papadopoulos question with 
the FBI?
    Attorney General Sessions. I have not had any discussions 
with Mr. Mueller or his team or the FBI concerning any factors 
with regard to this----
    Mr. Nadler. Nobody else at the FBI either?
    Attorney General Sessions. No.
    Mr. Nadler. At the Department of Justice?
    Attorney General Sessions. No.
    Mr. Nadler. At the White House?
    Attorney General Sessions. No.
    Mr. Nadler. Any Member of Congress?
    Attorney General Sessions. Well, I don't know if these 
conversations may have come up at some time, but not to obtain 
information. In any--let----
    Mr. Nadler. Okay.
    Attorney General Sessions. With regard to your broad 
question, I don't recall at this moment, sitting here, any such 
discussion.
    Mr. Nadler. All right. I have one further----
    Attorney General Sessions. It's important for me to say 
that.
    Chairman Goodlatte. The time of the gentleman has expired. 
We've got a lot of people waiting to ask questions.
    And the chair recognizes the gentleman from Ohio, Mr. 
Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Attorney General, does your recusal from investigations 
related to the interference by Russia in the 2016 Presidential 
campaign apply to any investigations regarding efforts by the 
Democratic National Committee and the Clinton campaign to 
secretly fund a scurrilous and widely discredited dossier on 
candidate Donald Trump?
    Attorney General Sessions. Mr. Chairman, anything that 
arises in this nature that may be or may not be connected to my 
recusal on the question of the campaign and Russia would be 
discussed between me, the senior ethics adviser at the 
Department of Justice, and that's how I make my decision. 
That's what I promised to do when I was confirmed before the 
Senate Judiciary Committee, and that's what I will do. And I'm 
unable to provide information to you as to what decision has 
been made in this matter.
    Mr. Chabot. Great. Thank you very much.
    I'm not and never was a prosecutor, but I did some criminal 
defense work back in the day when I practiced law for almost 20 
years. It seems to me that a Presidential campaign using a law 
firm as a conduit to pay for activities with which the campaign 
itself doesn't want to be directly associated is more than just 
dirty politics; it's also, quite possibly, illegal. To me, it 
seems that this is at least a violation of campaign finance 
laws for failure to accurately disclose the actual recipients 
of campaign disbursements.
    However, this type of arrangement is not illegal--if it's 
not illegal under current law, I fear that we're risking 
opening Pandora's box with all sorts of underhanded activities 
by campaigns being laundered through law firms and shielded 
under attorney-client privilege.
    As the chief law enforcement official in this country, do 
you share similar concerns? And, in your opinion, is it legal 
under current law for a Presidential campaign to hide its 
funding of the compilation and dissemination of political dirt 
on its opponent by using a law firm to directly pay for the 
work?
    Attorney General Sessions. I would think that those matters 
are worthy of consideration. But as to the details of them and 
for me to express an ultimate comment today, I'm unable to so.
    Mr. Chabot. Okay. Thank you.
    Let me shift over to something entirely different. Federal 
law currently still cites marijuana as a dangerous drug. It's 
still prohibited. It's still illegal under Federal law. Yet a 
number of States have, for both medical purposes and now even 
for recreational purposes, have basically made it legal.
    What is your department's policy on that relative to 
enforcing the law?
    Attorney General Sessions. Our policy is that the same, 
really, fundamentally, as the Holder-Lynch policy, which is 
that the Federal law remains in effect, and a State can 
legalize marijuana for its law enforcement purposes, but it 
still remains illegal with regard to Federal purposes.
    Mr. Chabot. Okay. It seems to me that there's always been a 
tremendous amount of gray area in that whole field, which I 
think, as a Nation, you know, we need to look much more closely 
at, both from the State's point of view and the Federal 
Government point of view. But that's just my feeling on that.
    I'm running out of time. I had about four other things, but 
let me just go to one final thing here.
    I've been very involved in the area of victims' rights. I 
was the--following Henry Hyde's leadership on this, introduced 
a victims' rights constitutional amendment years back, various 
pieces of legislation on victims' rights. And I've also worked 
closely with the parents of murdered children. And when you 
talk about something that affects one's family, there's nothing 
that affects a family more adversely than something like that 
happening.
    And we still have capital punishment on the books, both at 
the Federal level and many of our States. Yet these families 
are dragged left and right, up and down, back and forth, into 
hearing after hearing. These cases can drag on for more than 20 
years before the imposition of capital punishment actually 
occurs. And, in many instances, obviously, it never does.
    And while these people are behind bars, oftentimes they 
attack, sometimes kill guards, attack, sometimes kill other 
inmates.
    So what is--I'd be interested to see, what is your--what is 
your intentions relative to capital punishment in this country?
    Attorney General Sessions. Well, many States have capital 
punishment. The Federal Government has capital punishment for a 
number of offenses, and it is specifically controlled. We have 
within the Department a recommendation process through our 
appointed committee to seek or not seek a death penalty when a 
case is charged. Sometimes it's a complex thing.
    But I believe the death penalty, the Federal death penalty, 
is a part of our law. I think it's a legitimate penalty. It's 
constitutional. And we will do our duty, even in those 
circumstances that require the imposition of the death penalty.
    Mr. Chabot. Thank you very much. My time has expired.
    Chairman Goodlatte. The chair recognizes the gentlewoman 
from California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Mr. Attorney General, for being here today.
    Former National Security Advisor Michael Flynn is under 
investigation because of his work and ties to foreign 
governments. According to various reports, much of his work 
with these foreign governments went unreported when Mr. Flynn 
was required to make certain disclosures by law.
    Now, as chairman of the Trump campaign national security 
advisory committee and lead adviser on the Trump transition 
team, I think you worked closely with Mr. Flynn, and I'd like 
you to answer a few yes-or-no questions about Mr. Flynn. And 
knowing that Mr. Flynn is under investigation, I'm going to 
stick to subject matter that predates both the special 
counsel's investigation and your appointment as attorney 
general.
    Now, the foreign policy platform at the Republican National 
Convention undertook dramatic changes. Did you discuss changes 
to the Republican foreign policy platform with Mr. Flynn at any 
point during the campaign?
    Attorney General Sessions. I don't recall it. I was not at 
the convention when the platform committee met.
    Ms. Lofgren. You were the lead of the campaign, but you 
don't recall discussing it with him?
    Attorney General Sessions. Well, that may be a bit of a 
stretch. I was asked to lead, inform, and find some people who 
would join and meet with Mr. Trump to give him advice and 
support regarding foreign policy, and I did so, although, we 
were not a very effective group, really.
    Ms. Lofgren. You met with Ambassador Kislyak in November of 
2016. Did you discuss your meetings with Ambassador Kislyak 
with Mr. Flynn?
    Attorney General Sessions. Did I discuss Mr. Flynn with 
him?
    Ms. Lofgren. Did you discuss your meeting with the 
Ambassador with Mr. Flynn?
    Attorney General Sessions. No. The Ambassador--I met with, 
I think, some 25 ambassadors that year. I did meet once in my 
office with Mr. Kislyak. And I do not recall and don't believe 
I communicated any of that information to Mr. Flynn.
    Ms. Lofgren. Are you aware of any meetings between 
Ambassador Kislyak and Mr. Flynn that might have occurred 
around the time of your meeting with the Ambassador?
    Attorney General Sessions. I do not.
    Ms. Lofgren. Okay. In her testimony before the Senate in 
May, former Acting Attorney General Sally Yates testified that 
1 week into the Trump administration she notified the 
administration that Mr. Flynn had lied to Vice President Pence 
about discussing sanctions with Ambassador Kislyak.
    As part of the transition team and the President's pick for 
attorney general, in January were you notified when the 
administration was notified of Mr. Flynn's lie and his 
susceptibility to Russian blackmail?
    Attorney General Sessions. I don't believe so.
    Ms. Lofgren. All right. We now know that you were aware of 
the efforts of Carter Page and George Papadopoulos to meet and 
establish communications with the Russian Government. Did you 
at any point----
    Attorney General Sessions. Well, that's not necessarily so, 
at least from what Mr. Carter Page says, and I don't recall 
that.
    Ms. Lofgren. All right. Did you at any point discuss with 
Michael Flynn the possibility of then-candidate Trump or his 
surrogates meeting with the Russian Government?
    Attorney General Sessions. I do not recall such a 
conversation.
    Ms. Lofgren. Did you know that Flynn was working for the 
Turkish Government while acting as a surrogate for the Trump 
campaign?
    Attorney General Sessions. I don't believe I had 
information to that effect.
    Ms. Lofgren. Did you know that he was working for the 
Turkish Government at any point after the election?
    Attorney General Sessions. I don't believe so.
    Ms. Lofgren. Were you or anyone on the Trump campaign aware 
of Mr. Flynn's efforts to extradite Turkish cleric Gulen?
    Attorney General Sessions. I've read that in the paper 
recently, but I don't recall ever being made aware of that 
before this recent release in the paper.
    Ms. Lofgren. So you just read about it in the newspaper 
afterwards?
    After the inauguration you did not know that the FBI was 
requested to conduct a new review of Turkey's 2016 extradition 
request for Mr. Gulen?
    Attorney General Sessions. The FBI was----
    Ms. Lofgren. Do you know about that?
    Attorney General Sessions. I'm aware that the Turkish 
Government continued to press the Federal Government with 
regard to seeking the return of Mr. Gulen to Turkey.
    Ms. Lofgren. Did you know----
    Attorney General Sessions. And our Department had a role to 
play in that, although I'm not at liberty to discuss the 
details of that.
    Ms. Lofgren. Did you know that the Turkish Government 
allegedly offered $15 million for Mr. Flynn to kidnap Mr. 
Gulen?
    Attorney General Sessions. Absolutely not.
    Chairman Goodlatte. The time of the gentlewoman has 
expired.
    The chair recognizes the gentleman from Iowa, Mr. King, for 
5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    And thank you, General Sessions, for your testimony here 
today and your service to our county over the years that you 
have been front and center.
    A number of things I wanted to discuss. One of them is the 
DACA situation. And it seems, as I recall, that you had made a 
public statement some time back about the constitutionality of 
the policy that was implemented by President Obama. Would you 
care to reiterate that position today?
    Attorney General Sessions. Well, the President--President 
Obama--indicated multiple times that he felt that DACA--he 
didn't have the power to do DACA in the way it was done. And 
eventually they must have changed their mind and executed this 
policy to take persons who were in the country unlawfully and 
to give them lawful status, work permits, and even 
participation in Social Security.
    So I felt, for some time, that that was not proper. A 
Federal district court in Texas so held, and the Fifth Circuit 
Court of Appeals also so held that it was unlawful. So what 
happened was, we helped work on the research, but the 
Department of Homeland Security withdrew the policy because it 
was not defensible, in my view.
    Mr. King. And established a date to close it down of March 
5, I think, of next year?
    Attorney General Sessions. That's right. The Homeland 
Security asked for time to wind this program down, and I 
thought that was appropriate.
    Mr. King. And there's a lot of public dialogue about what 
kind of legislation might be passed in conjunction with the 
DACA policy, and that's up in the air right now. I'm noticing 
that Democrats are saying: We're going to have everything we 
want on DACA or we'll shut the government down. So it causes me 
to think about what should happen if Congress reaches an 
impasse and there is no passage of any legislation to extend 
the DACA policy.
    If the President should decide on or before that March 5 
date, around that period of time, that he wants to extend the 
DACA policy, what would your position be at that time?
    Attorney General Sessions. Well, that's hypothetical 
Senator King. I'm not--I don't think I should speculate on 
that. But I do think Congress will have to give it thought. We 
have a law now, it's in place, as Congress passed, and Congress 
would have to change it.
    Mr. King. And I would just remark that I'm watching a lot 
of people be rewarded for the violation of the rule of law, and 
I appreciate your emphasis on rule of law in your testimony 
today, multiple times coming back to that point.
    Attorney General Sessions. Mr. King, I would just say, it 
is correct, in my view, and I think you'd probably share it, 
that something is lost whenever you provide an amnesty. It's a 
price that will be paid if that's done, but sometimes 
circumstances are such it may need to be done. But we need to 
be careful.
    Mr. King. Thank you.
    And it's been--we've been made aware in this committee that 
there's a significant backlog in immigration cases. Have you 
presented any requests to Congress or a statement that could 
inform us as to how many resources you might need, how many 
judges you might need to get this backlog caught up, and then 
an idea how many we might need to maintain an anticipated 
level?
    Attorney General Sessions. That's a very good question. 
Yes, we've worked on it, we have some preliminary information. 
We're seeking a total of about 360, 370 judges. We've added 
about 50 to the total. We've shortened the time process for 
selecting people--not shorting the training program--and we are 
adding judges.
    I would say on the backlog, it's gone up dramatically. It's 
now over 600,000. But the last 2 or 3 months we're almost not 
adding to the backlog. And I'm told, by the additional work 
we're doing, by January we will not be adding to the backlog, 
but hopefully reducing it. That would be a real change in the 
trends that we were heading on.
    Mr. King. Well, thank you.
    Then I'd just ask you to reflect, as this committee 
anticipates the potential of a special counsel, to broaden this 
look that I think is forced upon us in a reluctant way. But I 
certainly support the special counsel to look back at some 
times here that I believe should be incorporated into this.
    And that is, I look back at October 16, 2015, when Barack 
Obama was speaking of Hillary Clinton and whether she might 
have violated any security clauses in our statute, in 
particular 18 U.S.C. 793, when he said that he had no 
impression that Mrs. Clinton had purposely tried to hide 
something or to squirrel away any information. Made the point 
of intent.
    Behind that, in April, after that, April 10, a similar 
statement: She would never--meaning Hillary Clinton--she would 
never intentionally put America in any kind of jeopardy.
    Those words of intent caught my attention when I heard 
James Comey use that very word July 5 of 2016. And it seems as 
though he latched on to the statements made by President Obama, 
and a more or less implied, and implemented it into an 
interpretation of the statute, that word ``intent,'' as if it 
were a condition before there could be any prosecution for a 
violation of 18 U.S.C. 793.
    And I don't know that I have a question on that. I wanted 
to make sure that I put that into the record so that it's under 
consideration by the DOJ.
    Chairman Goodlatte. The time of the gentleman has expired.
    The chair recognizes the gentlewoman from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. I thank you very much.
    Mr. General, do you believe in this book, the Constitution 
of the United States?
    Attorney General Sessions. Yes.
    Ms. Jackson Lee. And will abide by it with all of your 
intentions?
    Attorney General Sessions. That is exactly correct.
    Ms. Jackson Lee. I thank you so very much.
    I took the liberty of reviewing Federal crimes against 
children, particularly those dealings with sexual or physical 
abuse. As you well know, Leigh Corfman, Wendy Miller, Debbie 
Watson Gibson, Gloria Thacker Deason, and Beverly Young Nelson, 
these young women have accused this individual, Judge Moore, 
who is running for a Federal office, the United States Senate, 
of child sexual activity.
    Do you believe these young women?
    Attorney General Sessions. I have no reason to doubt these 
young women.
    Ms. Jackson Lee. And with that in mind, if you believe 
these young women, do you believe Judge Moore should be seated 
in the Senate if he wins? And would you introduce 
investigations by the DOJ regarding his actions?
    Attorney General Sessions. We will evaluate every case as 
to whether or not it should be investigated. This kind of case 
would normally be a State case.
    I would say, Representative Jackson Lee, that the Ethics 
people at the Department of Justice, and I've talked to them 
about that when this campaign started, it's the seat I used to 
hold, they advised me that the Attorney General should not be 
involved in this campaign. I have friends in the campaign.
    Ms. Jackson Lee. Thank you. Thank you, Mr. General. I have 
a short period of time. I want to make sure that if he comes to 
the United States Senate----
    Attorney General Sessions. I have steadfastly adhered to 
that view. And I think I should continue to do so.
    Ms. Jackson Lee [continuing]. If he comes to the United 
States Senate, that there would be the possibility of referring 
his case for at least a Federal review by the Department of 
Justice.
    Attorney General Sessions. We will do our duty.
    Ms. Jackson Lee. Let me also refer you back to the meeting 
on March 31, 2016, with Mr. Papadopoulos. You well know that 
Mr. Papadopoulos, in addition to his comments in the meeting 
regarding a meeting between Trump and Mr. Putin, had a series 
of meetings dealing with--and as you can see, Trump, Mr. 
Papadopoulos, and you leading that committee. I cannot imagine 
your memory would fail you so much.
    But moving on, he was in that meeting, but you also had 
Stephen Miller, who was a senior policy adviser, who was noted 
in the stipulated statement of offense to receive conversations 
from Mr. Papadopoulos about his constant interaction with the 
Russians to intrude in the 2016 election.
    You continued in the October 18 meeting before the 
Judiciary Committee or hearing in the Senate to not answer the 
question. Now, in light of the facts that are now part of the 
record, do you wish to change your testimony before the Senate 
Intelligence Committee on June 13, 2017, where you said, ``I 
have never met with or had any conversation with any Russians 
or any foreign official''?
    Let me jump to the final part: ``I have no--I have no 
knowledge of any such conversations by anyone connected to the 
Trump campaign.''
    Do you want to admit under oath that you did not tell the 
truth or misrepresented, or do you want to correct your 
testimony right now?
    Attorney General Sessions. You're referring to my testimony 
at confirmation?
    Ms. Jackson Lee. Before the Senate Intelligence Committee. 
My time is short and I have two more questions, please.
    Attorney General Sessions. Well, I'm not able to respond 
because I don't think I understand what you were saying.
    Ms. Jackson Lee. I'm asking, your Intelligence Committee 
testimony, do you want to change it, where you indicated you 
had no knowledge of involvement of the Trump individuals 
involved in conversations regarding the Trump campaign and 
Russians? And Mr. Miller gave--supported Mr. Trump's press 
conference where he said, ``Russia, if you're listening, I hope 
you'll be able to find the 30,000 emails.''
    Do you want to change your testimony that was--where you 
said, I have no knowledge of any such conversations by anyone 
connected to the Trump campaign regarding Russians involved in 
the campaign? That was a testimony on June 13.
    Attorney General Sessions. I'm not able to understand----
    Ms. Jackson Lee. All right. Let me move forward to the----
    Attorney General Sessions. Let me say this, Mr. Chairman. 
Can I----
    Ms. Jackson Lee. The Black identity. Let me move to a 
document that you have prepared.
    Chairman Goodlatte. The witness will be allowed to answer 
the question.
    Ms. Jackson Lee. The gentleman keeps saying he cannot 
recall, he cannot recall. So I am reclaiming my time.
    Chairman Goodlatte. The gentlewoman will suspend. The 
witness wants to answer the question she asked him.
    Ms. Jackson Lee. Then I should be given extra time and I do 
not have extra time. Let me move to the Black identity----
    Chairman Goodlatte. Will the gentlewoman suspend?
    Ms. Jackson Lee. I will suspend.
    Chairman Goodlatte. The witness will answer the question.
    Ms. Jackson Lee. Yes or no, does he want to change his 
testimony in the Intelligence Committee?
    Attorney General Sessions. I would just say this. I stand 
by this testimony at the Intelligence Committee. I have never 
met with or had any conversation with any Russians or any 
foreign officials concerning any type of interference with the 
campaign or election in the United States. Further, I have no 
knowledge of any such conversations by anyone connected to the 
Trump campaign.
    Ms. Jackson Lee. Thank you very much for that.
    Attorney General Sessions. What I did say in my opening 
statement, I explained that when I was asked in October, just a 
few weeks ago, when I was asked about the matter, did I have 
any knowledge of anyone who had talked to the Russians. I 
indicated that I had not recalled that meeting when that 
occurred. But I would have been pleased to have responded and 
explained it if I had recalled it.
    I've tried to be honest about that and give you my best 
response and did throughout all the testimony I've given, Ms. 
Lee.
    Ms. Jackson Lee. You stand by your testimony. Thank you 
very much.
    Are you familiar with the names Eric Garner, Walter Scott, 
Tamir Rice? My question is, as I hold up the poster dealing 
with the report under your jurisdiction, Black identity 
extremists, it is interesting to me that you are opposing 
individuals who are posing lethal force similar to the attack 
on Reverend Dr. Martin Luther King on COINTELPRO, but there 
seems to be no report dealing with the tiki torch parade in 
Charlottesville, chanting, ``Jews will not replace us.''
    Why is there an attack on Black activists versus any 
reports dealing with the alt-right and the White nationalists? 
Can you answer that question quickly?
    Attorney General Sessions. I'm a not aware----
    Ms. Jackson Lee. Is anyone investigating that?
    Attorney General Sessions. When was that report completed?
    Ms. Jackson Lee. In August of 2017.
    Attorney General Sessions. I am not aware. I have not 
studied that report.
    Ms. Jackson Lee. I ask you to because it's an attack on 
individuals who are simply trying to petition the government in 
the redress of grievances.
    Let me move to criminal justice reform. We have found that 
mandatory minimums and over-incarceration has been the history 
of criminal justice. We were moving toward criminal justice 
reform, which you opposed as a United States Senator, and now 
you intend to return toward discredited Nixon-era law and order 
criminal justice policies going to make American great or waste 
precious taxpayer dollars.
    Do you have any interest in rehabilitating those 
incarcerated, recognizing that mandatory minimums created the 
opportunity for over-incarceration, rather than telling your 
prosecutors to prosecute on every single crime? Is there any 
opportunity to work with your office to deal with progressive 
ways of dealings with criminal justice reform at this time, yes 
or no?
    Attorney General Sessions. Yes.
    Ms. Jackson Lee. All right.
    Attorney General Sessions. I would just respond and say 
that Senator Durbin and I worked together to reduce the crack 
cocaine penalties some years ago. It probably remains the 
largest single----
    Ms. Jackson Lee. Will you pull back on----
    Chairman Goodlatte. The time of the gentlewoman has 
expired.
    Ms. Jackson Lee. Will you pull back on your position on 
mandatory minimums?
    Chairman Goodlatte. The time of the gentlewoman has 
expired. The witness is allowed to answer the last question.
    Attorney General Sessions. I'm sorry.
    Chairman Goodlatte. The time of the gentlewoman has 
expired.
    The chair recognizes the gentleman from California, Mr. 
Issa, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    General Sessions, it's good to see you again.
    Attorney General Sessions. Yes, sir.
    Mr. Issa. I don't speak Russian and I don't meet with 
Russians and I don't really want to ask about those questions 
today. But I do have some very important questions.
    Attorney General Sessions. Well, Congressman Issa, you said 
that, but I bet you have met with some Russian, and if you--in 
your lifetime--and taking those words at face value, somebody 
might accuse you of not being honest.
    Mr. Issa. You're absolutely----
    Attorney General Sessions. That's what they have done to 
me.
    Mr. Issa. You're absolutely right, General Sessions, that 
that is the challenge, that as a member of the Foreign Affairs 
Committee, I met with a lot of ambassadors. And I don't want to 
try to remember everyone and everything that was discussed in 
what I thought was a pro forma meeting.
    But there are a couple of areas that are left over from the 
previous administration that I would like to talk to you about. 
One of them is we sent Loretta Lynch, General Lynch, a letter 
related to sober homes and a predicament. And the predicament 
is fairly straightforward. And her answer, to be honest, to 
Chairman Goodlatte and the rest of us was not satisfactory, and 
we have given your staff a copy of it.
    Essentially sober living homes are nothing but boarding 
houses. They are required to provide no care whatsoever to the 
alcoholic or recovering drug abuser because that has to be done 
somewhere else, so they don't qualify as sober homes.
    And yet, currently, there are in the Ninth Circuit 
decisions that cause cities to be unable to regulate them in a 
way that would prevent people from simply buying houses in a 
row in a very prestigious neighborhood and turning them into 
these, if you will, sober living homes, which are, again, 
boarding houses with 15 or more people.
    Will you agree to work with us to try to find an 
appropriate way to align your enforcement of the Americans with 
Disability Act and your enforcement of the Fair Housing Act 
with the necessity for cities to be able to essentially 
regulate how many people live in a home?
    Attorney General Sessions. Yes, I would be pleased to do 
that. These are important issues because a lot of money is 
being spent, and some of it not wisely, in these areas.
    Mr. Issa. A lot of it is Federal dollars being squandered 
to the benefit of people that are speculating.
    The second one is a trial court ruling in the Duarte 
Nursery v. the Army Corps of Engineers case. Are you even 
familiar with this case?
    Attorney General Sessions. I'm not.
    Mr. Issa. Well, I would like you to become familiar, 
because during your administration an Assistant U.S. Attorney 
on your behalf argued that the Waters of the U.S., which is not 
a valid regulation delivered to Congress and eligible under CRA 
to be considered or rejected, continued to argue that that was 
law.
    Would you agree that your attorneys, on your behalf, should 
not argue regulations which have not been delivered to Congress 
and as a result are not eligible for CRA review?
    Attorney General Sessions. Mr. Issa, I have now recalled 
the case. I didn't recall it by name.
    That matter was intensely reviewed by a new Assistant 
Attorney General for the--acting, at least--for the Environment 
and Natural Resources Division. After great consideration, we 
felt--it was advised to me and I approved going forward with 
that position in court. So I will take responsibility for it. 
But I got to tell you, we did look at it very hard.
    Mr. Issa. But, in general, you would agree that if a 
regulation is created or some other words of the executive 
branch, they don't have the weight of law unless they're 
delivered to Congress so we have an opportunity to review them 
under the Congressional Review Act.
    Attorney General Sessions. That would sound correct.
    Mr. Issa. Thank you.
    My last question is less of a softball, and neither one of 
these are softballs, they are very important to California. But 
in the previous Congress, the Ways and Means Committee of the 
United States House voted for and referred criminal charges 
against Lois Lerner. I also was involved in investigating her 
wrongful activity.
    They referred criminal charges, and they did so under a 
statute that says, and I'll paraphrase it as well as I can, 
that the U.S. Attorney for the District of Columbia shall 
present to the grand jury the following--and then they laid out 
the criminal charges.
    The previous Attorney General ordered the U.S. Attorney, or 
the U.S. Attorney in the District, made a decision not to 
enforce that. Now, the statute, as we understand it, is not a 
statute that says, you will look at this and decide 
independently. It actually says, it shall be presented to the 
grand jury.
    Will you commit to review that, and if you agree with us as 
to what the statute says, and we think it's pretty plain 
English, order a U.S. Attorney to present to a grand jury--and 
if they ``no bill'' it, fine--but, in fact, to present it 
consistent, with congressional and statutory law?
    Attorney General Sessions. I will review that more 
personally. But the Department of Justice view has been it 
takes a full vote of the House to accomplish that act. And I'm 
not sure where that leaves us. But I will give it a personal 
review, which I have not done at this point.
    Mr. Issa. Mr. Chairman, if you can stop the clock for 1 
second. If the entire House voted to----
    Chairman Goodlatte. The time of the gentleman has expired.
    The chair recognizes the gentleman from Tennessee, Mr. 
Cohen, for 5 minutes.
    Mr. Cohen. Thank you, sir.
    Mr. Attorney General, first, I noted that you went to the 
50th anniversary of the Selma, Alabama, Selma/Montgomery, I 
want to commend you for that, and you were a sponsor of the 
gold medal for those folks that marched.
    Having done that, I would like to ask you, what you have 
done as Attorney General to see to it that African Americans 
and others who have been discriminated for years in voting have 
more access to the ballot box?
    Attorney General Sessions. We will absolutely, resolutely 
defend the right of all Americans to vote, including our 
African American brothers and sisters. It cannot ever be 
suggested that people are blocked from voting. And we have done 
a number of things in the Department of Justice.
    Mr. Cohen. Let me ask you this, Mr. Attorney General. It is 
a fact, there have been studies to show that voter ID is more 
discriminatory in its effect on African Americans and Latinos 
than anything else. Will you stop defending voter ID law cases?
    Attorney General Sessions. No. The Supreme Court has 
approved voter ID, if properly done. Other courts have, too. It 
can be done in a discriminatory way, which is not proper and 
should not be approved. But I believe it's settled law that a 
properly handled and written voter ID law is lawful.
    Mr. Cohen. Let me suggest, sir, with all due respect, we 
come from the similar region. I think we have a greater 
responsibility than anybody else in this country to see to it 
that African Americans get a chance at the ballot. When they 
were discriminated against, they were slaves for 200-plus 
years, they were under Jim Crow, they weren't allowed to vote, 
and they're still being discriminated against.
    And I would submit to you and ask you to look at voter ID 
laws, access to ballot, election day voting, early voting, and 
other indices that will allow people to vote that have been 
stopped.
    Secondly, on marijuana, you said that you are basically 
doing the same as Holder and Lynch. I believe General Holder 
and General Lynch abided by congressional appropriations that 
limited the Justice Department in enforcing marijuana laws 
where States had passed laws on medical marijuana and others.
    Will you abide by congressional appropriations limitations 
on marijuana when it would conflict with State laws?
    Attorney General Sessions. I believe we are bound by that.
    Mr. Cohen. Thank you, sir. That's great.
    I saw what you did on crack cocaine was good. It wasn't as 
good as it could have been. Your proposal was a 20 to 1 ratio, 
Mr. Durbin's was a 10 to 1 ratio, you all decided on 18 to 1. 
You were a good negotiator. Mr. Durbin took what he could get. 
But it should have been 1 to 1. But you admitted in that 
hearing that it could discriminate against the disparity 
against African Americans and minorities, and you ought to look 
at that.
    Attorney General Sessions. Well, I'll just say that the net 
effect of that legislation was to significantly reduce----
    Mr. Cohen. It was good, sir.
    Attorney General Sessions [continuing]. The penalty one is 
subjected for dealing with crack cocaine.
    Mr. Cohen. Yes, sir, and that was good.
    Attorney General Sessions. That may be a better analysis 
than the 18 to 1 or whatever it is. It's generally considered a 
more dangerous drug.
    Mr. Cohen. Marijuana is not as dangerous as heroin. Would 
you agree with that?
    Attorney General Sessions. I think that's correct.
    Mr. Cohen. Well, thank you, sir. I would hope that in your 
enforcement that you would look at the limitation that you've 
got. There's always an opportunity cost, and put your 
opportunity cost, your enforcement on crack, on cocaine, on 
meth, on opioids, and on heroin. Marijuana is the least 
bothersome of all.
    Twenty-eight States or 29 States and the District of 
Columbia have legalized it for medical purposes, eight States 
and the District of Columbia for recreational purposes. Justice 
Brandeis famously said that the States are the laboratories of 
democracy. I would hope you'd look at marijuana and look at the 
States as laboratories of democracy and see how they've helped.
    In States where they've got medical marijuana, they have 25 
percent less opioid use. It gives people a way to relieve pain 
without using opioids, which inevitably leads to death and 
crime. And so I would hope you'd take a look at that.
    Attorney General Sessions. We will take a look at it, and 
we'll be looking at some rigorous analysis of the marijuana 
usage and how it plays out. I'm not as optimistic as you.
    Mr. Cohen. You said one time that good people don't smoke 
marijuana. Which of these people would you say are not good 
people?
    Attorney General Sessions. Well, let me explain how that 
occurred.
    Mr. Cohen. All right. Quickly.
    Attorney General Sessions. I talked about----
    Mr. Cohen. Is John Kasich a good person? George Pataki, 
Rick Santorum, Newt Gingrich, Ted Cruz, Jeb Bush, George Bush, 
Arnold Schwarzenegger, Judge Clarence Thomas, which of those 
are not good people?
    Attorney General Sessions. Let me tell you how that came 
about, Congressman. So the question was, what do you do about 
drug use, the epidemic we're seeing in the country, and how you 
reverse it. Part of that is a cultural thing. I explained how 
when I became a United States Attorney in 1981 and the drugs 
were being used widely over a period of years, it became 
unfashionable, unpopular, and people were seeing--and it was 
seen as such that good people didn't use marijuana. That was 
the context of that statement.
    Mr. Cohen. It might have affected your short-term memory. 
What years were those.
    Chairman Goodlatte. The time of the gentleman has expired.
    The chair recognizes the gentleman from Ohio, Mr. Jordan, 
for 5 minutes.
    Mr. Cohen. One last question. Alabama or Auburn?
    Chairman Goodlatte. The gentleman's time has expired.
    Attorney General Sessions. War Eagles. I went to law 
school. I love Alabama.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. Mr. Attorney General, did the FBI pay 
Christopher Steele?
    Attorney General Sessions. Where am I?
    Mr. Jordan. Right here. Did the FBI pay Christopher Steele, 
the author of the dossier?
    Attorney General Sessions. Those are matters you'll have to 
direct to the--I think maybe the special counsel.
    Mr. Jordan. And why is that? I'm just asking if someone 
paid, it was the FBI.
    Attorney General Sessions. But I'm not able to reveal intel 
on investigatory matters here that is under the investigation 
of anybody, but particularly, I think, the----
    Mr. Jordan. This happened in the summer of 2016. We know 
the Clinton campaign, the Democrat National Committee, paid 
through a law firm, Fusion GPS, to produce the dossier. We know 
the author was Christopher Steele. It's been reported that he 
was on the payroll of the FBI. I'm just wanting to know if, in 
fact, that is the case.
    Attorney General Sessions. I'm not able to provide an 
answer to you.
    Mr. Jordan. Did the FBI present the dossier to the FISA 
court?
    Attorney General Sessions. I'm not able to answer that.
    Mr. Jordan. Do you know if the FBI did the established 
process protocol in evaluating claims made in the dossier?
    Attorney General Sessions. I'm not able to answer that.
    Mr. Jordan. On January 6, then FBI Director James Comey 
briefed President-Elect Trump up in New York about the dossier. 
Shortly thereafter, that--the fact that that meeting took 
place, and the subject of the meeting was the dossier, was 
leaked to CNN. Do you know who leaked that information?
    Attorney General Sessions. I do not.
    Mr. Jordan. Are you investigating who leaked that 
information?
    Attorney General Sessions. That would be a matter within 
the investigatory powers of the special counsel or the 
Department of Justice.
    Mr. Jordan. You've got a number of investigations going on, 
Mr. Attorney General, regarding leaks. Is that likely one of 
those that you're investigating?
    Attorney General Sessions. I'm not able to reveal the 
existence of investigations or not.
    Mr. Jordan. Mr. Attorney General, I appreciate your service 
in the Senate, I appreciate your service at the Justice 
Department, I consider you a friend. And, frankly, I appreciate 
yesterday's letter saying you were considering appointing a 
special counsel, that you sent to us.
    But my concern is we sent you a letter 3\1/2\ months ago 
asking for a second special counsel. And if you're now just 
considering it, what's it going to take to get a special 
counsel?
    We know that former FBI Director James Comey misled the 
American people in the summer of 2016 when he called the 
Clinton investigation a matter. It was obviously an 
investigation.
    We know FBI Director Comey was drafting an exoneration 
letter before the investigation was complete.
    We know, Loretta Lynch, 1 day before the Benghazi report 
came out, 5 days before Secretary Clinton was scheduled to be 
interviewed by the FBI, met with former President Bill Clinton 
on a tarmac in Phoenix.
    We know after that meeting, when she was corresponding with 
public relations people at the Justice Department, she was 
using the name Elizabeth Carlisle. As I've said before, it 
seems to me if you're just talking gold and grandkids, you can 
probably use your real name.
    We know that Mr. Comey publicized the investigation and we 
know he made the final decision on whether to prosecute or not.
    And then, when he gets fired, he leaks a government 
document through a friend to The New York Times, and what was 
his goal? To create momentum for a special counsel. And, of 
course, it can't just be any special counsel, it has got to be 
Bob Mueller, his best friend, his predecessor, his mentor; the 
same Bob Mueller who was involved, we've now learned, in this 
whole investigation with the informant regarding Russian 
businesses wanting to do business in the uranium business here 
in the United States regarding the Uranium One Deal.
    So I guess my main question is, what's it going to take, if 
all of that, not to mention the dossier information, what's it 
actually going to take to actually get a special counsel?
    Attorney General Sessions. It would take a factual basis 
that meets the standards of the appointment of a special 
counsel.
    Mr. Jordan. And is that analysis going on right now?
    Attorney General Sessions. It's in the manual of the 
Department of Justice about what's required. We've only had 
two. The first one was the Waco, Janet Reno, Senator Danforth 
who took over that investigation as special counsel, and Mr. 
Mueller. Each of those are pretty special factual situations.
    Mr. Jordan. Let me ask it this way.
    Attorney General Sessions. And we will use the proper 
standards. And that's the only thing I can tell you, Mr. 
Jordan.
    Mr. Jordan. Well, I appreciate that, but----
    Attorney General Sessions. You can have your idea, but 
sometimes we have to study what the facts are and to evaluate 
whether it meets the standard that requires a special counsel.
    Mr. Jordan. Well said, but let me ask you this. If in 
fact--well, we know one fact. We know the Clinton campaign, the 
Democrat National Committee paid for, through the law firm, 
paid for the dossier. We know that happened. And it sure looks 
like the FBI was paying the author of that document. And it 
sure looks like a major political party was working with the 
Federal Government to then turn an opposition research 
document, the equivalent of some National Enquirer story, into 
an intelligence document, take that to the FISA court, so that 
they could then get a warrant to spy on Americans associated 
with President Trump's campaign. That's what it looks like.
    And I'm asking you, doesn't that warrant--in addition to 
all this things we know about James Comey in 2016--doesn't that 
warrant naming a second special counsel, as 20 members of this 
committee wrote you 3-\1/2\ months ago asking you to do?
    Attorney General Sessions. Well, Mr. Comey is no longer the 
Director of the FBI.
    Mr. Jordan. Thank goodness.
    Attorney General Sessions. We have an excellent man of 
integrity and ability in Chris Wray, and I think he's going to 
do an outstanding job. And I'm very happy about that. And I 
would say----
    Mr. Jordan. He's not here today, Attorney General Sessions, 
you are, and I'm asking for a special counsel.
    Chairman Goodlatte. The time of the gentleman has expired.
    Attorney General Sessions. And I would say ``looks like'' 
is not enough basis to appoint a special counsel.
    Chairman Goodlatte. The time of the gentleman has expired.
    The chair recognizes the gentleman from Georgia, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson of Georgia. Thank you.
    General, you have let a remarkable and notable career over 
the last 42 years as an attorney in private practice, as the 
Attorney General of Alabama, then the U.S. Attorney in Alabama, 
later the U.S. Senator of Alabama, and now the Attorney General 
of the United States of America.
    And you made a professional judgment call when you recused 
yourself from the investigation of the Russian interference in 
the 2016 elections, and you've caught a lot of flak for that 
decision.
    What I want to know is, why did you recuse yourself?
    Attorney General Sessions. Well, thank you very much.
    I told the Senate Judiciary Committee when I was confirmed 
that I would evaluate those matters, I would seek the counsel 
of the senior ethics adviser----
    Mr. Johnson of Georgia. My question is, why did you recuse 
yourself?
    Attorney General Sessions. I'll get there.
    Mr. Johnson of Georgia. I don't want you to filibuster.
    Attorney General Sessions. Okay. I did do that. I evaluated 
that. And they showed me something I was not familiar with, one 
of the Code of Federal Regulations. It says, if you participate 
in a substantial role in a campaign, a Department of Justice 
employee should not participate in investigating that campaign.
    Mr. Johnson of Georgia. All right. Thank you.
    Attorney General Sessions. I felt that was correct. It was 
not because I had any concern about anything I had done 
previously, but it was, to me, if I were not bound by that, I 
don't see how other people in the Department of Justice could 
be expected to follow the rules of the Department either.
    Mr. Johnson of Georgia. Thank you, sir.
    And after you recused yourself, you did participate in the 
firing of the FBI Director who was leading the investigation 
into the Russian interference with the 2016 elections.
    Prior to Jim Comey's termination, were you contacted by the 
Donald Trump administration, anyone in that administration, 
Donald Trump himself or any of his political or campaign 
officials, about their quest to fire Jim Comey?
    Attorney General Sessions. I am not able to and cannot 
reveal conversations with the President of the United States or 
his top advisers.
    Mr. Johnson of Georgia. Let me ask you this question. With 
regards to the AT&T proposed acquisition of Time Warner, which 
owns CNN, it appears to be a vertical merger much like the 
Comcast-NBCUniversal merger that DOJ approved. But unlike its 
treatment of Comcast-NBCUniversal, DOJ has suggested strongly 
that it will not approve the AT&T-Time Warner merger unless 
Time Warner sells off CNN's parent company, Turner 
Broadcasting.
    It's well known that your boss, President Trump, has great 
disdain for CNN, which he calls fake news. And what I want to 
know is, has the White House or any individual in or on behalf 
of the Trump administration or the Trump political team or 
campaign, excluding staff from FCC or DOJ, has anybody 
contacted you, your office or your assigns, regarding that 
AT&T-Time Warner acquisition?
    Attorney General Sessions. First, I would say that I don't 
accept and cannot accept the accuracy of that news report. We 
have a professional----
    Mr. Johnson of Georgia. Your Department has not told Time 
Warner and AT&T that they must shed Turner Broadcasting?
    Attorney General Sessions. Our work is professional. They 
do meet with the----
    Mr. Johnson of Georgia. Is that a false report or is it a 
true report?
    Attorney General Sessions. I just would tell you, I don't 
think it's--I'm able to accept as accurate the news reports 
that have been coming out on that.
    Mr. Johnson of Georgia. Let me ask you this question. On 
October the 18th, when testifying before the Senate Judiciary 
Committee, Senator Sasse asked you if the Department had taken 
adequate action to prevent election meddling in the future. You 
stated that there was no review underway of the cybersecurity 
vulnerabilities.
    Have you requested a review of what laws need to be updated 
in order to protect our elections from foreign influence?
    Attorney General Sessions. We have discussed those matters, 
but no completion has been done at the----
    Mr. Johnson of Georgia. Are you conducting a review at this 
time?
    Attorney General Sessions. Yes. Our team is looking at 
that. The FBI has real skills in that area, and I think we are 
not anywhere near where I would like us to be yet, Mr. Johnson.
    Mr. Johnson of Georgia. All right. Let me ask you this 
question. What individual with your Department is leading that 
inquiry?
    Attorney General Sessions. We would be working with our 
Voting Rights Section, our Criminal Section. Our National 
Security Section probably is the most knowledgeable in the 
hacking area, as well as the expertise in the FBI.
    Chairman Goodlatte. The time of the gentleman has expired.
    Mr. Johnson of Georgia. Thank you.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Texas, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Attorney General, first of all, I want to thank you for 
all your efforts to restore the rule of law. Nothing could be 
more important to our justice system, and nothing could be more 
important to protecting the lives of Americans, and, frankly, 
not just protecting the lives, but keeping all Americans safe.
    In particular, many of us appreciate your efforts to crack 
down on sanctuary cities that blatantly ignore Federal 
immigration laws, to combat criminal gangs that prey on our 
communities, to return to robust prosecutions of drug cases, to 
protect children from dangerous child predators, and to 
safeguard religious liberties that are enshrined in our 
Constitution.
    I'd like to go back for a second to sanctuary cities. I 
have been waiting 20 years for a President and an 
administration that would enforce current immigration laws. It 
so happens that I introduced a bill in 1996 with Senator Al 
Simpson that, among other things, outlawed sanctuary cities. So 
the law is there, and I want to thank you for being willing to 
enforce that law, which will protect many innocent Americans 
from harm and perhaps save their lives.
    More generally, I'd like to ask you if you feel that there 
are any immigration laws, and if so, which ones, that need to 
be better enforced?
    Attorney General Sessions. There absolutely are, and maybe 
even some improved. I know you've worked on that and the 
chairman has worked on that with some excellent legislation. I 
totally believe that the professional legislation I know the 
chairman has worked on and you've worked on would be 
tremendously helpful.
    We've got to deal with numbers. And so when you create a 
mechanism by which whole--we had 5,000 people in 2005 who 
claimed a credible fear. Last year it was 95,000. This is 
creating hearings and backlogs that were never intended to be 
part of the system. It did not happen before.
    And so there's so many things out there that burden our law 
enforcement officers, make it more difficult, more expensive, 
more lengthy to complete these things. We've just got to make 
up our mind. We've got to make up our mind, do we want a lawful 
system of immigration that serves the national interest or do 
we want open borders and we are not going to enforce it?
    Thank you for your leadership, Mr. Smith. I know you'll be 
leaving this body also. And I've enjoyed so much the honor of 
working with you.
    Mr. Smith. Thank you, Mr. Attorney General.
    I'm not going to ask any questions, and I'm going to end 
with that, Mr. Chairman. I'll yield back. Thank you.
    Chairman Goodlatte. The chair thanks the gentleman.
    We're going to take a break, Attorney General Sessions. So 
the committee will stand in recess for 10 minutes.
    Attorney General Sessions. Thank you.
    Chairman Goodlatte. The committee will reconvene.
    And the chair recognizes the gentleman from Florida, Mr. 
Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Attorney General Sessions, thanks for being here.
    General Sessions, who do you work for? Do you work for the 
American people or do you work for the President of the United 
States?
    Attorney General Sessions. Well, I'm a member of executive 
branch and I work for the American people.
    Mr. Deutch. And it's with that in mind, your work on behalf 
of the American people, that I want to ask you some questions 
about facts in public media reports.
    On February 14, the President asked FBI Director about the 
Flynn investigation, and I quote, he said, ``I hope you can see 
your way clear to letting this go, to letting Flynn go. He's a 
good guy. I hope you can let this go,'' close quote.
    On May 9, the President fired Comey. On May 11, he went on 
television and announced that he fired Comey because of, and I 
quote again, ``the Russia thing with Trump and Russia,'' close 
quote.
    General Sessions, do you think it would be reasonable for 
the members of this committee to conclude that the President by 
first interfering in one investigation and then interfering in 
an investigation into himself committed obstruction of justice?
    Attorney General Sessions. I don't believe that's a fair 
conclusion. But it's a matter that, I guess, would be in the 
breast of the special counsel.
    Mr. Deutch. And the obstruction of justice being any, among 
other definitions, the most popular one in statute, any 
communication that endeavors to influence, obstruct, or impede 
the due administration of justice. That's exactly what the 
President did in both of those cases.
    And in spite of moving on to the special counsel, you 
brought up, in spite of efforts, bipartisan efforts to protect 
the special counsel, Mr. Mueller, Republican leadership and 
this committee have refused to take action to ensure that he's 
protected.
    Do you believe that the President has the legal authority 
to fire Special Counsel Mueller?
    Attorney General Sessions. I'm not able to express an 
opinion on that.
    Mr. Deutch. Can he fire members of the special counsel's 
team?
    Attorney General Sessions. I'm not able--I'm not able to 
answer that.
    Mr. Deutch. General Sessions, do believe that the President 
should have the authority to be able to block investigations 
into his own campaign?
    Attorney General Sessions. Investigations have to be 
conducted by the appropriate law enforcement officers without 
fear and favor, without politics or bias.
    Mr. Deutch. Right. And without fear of being dismissed by 
the President in order to block that investigation, because, 
again, that would certainly appear to represent obstruction of 
justice. And when you fail to acknowledge that, it is 
essentially a green light to the President to go ahead and do 
that.
    I wanted to talk about the special counsel's investigation. 
Thus far there have been some indictments, there's a guilty 
plea.
    Can you tell me, in your opinion, does the President have 
the power to pardon George Papadopoulos?
    Attorney General Sessions. It would be premature for me to 
comment on that, I believe.
    Mr. Deutch. Because?
    Attorney General Sessions. The President has the power to 
pardon, there is no doubt about that.
    Mr. Deutch. Right. Does he have the power to pardon Paul 
Manafort and Rick Gates ahead of a trial and a conviction?
    Attorney General Sessions. I'm not able to comment on that. 
I haven't researched that question. I think it's settled--maybe 
settled law, but I'm not----
    Mr. Deutch. What do you think the settled law is?
    Attorney General Sessions. I don't know.
    Mr. Deutch. And does he have the power to pardon Michael 
Flynn, any other member of the President campaign?
    Let me ask you this. Does the President have the power to 
pardon his own family member? Could the President today pardon 
Donald Trump, Jr., for, among other things, being in contact 
with WikiLeaks regarding these emails? Can he make those 
pardons today before there is anything further that comes from 
the special counsel's investigation?
    Attorney General Sessions. I would not be able to answer 
that at this moment with any authority.
    Mr. Deutch. General Sessions, you started by telling us 
that you're the American people's lawyer. Now you're not 
recused from giving us answers on these. You're not comfortable 
giving us answers on these.
    But here's the problem that we have. You said when you 
started your testimony today that there is nothing more 
important than advancing the rule of law. And when you answer 
the way you have, it suggests that the rule of law is crumbling 
at our feet.
    You took an oath to uphold the Constitution. We took an 
oath to uphold the Constitution. And while members of this 
committee in the majority may choose to abdicate their 
responsibility with regard to these very important matters, you 
cannot.
    And the interference--what you've told us today in just 
this exchange, what we should all be concerned about is another 
Saturday Night Massacre, if you can't tell us that the 
President shouldn't fire or can fire the special counsel and 
everyone who works for him.
    We should be worried if you're telling us that the 
President may be able to pardon in advance all of those who are 
being investigated. We should be worried about the pursuit of 
the rule of law.
    General Sessions, again, we may in this committee----
    Chairman Goodlatte. The time of the gentleman has expired. 
The Attorney General can respond if he chooses to do so.
    Attorney General Sessions. Well, just briefly. One of the 
things if you respect the rule of law is the Attorney General 
should not be giving legal opinions from the seat of his 
britches. So you need to be careful about that, and that's what 
I'm saying to you today.
    Mr. Deutch. I do appreciate that, General Sessions.
    Chairman Goodlatte. The time of the gentleman has expired. 
The chair recognizes the gentleman from Texas, Mr. Poe.
    Mr. Deutch. These are not new issues that I would think 
require you to give these opinions from the rule of your 
britches.
    I yield back.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Sessions, I'm over here on this side.
    If pursuant to a warrant there is a wiretapped conversation 
seized under the Foreign Intelligence Surveillance Act and one 
person is a foreign agent, the other person is an American 
citizen, is the release of the information regarding who the 
American citizen is and/or the conversation of the American 
citizen a violation of Federal law?
    Attorney General Sessions. I believe it is.
    Mr. Poe. And if somebody releases that information----
    Attorney General Sessions. May be a factual distinction.
    Mr. Poe. I know. It's a hypothetical.
    If somebody releases the information of the name of that 
person and/or the information contained by that person, that is 
a Federal offense.
    Attorney General Sessions. Unacceptable, and it could be a 
Federal offense.
    Mr. Poe. So has anybody been prosecuted under your regime 
for doing that, whether it's been in the White House or some 
other government agency where we hear about leaks of classified 
information? Are you prosecuting anybody for that?
    Attorney General Sessions. For release of FISA-obtained 
information?
    Mr. Poe. Release of the information of who the American is 
and/or the conversation by the American, that's classified 
information, is your Department investigating anybody for that?
    Attorney General Sessions. I cannot confirm or deny the 
existence of----
    Mr. Poe. Are you prosecuting anybody for that?
    Attorney General Sessions. Nobody is under indictment. 
Although we've got at least four indictments this year of leaks 
of classified information. And we will continue to press those 
cases.
    Mr. Poe. All right. Good.
    I want to talk about the Foreign Intelligence Surveillance 
Act. Secret courts, issuing secret warrants to get information 
on terrorists overseas, that's generally the purpose of the 
FISA law and FISA courts. Would you agree with that?
    Attorney General Sessions. Well, it's not a perfect 
summary, but it's--there's substance to it.
    Mr. Poe. It's too short. It's too short.
    We know we can't trust the NSA. James Clapper testified 
before this committee in 2013 that the NSA was not spying on 
Americans. Then all of a sudden this guy named Snowden showed 
up and we found out--I don't like Snowden at all, he ought to 
be prosecuted, I think. But anyway we learned that the American 
public was being spied on by the NSA.
    Part of the Foreign Intelligence Surveillance Act gives the 
NSA authority to seize information like emails, text messages, 
communications by these bad guys, foreign agents or terrorists 
overseas, to collect their information to make sure that 
America is safe.
    During that process, as you know, incidentally--they call 
it incidental information--information on Americans, who they 
are, and what those conversations may be is also seized. NSA 
says that's incidental information.
    Now, it's my understanding that the Justice Department is 
opposed to the USA Liberty Act, which would require that before 
government goes into that information on Americans, where they 
are not the target, the target's these terrorists, goes into 
that information on Americans, that there has to be a warrant 
signed by a real judge that states probable cause before that 
information can be seized.
    Now, my understanding is the Justice Department under your 
leadership is opposed to that warrant requirement. Is that 
correct?
    Attorney General Sessions. That is absolutely correct.
    Mr. Poe. So you're a former judge.
    Attorney General Sessions. A would-be judge.
    Mr. Poe. Pardon?
    Attorney General Sessions. A would-be judge.
    Mr. Poe. A wannabe judge. Yeah, I'm a former judge too.
    You don't think probable cause and a warrant requirement is 
required to go into that information that is--first of all, the 
seizure is done by government without a warrant. So it's seized 
already. And before it can be then searched you also don't 
require or believe that a warrant should be required by any 
court to go into that information.
    Attorney General Sessions. Well----
    Mr. Poe. I'm just asking the same question.
    Attorney General Sessions. The courts have so held.
    Mr. Poe. I'm not asking that question.
    Attorney General Sessions. Well, I agree with the courts, 
not you, Congressman, on that. You get lawfully obtained 
records, documents----
    Mr. Poe. Don't you think--reclaiming my time.
    Attorney General Sessions. All right.
    Mr. Poe. You agree with the courts on that, not me. But let 
me tell you something. It is the responsibility of Congress to 
set the privacy standard for Americans.
    Attorney General Sessions. That is correct.
    Mr. Poe. It's my personal opinion, and I think the 
Constitution supports it, that before the government can go in 
and seize something and then search it on an American citizen 
that is incidental to the search on the target, the government 
should get a warrant for that conduct. That's spying on 
Americans. And we know that we can't trust the NSA to keep from 
doing that.
    Is that data ever, ever destroyed on Americans or is it 
kept forever?
    Attorney General Sessions. I believe it definitely has a 
limited time span. I think it's 5 years.
    Mr. Poe. So Americans shouldn't be concerned that 
information is being collected on them----
    Chairman Goodlatte. The time of the gentleman has expired.
    Mr. Poe [continuing]. But you don't have any say-so about a 
warrant?
    Chairman Goodlatte. The time of the gentleman has expired.
    The chair recognizes the gentleman from Illinois, Mr. 
Gutierrez, for 5 minutes.
    Mr. Gutierrez. Mr. Chairman, before I begin, I think I have 
a solution that could allow the committee to move on to other 
important national matters like gun control and immigration.
    Your side clearly wants an investigation of Hillary 
Clinton, and our side has been begging for months to hold 
hearings and start an investigation of the Trump administration 
and campaign's improper ties to Mr. Putin and the Russian 
Government.
    My solution would save the American taxpayers a lot of 
grief and a lot of money by eliminating the need for the 
investigation. I propose we simply go to the President and the 
former Secretary of State and ask them both to resign. I'll go 
to Hillary Clinton, and you can go to Donald Trump, and we'll 
tell them both to resign. Then we can move on as a Nation from 
an election that just never seems to end.
    Now, I did Google organizations that Hillary Clinton leads 
and it came out zero, so I'm not quite sure what you're going 
to get her to resign from, because she doesn't appear to be in 
charge of anything. Last time I checked, she got 3 million more 
votes than Donald Trump, but she lost the election. So I don't 
know why don't we move on and really look at the Nation.
    So, Attorney General, I'd like to ask you, you said earlier 
today it was a brilliant campaign, referring to the Donald 
Trump campaign. Is that true? Do you feel that?
    Attorney General Sessions. It was a remarkable thing. It 
overcame a lot of obstacles----
    Mr. Gutierrez. Remarkable, brilliant campaign.
    Now, in campaigns, candidates make promises during 
campaigns. Do you think candidates should fulfill the promises 
they make during campaigns?
    Attorney General Sessions. People make a lot of promises 
and you should strive to honor your promises.
    Mr. Gutierrez. Do you think they should fulfill those 
promises? It was a brilliant campaign, remarkable campaign. And 
as a member of the Cabinet of President Trump, do you feel an 
obligation to fulfill those campaign promises? When he asked 
you to come on, did you think you should fulfill the campaign 
promises?
    Attorney General Sessions. I believe the Attorney General 
should enforce the law first and foremost.
    Mr. Gutierrez. I understand enforce the law, but he said--
you're helping him on the Muslim ban, on immigration issue. I 
mean, you think he should fulfill those promises?
    Attorney General Sessions. The President makes decisions, 
and if it's lawful we defend it.
    Mr. Gutierrez. If it's lawful. If it's lawful. Okay, I like 
that, if it's lawful. But you said it was a remarkable and 
brilliant campaign.
    He said, quote, during the second debate, ``If I win, I'm 
going to instruct my Attorney General''--that would be you, 
because he chose you--``to get a special prosecutor to look 
into your situation''--referring to Hillary Clinton--``because 
there's never been so many lies, so much deception,'' end 
quote. And when Hillary Clinton responded, she said, ``Because 
you'd be in jail.''
    Are you going to fulfill that campaign promise that he made 
during the second debate, because he did say he'd put her in 
jail. He said he'd asked the Attorney General, you, to set a 
special prosecutor. That's what he says, it's a quote. I didn't 
make it up. What do say you, are you going to keep that 
campaign promise?
    Attorney General Sessions. I'll fulfill my responsibilities 
under the law.
    Mr. Gutierrez. Are you going to keep the campaign promise, 
yes or no? It's a promise that your boss, he hired you to 
fulfill. Are you going fulfill that?
    Attorney General Sessions. We will comply with the law with 
regard to special prosecutor appointments.
    Mr. Gutierrez. Are you going to appoint one as he promised 
during the campaign? He's reminded you a couple of times in a 
few of his tweets that that's what he wants to you do.
    Attorney General Sessions. I will fulfill my duty as 
Attorney General.
    Mr. Gutierrez. So the brilliant campaign, remarkable 
campaign, big smile on your face, you love the campaign, but 
you're not going to fulfill his campaign promises? I hope you 
don't in this particular case, so I'm kind of happy with your 
answer up to now.
    So, Mr. Attorney General, I'm going to ask you another 
series of questions, and I'd like to go back to the beginning 
of the hearing and get you to answer the following question.
    Are you aware that you are under oath and that your answers 
must be the truth, the whole truth, and nothing but the truth, 
Mr. Attorney General.
    Attorney General Sessions. I'm aware of that.
    Mr. Gutierrez. Okay. Good. So I brought this little salt 
shaker here, and you'll forgive me if I just put a little bit 
of doubt into that answer and just to remind myself that I 
might need this.
    And I ask unanimous consent that this article from Mother 
Jones magazine be entered into the record with the headline, 
``Three Times Jeff Sessions made False Statements Under Oath to 
Congress.''
    I ask this because I don't want to hear in a few days or in 
a few weeks that your answers, Mr. Attorney General, have 
changed based on newly uncovered evidence that what you told us 
before was in fact false, misleading, or something other than 
the truth, the whole truth, and nothing but the truth. I ask 
unanimous consent.
    Chairman Goodlatte. Without objection, it will be made a 
part of the record.
    This material is available at the committee and can be 
accessed online at: https://docs.house.gov/meetings/JU/JU00/
20171114/106709/HHRG-115-JU00-20171114-SD001.pdf.
    Mr. Gutierrez. Thank you.
    Under oath in the Senate you said as a surrogate, quote, 
``a time or two for the Trump campaign,'' you did not have 
communication with Russians, but in March it was revealed you 
did.
    Did you have campaign communications with the Russians? 
Because it appears you have had campaign communications with 
the Russians, Mr. Attorney General.
    Attorney General Sessions. That is--I'd like to respond to 
that. I thought I had the paper right here. And surely--here it 
is.
    Mr. Chairman, take a couple of minutes. I'd like to respond 
to that.
    Chairman Goodlatte. The gentleman may respond to that.
    Attorney General Sessions. Colleagues--I guess say former 
colleagues--Senator Franken asked me this question. ``Okay, CNN 
has just published a story, and I'm telling you about a new 
story that's just been published. I'm not expecting you to know 
whether or not it's true, but CNN just published a story 
alleging that the intelligence community of the United States 
of America, the intelligence community provided documents to 
the President-elect last week that included information that, 
quote, `Russian operatives claim to have compromising personal 
and financial information about Mr. Trump,' '' close quote.
    ``These documents also allegedly say, quote, `There was a 
continuing exchange of information during the campaign between 
Trump's surrogates and intermediaries for the Russian 
Government,' '' close quote.
    He goes on to say, ``Now, again, I am telling you this is 
all coming out, so, you know, but if it's true it's obviously 
extremely serious. And if there is any evidence that anyone 
affiliated with the Trump campaign communicated with the 
Russian Government in the course of this campaign, what will 
you do?''
    I was taken aback by this. I'd never heard. This happened 
while I was testifying, I suppose. And I said, ``Senator 
Franken, I'm not aware of any of those activities. I have been 
called a surrogate a time or two in the campaign and I didn't 
have--did not have communications with the Russians and I'm 
unable to comment on it.''
    Mr. Gutierrez. And you're not going to correct that today?
    Attorney General Sessions. My answer was responsive to his 
charge about a continuing----
    Mr. Gutierrez. But do you want to correct it or clarify it 
today for us?
    Chairman Goodlatte. The time of the gentleman has expired. 
The attorney general can answer the question, but then we're 
moving on.
    Attorney General Sessions. So this is really important, I 
appreciate the opportunity to share it.
    So my focus was on responding to the concern that I as a 
surrogate was participating in a continuing series of meetings 
with intermediaries for the Russian Government. And I certainly 
didn't mean I'd never met a Russian in the history of my life.
    So I didn't think to--didn't think it was responsive, and 
my response was according to the way I heard the question as 
honestly I could give it at the time. I hope you will treat me 
fairly when you evaluate that.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Pennsylvania, Mr. Marino, for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Thank you, General, for being here. I appreciate it.
    I'm going to ask you some questions because I am the 
chairman of the Regulatory Reform and Antitrust Subcommittee on 
Judiciary, and antitrust is an issue that is now surfacing 
moreso than it ever has in the past. And the Justice 
Department's role is very critical in antitrust issues to 
determine whether there is an antitrust violation.
    I understand that the Justice Department's position on the 
AT&T merger will require divestment of some assets. Behavioral 
conditions have been used in vertical mergers since they pose a 
lesser danger to competition than horizontal mergers. Is it the 
structural condition in vertical mergers a policy for DOJ at 
this point?
    Attorney General Sessions. Antitrust policy is important. 
I've never been an expert at it. It was one subcommittee of the 
Judiciary I never chose to be a part of.
    But we have an experienced team in the Department of 
Justice. We do try to handle each case professionally. We have 
a good chief now of the Antitrust Division. And I am not able 
to announce any new policies at this time, Congressman.
    Mr. Marino. Will there be a discussion concerning vertical 
and horizontal mergers when it comes to the so-called term 
behavioral conditions where two companies that are merging may 
have to divest? Could there be future discussion as to when 
this behavioral condition would be implemented?
    Attorney General Sessions. Well, the vertical, horizontal 
issue is something that has always been part of the discussion. 
I don't think it's dispositive of any final decision. But I'm 
really not able at this time to comment on anything that would 
be part of an ongoing matter.
    Mr. Marino. I understand.
    Attorney General Sessions. And I appreciate you giving me 
an opportunity to not attempt to answer that.
    Mr. Marino. I'm going to switch to human trafficking now. 
When I was an U.S. attorney, we handled some very heartbreaking 
and very severe situations concerning human trafficking. And I 
know that you understand, like I understand, the challenges 
involved there.
    What can you tell me what DOJ has done in upping the 
prosecutions, the investigations for antitrafficking?
    Attorney General Sessions. We believe strongly that we can 
do even more. It's been a priority for a number of years. I was 
recently in the Minnesota United States Attorney's Office. They 
had a major international case and I was surprised how much 
money was involved, almost as much as drug dealers may make.
    We have a recent report of our people meeting with the 
child exploitation group. My Associate Attorney General, number 
three, Rachel Brand, is very interested in this. And I've 
empowered her to be engaged in advancing our efforts in this 
regard, and she's enthusiastically responding to that.
    Mr. Marino. If I may make a suggestion as well. Several 
years ago we in the Middle District of Pennsylvania prosecuted 
one of the biggest sex trafficking cases on the East Coast, 
obviously, for the most part, involving women and very young 
girls. We had a good conviction. These people went away for 30 
or 40 years.
    But one of the areas that we have to help more with the 
victims is the protection side of things, of course during the 
investigation and during the trial, but subsequent to the 
convictions that these people are--these women and children 
aren't forgotten and there are protections there to keep them 
from anybody else attempting to do what's been done in the 
past.
    And I thank you so very much for your service to us.
    And I yield back.
    Attorney General Sessions. Thank you, thank you for your 
service.
    Chairman Goodlatte. The chair recognizes the gentlewoman 
from California, Ms. Bass, for 5 minutes.
    Ms. Bass. Thank you. Thank you, Mr. Chair.
    Between 1956 and 1971 the FBI ran a counterintelligence 
program named COINTELPRO that was initiated by J. Edgar Hoover. 
COINTELPRO mainly targeted civil rights leaders such as Martin 
Luther King, and it's commonly understood that this was an 
abuse of its surveillance power in a manner to suppress a 
peaceful movement.
    So I would like to ask, Mr. Chair, unanimous consent to 
enter this report into the record, which is ``Black Identity 
Extremists Likely Motivated to Target Law Enforcement 
Officers.''
    Ms. Bass. I believe earlier you said you were not familiar 
with the report. Is that correct?
    Attorney General Sessions. Well, I haven't read it. I know 
some of the alleged targeting of officers by a certain group.
    Ms. Bass. So I would like to know--and I'll ask you about 
that in a minute. So you are somewhat familiar with it. Who had 
the power in your Department to order a report like this?
    Attorney General Sessions. I'm not sure how that report got 
ordered. I don't believe I explicitly approved it or directed 
it.
    Ms. Bass. Okay. So you haven't necessarily read the record, 
but you are familiar with the term ``Black identity 
extremists''?
    Attorney General Sessions. Well, I think so, yes.
    Ms. Bass. So could you tell me what that term means to you? 
Do you believe that there is a movement of African Americans 
that identify themselves as Black identity extremists and what 
does that movement do?
    Attorney General Sessions. Well, it would be interesting to 
see the conclusions of that report. But I'm aware that there 
are groups that do have an extraordinary commitment to their 
racial identity, and some have transformed themselves even into 
violent activists.
    Ms. Bass. Are you aware of White organizations that do this 
as well? Given that White supremacy is well-documented, well-
researched movements, such as the neo-Nazis, the Ku Klux Klan, 
et cetera, are they White identity extremists?
    Attorney General Sessions. I didn't follow that question. 
Please again.
    Ms. Bass. Is there a term or a report on White identity 
extremists? You mentioned you were familiar with Black people 
who identified with their racial identity.
    Attorney General Sessions. Yes, but it is not coming to me 
at this moment.
    Ms. Bass. It is not coming to you?
    Attorney General Sessions. It's----
    Ms. Bass. Certainly a group such as the Ku Klux Klan would 
be----
    Attorney General Sessions. Yes. And then the skinhead 
movements. But there are racial identity White movements that 
have been identified for sure.
    Ms. Bass. Well, has the FBI done a report on White identity 
extremists that are likely motivated to target law enforcement 
officers?
    Attorney General Sessions. I'm not aware of that.
    Ms. Bass. Okay. Are you aware of a group called the 
Sovereign Citizens?
    Attorney General Sessions. I've heard that group, yes.
    Ms. Bass. And I believe that the Sovereign Citizens is 
primarily a White organization that absolutely has targeted 
police officers and killed police officers. You're not aware of 
that?
    Attorney General Sessions. I'm not aware of all their 
crimes, but I know they are a group that's known to have 
violent tendencies.
    Ms. Bass. Could you name an African American organization 
that have committed violent acts against police officers? Could 
you name one today? In this report they name organizations from 
30, 40 years ago, but can you name one today that has targeted 
police officers in a violent manner?
    Attorney General Sessions. I believe I could, but I would 
want to be--to confirm that and submit it to you in writing. 
But I believe we had within the last year or so four police 
officers killed by a group that some have described as 
extremists.
    Ms. Bass. So what has happened is, is that there have been 
a couple of incidents in which African Americans did kill 
police officers who were not associated with a Black 
organization. And so one, for example, in Baton Rouge was 
associated with Sovereign Citizens, which is primarily a White 
group.
    So you should know that there is a lot of concern in the 
community, especially from organizations such as Black Lives 
Matter. By the way, would you consider Black Lives Matter a 
Black identity extremist group?
    Attorney General Sessions. I'm not able to comment on that. 
I'm not--I have not so declared it.
    Ms. Bass. So you should know that a lot of activists around 
the country are very concerned that we're getting ready to 
repeat a very sad chapter of our history, where people who are 
rightfully protesting what they consider to be an injustice in 
their community, which is their relationship with police 
officers, are now being targeted and labeled as extremists and 
are going through periods of surveillance and harassment.
    And so I would like to know, what is your Department going 
to do to protect the rights of average citizens to protest if 
they have a concern about police officers?
    Attorney General Sessions. This Department will not 
unlawfully target people.
    Ms. Bass. So if that's the case, then, I would ask that you 
review this report, ``Black Identity Extremists Likely 
Motivated to Target Law Enforcement Officers,'' because I 
personally don't believe that any such organizations exist. The 
organizations that are referred to in this report are 
organizations from decades ago.
    And so I would like to know what will you do to essentially 
roll back what is listed in this report, because it's not 
accurate. Sir?
    Attorney General Sessions. We will look at the report. I 
actually would be interested in reading it. But they usually do 
an excellent job, objective and fair, on those kinds of 
reports.
    Ms. Bass. Okay, well----
    Chairman Goodlatte. The time of the gentlewoman has 
expired.
    The chair recognizes the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Thank you, Mr. Attorney General.
    I want to cover a couple of areas, but I want to start with 
something that's very important to me. I think it's important 
to all people in this country of good conscience, irrespective 
of their political ideation, and that is the independence of 
the Department of Justice. And in my judgment, 2016 and 2017 
have been challenging years for the Department of Justice.
    You know, the decision to charge someone carries with it 
multiple layers of review. There's a grand jury, there's a 
petit jury, there is a trial judge, there are post-trial 
motions, there is appellate courts, there are courts of habeas 
corpus. And then there's the media and then there's Congress.
    But the decision not to charge someone does not carry with 
it the same corresponding layers of review. But in some 
instances it's every bit as important to understand why law 
enforcement did not do something and why prosecutors did not do 
something.
    I'm not interested in relitigating the FBI's decision not 
to charge Secretary Clinton. That decision's been made, it's 
been explained, and I'm not interested in relitigating it.
    I am, however, interested in reviewing 2016 and 2017 with 
respect to the Department of Justice. And, Mr. Attorney 
General, there was a time when my colleagues on the other side 
of the aisle were interested in having some of these questions 
answered as well. It wasn't a year ago that some of my 
Democratic friends wanted Jim Comey investigated and prosecuted 
for a Hatch Act violation. That was 12 months ago. And it was 
absurd then and it is absurd now.
    But what's not absurd is when my Democratic colleagues ask: 
Why did you decide to publicize one investigation but not 
another? Why did you decide to appropriate a decision away from 
the Justice Department, which is very unusual for the head of 
the FBI to serve as both the investigator and the 
decisionmaker?
    Just like Republicans wanted to know, Mr. Comey, did you 
reach your conclusions before the end of the investigation? Did 
you make decisions whether to charge or not to charge before 
you interviewed all of the witnesses?
    These are questions that to me go to the core of whether or 
not the Department can be respected separate and aside from 
politics. I mean, I get, I guess, that certain departments are 
just inherently political, but the Department of Justice should 
not be.
    And so I tell you that up front, that Chairman Goodlatte 
and I are going to be looking into the decisions made in 2016 
and 2017. And I think I can speak for him and I know I can 
speak for myself, my motivation is a love for that Department 
and a love for the concept of blind justice that doesn't care 
whether it's an even-numbered year or an odd-numbered year.
    And to the extent that there were decisions made, including 
the decision to write a public letter in October of last year 
and follow that up with another public letter in November, 
those are legitimate questions.
    And I hope that the Department will cooperate both with 
respect to making witnesses available, but also with respect to 
documents, so Congress can better understand the decisions that 
were made and not made and restore some modicum of trust that 
all people, whether they agreed with the decisions or not, at 
least understand why they were made.
    Now, Mr. Conyers asked you whether or not it was 
appropriate for the President to----
    Attorney General Sessions. May I respond briefly to that?
    Mr. Gowdy. Yes, sir.
    Attorney General Sessions. You're familiar with the 
inspector general.
    Mr. Gowdy. I am meeting with him----
    Attorney General Sessions. And they make public their 
investigations. And several of the matters that involve the FBI 
are under full and intense review by the inspector general and 
perhaps they can--under their rules of disclosure, perhaps you 
can inquire more about how that's ongoing. But I'm not able to 
give the details to you at this time. That's a serious matter, 
it's in my response to the chairman of yesterday.
    Mr. Gowdy. Well, I didn't intend to ask you to respond to 
it, because you're right, Mr. Horowitz is looking into it. In 
fact, I'm meeting with Mr. Horowitz this afternoon, not in that 
capacity, but in another. And you're right, at some point he's 
going to let Congress know what he found. But that does not 
absolve us of our responsibility to also look into it.
    Mr. Conyers asked you whether or not it was appropriate for 
the President to weigh in on an ongoing investigation, and of 
course the answer to that is no. It is not appropriate. It's 
not appropriate in 2017. It wasn't appropriate when President 
Obama did it in the IRS targeting scandal. It wasn't 
appropriate when President Obama did it in the ongoing 
investigation into Hillary Clinton's server.
    It is never appropriate for a President to tell a 
Department of Justice what outcome it should research. I just 
wish my friends on the other side had the same outrage when 
President Obama did it as they do now.
    I mean, I guess that's what I'm--this will be my last 
question to you. You're nominated by a President, you're 
approved by a Senate, but yet you work for a virtue. You work 
for a blindfolded woman holding a set of scales. And that is 
what makes our culture different.
    How do you restore people's trust, Republicans and 
Democrats, confidence in a Department of Justice when it seems 
like different rules apply depending on who's in power?
    Chairman Goodlatte. The time of the gentleman has expired. 
The Attorney General will be permitted to answer.
    Attorney General Sessions. Well, it's a good question and 
an important question.
    We intend to do our work according to the established 
principles of the Department of Justice. We will not be 
infected by politics or bias. We will make only decisions we 
believe are right and just. And we're not going to use the 
Department to unlawfully advance a political agenda. We're 
going to enforce the laws of this country effectively as 
Congress has passed them.
    And I am determined that when the years go by that people 
will say, this Department of Justice did not crumble, it stayed 
firm and true to the great principles that I was taught in the 
15 years I served in the Department of Justice, 2\1/2\ as an 
assistant, 12 as a United States attorney, and looking up to 
the Attorney General as somehow so far removed from me that it 
was beyond recognition.
    But now I'm in that position. I think I understand the 
gravity of it. I think I understand the importance of 
responding to your question. And we'll do our best.
    Mr. Gowdy. Thank you.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Louisiana, Mr. Richmond, for 5 minutes.
    Mr. Richmond. Mr. General, I have the honor of serving as 
chair of the Congressional Black Caucus. You were not there, 
but I'm sure you are aware--and if you're not aware, I'm 
telling on myself--that I testified against your nomination.
    And I did so because I was afraid that we would go back to 
a time where discrimination was rampant, and that diversity was 
not appreciated, and that the right to vote for minorities and 
African Americans would be further--more obstacles would be set 
up.
    And I listened to your opening statement and I listened to 
your remarks since then and you talked about voter ID. The 
Veasey case, which in Texas ruled that their vote--the Texas 
voter identification law had discriminatory portions against 
African Americans, the district court ruled that way, the 
appellate court affirmed that ruling, and then you withdrew 
from the case after two courts ruled that it was 
discriminatory.
    How does that mesh--and then argued on the side of Texas--
how does that mesh with the right to make sure that African 
Americans had unfettered access to the voting polls?
    Attorney General Sessions. Congressman, the way that 
happened was that Texas had passed a voter ID law that the 
courts did not approve but struck down. An election was coming 
up, I believe, and the court approved a voter ID procedure that 
they approved for that election. And the Texas Legislature then 
repealed its previous law that had been found to be 
unconstitutional or improper and passed the one that the court 
had approved.
    So we felt that the voter ID law has been approved--a 
proper voter ID law is constitutional, and we believe that one 
is constitutional, and that's why the position was changed.
    Mr. Richmond. And also in judging the Department of 
Justice, in terms of nominating judges to the bench, our 
information tells us that out of all the judges that have been 
nominated, I think 91 percent have been White males. Does that 
foster diversity?
    Attorney General Sessions. I'm not aware of the numbers, 
but we should look for quality candidates, and I think 
diversity is a matter that has significance.
    Mr. Richmond. Well, the National Bar Association could 
recommend and has recommended a number of African American and 
minority attorneys who are qualified.
    So let me just ask you, and if you don't know the answer to 
these, just let me know that you'll get me the information, but 
how many African Americans do you have on your senior staff?
    Attorney General Sessions. I do not have a senior staff 
member at this time that's an African American.
    Mr. Richmond. Out of all----
    Attorney General Sessions. I would note in Alabama, I 
participated in recommending an African American judge, and 
I've had African American judges before and----
    Mr. Richmond. We're talking about this administration, 
though. Of all of the U.S. attorneys that have been nominated 
or confirmed, how many have been African American?
    Attorney General Sessions. One in Alabama that I've 
recommended that I've recommended that I knew, he's been 
confirmed.
    Mr. Richmond. And I believe it's--I believe it's only that 
one.
    Out of all of the special agents in charge of FBI bureaus 
around the country, how many are African American?
    Attorney General Sessions. I do not know.
    Mr. Richmond. Would you get that for me?
    And here is the gist of what I'm saying. For a lot of 
people who objectively look from the back, like I do and many 
people where I live, the question is whether we're going 
towards inclusion and diversity or whether we're going back.
    So I applaud the President for his approach to the opioid 
epidemic which everyone in this room is concerned about. We're 
losing over 100 people a day. But your decision to reverse Eric 
Holder's Smart on Crime Initiative goes back to the crack tough 
on crime. And I think you specifically said that you wanted 
U.S. attorneys to charge and pursue the most serious readily 
provable offenses and sentences. But with opioids, we are 
treating it as a mental health crisis.
    And the question becomes, from the outside looking in, is 
it because of who the opioid crisis is affecting as opposed to 
crack? Our answer to crack cocaine was mandatory minimum 
sentences.
    So the question is, how does an outside observer reconcile 
how we treated crack, which led to mass incarceration, which 
now with an epidemic we're losing thousands and thousands of 
people a year and we're treating it with hugs and kisses and 
treatment as opposed to tough on crime, lock 'em up? How do I 
reconcile that and not conclude that the only difference is 
race and income?
    Attorney General Sessions. Well, I would say that the 
Federal court focuses on serious offenders, not users. We talk 
about international drug cartels, we talk about distribution 
networks, serious gangs, MS-13. We focus aggressively on that.
    But the PSN, the new reinvigorated crime problem, focuses 
more, and I've been convinced of this, on the leading criminals 
in a neighborhood. And the Federal Government will not seek 
mass incarceration so much as we will be focusing on 
identifying the people who really are the driving force, maybe 
sucking other young people into crime that would never have 
been brought in there if they hadn't had this leadership drive. 
It's worked in New York, it's worked in other agencies, and I 
think it will work here.
    And, Congressman, I would note that the average Federal 
sentence in the last 3 or 4 years has dropped 19 percent and 
the Federal prison population is down 14 percent, while we are 
beginning to see a spike in homicides, the likes of which we 
hadn't seen since the 1960s.
    Chairman Goodlatte. The time of the gentleman has expired.
    The chair recognizes the gentleman from Texas, Mr. 
Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Mr. Attorney General, thank you for being here.
    Before I got to Congress, I was a computer consultant, so 
I'm a little--I sometimes dive into the nerdier end of things. 
The incursion into the DNC servers is back in the news 
recently.
    My question is, can you tell us if anyone at the DOJ, FBI, 
or any other Federal law enforcement agency has been able to 
take a look and forensically examine that server to determine 
who hacked it, whether it was the Russians, an inside job, or 
somebody else?
    Attorney General Sessions. You said the DS----
    Mr. Farenthold. DNC.
    Attorney General Sessions. DNC. I'm not able to comment on 
that. It's an ongoing investigation.
    Mr. Farenthold. I appreciate that.
    We've also talked a little bit today about the FISA court 
and 702 and surveillance. And one of the things that I don't 
think has been completely answered is, why does the DOJ think 
it's so problematic to require a warrant from the FISA court 
before--or any court--before accessing or disseminating the 
contents of communications that aren't related to foreign 
intelligence that deal with American citizens?
    Attorney General Sessions. Well, the way--maybe I should 
explain this. When you have a warrant or you have a 
surveillance on a foreign individual that may be connected to 
terrorism or any foreign individual, you listen to who they 
talk to. And if they call an American and you have a terrorist 
on the phone in Syria, you want to know who that American is.
    Mr. Farenthold. But the USA Liberty Act includes exceptions 
for emergencies and for individuals who are reasonably believed 
to be engaged in international terrorism or foreign--or 
furthering their goals.
    Attorney General Sessions. Well, I'm not sure I understand 
that.
    Mr. Farenthold. There is an exception for dealing with 
emergencies and people believed to be terrorists.
    Attorney General Sessions. All right. So let me just say 
this. So if we get a lawful intercept from a Federal judge of a 
Mafia person in New York, he is not likely to be talking about 
to many people not in the United States. And we are listening 
to the conversations of the people he talks to and they are 
American citizens. And if they are talking about a crime, you 
can use that evidence against them and you don't have to have a 
separate warrant to access it.
    We're talking about in the 702--I hope you will think 
through with me now. So you lawfully obtained this information. 
You could do it by hand in the old days, but now the computers 
do much of the work for us. So you know the names of the people 
that may be involved in this activity and you can access those 
records just like you could access bank records that you got.
    Mr. Farenthold. But if it came up in any other way you 
would have had to have gotten a warrant to get that wiretap?
    Attorney General Sessions. But the problem with the warrant 
is--let's say this. Let's say you have information from an 
airport that somebody wants to learn to fly a plane but does 
not want to learn how to land the plane, as we saw one time.
    Mr. Farenthold. And you go to the court and you can get a 
warrant in a matter of hours.
    Attorney General Sessions. That does not give probable 
cause to search, tap that person's phone.
    Mr. Farenthold. I've got a couple of other questions. I 
appreciate your answer on that.
    Attorney General Sessions. Okay. I'm sorry.
    Mr. Farenthold. I do want to talk--in the last Congress we 
passed and enacted into law the Stop Advertising Victims of 
Exploitation Act, or the SAVE Act. This legislation makes it a 
criminal offense to advertise for commercial sex acts.
    Has the DOJ used this provision to prosecute online sex 
traffickers or websites they use, and if not, why not?
    Attorney General Sessions. I'm not sure about that, 
Congressman. I'll have to--maybe I can get back to you on that?
    Mr. Farenthold. I would appreciate that.
    Attorney General Sessions. Thank you.
    Mr. Farenthold. All right. I've got a couple more here I 
want to hit. But I'm going to kind of take a step back and look 
at the big picture.
    I'm a lawyer, I went to law school. I've always considered 
the Attorney General to be the people's attorney. And I feel 
like over the past few years under previous Attorney Generals 
that the Attorney General has been more the President's 
attorney rather than the people's attorney.
    Can you tell me what you are doing in office to restore the 
confidence in the American people, both in the office of the 
Attorney General and agencies like the FBI? Which most people 
used to have a very high respect for, but I believe that level 
of respect and trust has dropped dramatically in recent times.
    Attorney General Sessions. These are serious questions. I 
believe as you get to know the FBI Director, Chris Wray, the 
new Director, you will find him to be a man of high 
intelligence, great integrity, great character, and great 
capability. Clearly, one of the Nation's great lawyers in 
private practice, but many years in the Department of Justice 
as a prosecutor working with the FBI agents. That's one thing 
we've got. I can tell you I have great confidence in him.
    My deputy, 27 years of professional--that I chose to be my 
primary deputy, my Associate Attorney General, likewise is a 
woman of the highest character and academic excellence and 
experience in the Department. We are setting a tone of 
professionalism every day in what we do. So I think that's 
something we need to do.
    There are some matters that do need to be completed. The 
inspector general is doing investigations of some significance, 
as in my letter, I believe you received a copy, involving the 
FBI and the allegations that are there. We intend to make sure 
that no agency of the government, not just the FBI, is not 
following the kind of disciplines and practices they should 
follow.
    So I guess I would say to you watch what we do. We're not 
going to be driven by politics. We're going to try to do the 
right thing. And I believe that time will show that to be true.
    Mr. Farenthold. I see my time has expired. Thank you, Mr. 
Chairman.
    Chairman Goodlatte. The chair recognizes the gentleman from 
New York, Mr. Jeffries, for 5 minutes.
    Mr. Jeffries. Mr. Sessions, I have a copy of the transcript 
of your testimony before the Senate Judiciary Committee in 
October. You stated under oath, ``I don't recall,'' in some 
form or fashion 29 times. Is that correct?
    Attorney General Sessions. I have no idea.
    Mr. Jeffries. I have a copy of the transcript of your 
testimony before the Senate Intelligence Committee in June. You 
stated under oath, ``I don't recall,'' in some form or fashion 
approximately 36 times. Is that correct?
    Attorney General Sessions. I don't know.
    Mr. Jeffries. In your testimony today you have stated, ``I 
don't recall,'' at least 20 times. Is that fair to say?
    Attorney General Sessions. I have no idea.
    Mr. Jeffries. Now, on October 4, 2016, during a TV 
interview with Lou Dobbs, you criticized Hillary Clinton for 
telling FBI investigators, ``I can't remember,'' approximately 
35 times. You also stated during that Lou Dobbs interview that 
the intentional failure to remember can constitute perjury.
    Mr. Attorney General, do you still believe that the 
intentional failure to remember can constitute a criminal act?
    Attorney General Sessions. If it's an act to deceive, yes.
    Mr. Jeffries. Okay. Now, you testified in January that you 
had no contact with Russian operatives during the Trump 
campaign. Earlier today you testified that your story has, 
quote, ``never changed.'' Is that correct? That was your 
testimony earlier today, that your story has never changed, 
correct?
    Attorney General Sessions. I believe that's fair to say.
    Mr. Jeffries. Okay.
    Attorney General Sessions. We might could--we've added 
things that I did not recall at the time.
    Mr. Jeffries. Right.
    Attorney General Sessions. But my statement at the time was 
my best recollection of the circumstances, and I, as things are 
brought up----
    Mr. Jeffries. Reclaiming my time. I understand.
    Attorney General Sessions. All right.
    Mr. Jeffries. Sir, you now acknowledge meeting with 
Ambassador Kislyak during the Republican National Convention, 
correct?
    Attorney General Sessions. I remember I made a speech. He 
came up to me afterwards. I was standing in front of a speaker, 
Corker, and did chat with him.
    Mr. Jeffries. Okay. Thank you. And you also----
    Attorney General Sessions. And it was an encounter, not a 
meeting. It was just an encounter at that time.
    Mr. Jeffries. Okay. And you also met with the Ambassador in 
September of 2016 in your office, as you've acknowledged, 
correct?
    Attorney General Sessions. He asked for an appointment. I 
had two senior staffers, both full colonels in the United 
States Army, retired, in the meeting----
    Mr. Jeffries. Now, you testified--I'm sorry--you testified 
in June before the Senate Intelligence Committee that you had 
not heard even a whisper about possible Russian involvement in 
the Trump campaign. Yet we understand that you attended this 
March 31 meeting with George Papadopoulos, talked about 
potential communications with Russian operatives.
    But also, according to your third quarter 2016 FEC filing, 
you hosted a Trump campaign dinner meeting on June 30, 2016, at 
the Capitol Hill Club. Is that right?
    Attorney General Sessions. That's correct, I believe.
    Mr. Jeffries. And your Senate reelection campaign paid for 
that meeting. Is that right?
    Attorney General Sessions. I think that may be so.
    Mr. Jeffries. Okay. And Carter Page and George Papadopoulos 
both attended that June 30 meeting, correct?
    Attorney General Sessions. That has been reported.
    Mr. Jeffries. And at that meeting Carter Page told you that 
he was going to Moscow in a few days. Is that right?
    Attorney General Sessions. Yes.
    Mr. Jeffries. Okay.
    Attorney General Sessions. And he----
    Mr. Jeffries. Thank you. Thank you.
    Attorney General Sessions [continuing]. He said it was a 
brief meeting as we were walking out the door. I don't recall 
that conversation, but I'm not able to dispute it.
    Mr. Jeffries. Understood. Reclaiming my time. I've got 
limited time available.
    Attorney General Sessions. That does not--does that 
establish a--some sort of improper contact with a Russian?
    Mr. Jeffries. I think you understand--I think you 
understand----
    Attorney General Sessions. He's not Russian either, you 
know.
    Mr. Jeffries. You understand, sir, I get to ask the 
questions and you provide the answers in this capacity. You're 
no longer in the United States Senate.
    You voted in 1999 to remove Bill Clinton from office on 
charges of perjury, correct?
    Attorney General Sessions. That is correct. There were 
other charges.
    Mr. Jeffries. Simple question.
    Attorney General Sessions. I voted for impeachment, yes.
    Mr. Jeffries. Yes, I understand. To remove him, actually. 
Impeachment's in the House.
    In connection with that vote to remove President Clinton 
from office, you gave this speech on the Senate floor on 
February 29, 1999, and in it you acknowledged that while 
serving as U.S. attorney you once prosecuted a young police 
officer who lied in a deposition. And in that speech you 
decided to prosecute that young police officer, even though he 
corrected his testimony.
    Now, you've testified under oath before the Senate 
Judiciary Committee in January. You subsequently corrected that 
testimony in a March 6 written submission and have been forced 
repeatedly to come back to the Senate and now the House to 
clarify.
    When explaining your vote on the Senate floor to remove 
Bill Clinton from office, you stated that you refused to hold a 
President accountable to a different standard than the young 
police officer who you prosecuted.
    Let me be clear, the Attorney General of the United States 
of America should not be held to a different standard than the 
young police officer whose life you ruined by prosecuting him 
for perjury.
    I yield back.
    Chairman Goodlatte. The gentleman may respond, if he 
chooses to.
    Attorney General Sessions. Mr. Jeffries, nobody, nobody, 
not you or anyone else, should be prosecuted, not me, or 
accused of perjury for answering the question the way I did in 
this hearing. I've always tried to answer the questions fairly 
and accurately.
    But to ask, did you ever do something, did you ever meet 
with Russians and deal with the campaign, you're saying Mr. 
Carter Page, who left that meeting, according to the press 
reports and all--and I guess his deposition or interview--has 
been reported as saying, I'm going to Russia. I made no 
response to him, didn't acknowledge it. And you're accusing me 
of lying about that?
    I say that's not fair, Mr. Jeffries. I would say that's not 
fair, colleagues. That's not any indication that I in any way 
participated in anything wrong.
    And the same with Mr. Papadopoulos. He talked about--it's 
reported in the paper that he said something about going to 
Russia and dealing with the Russians. And I pushed back and 
said, you shouldn't do it.
    So I don't think I'm--it is right to accuse me of doing 
something wrong. I had no participation in any wrongdoing with 
regard to influencing this campaign improperly.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Florida, Mr. DeSantis, for 5 minutes.
    Mr. DeSantis. Well, thank you.
    Mr. Attorney General, you didn't do anything wrong in that 
testimony. This question was jarbled. That's just not giving 
you any benefit of the doubt at all, to do what these guys are 
doing to you. So I hear what you're saying, and you didn't do 
anything wrong there.
    I do want to talk to you about your recusal from the 
Russian case. You cited 28 CFR 445.2, saying you were involved 
with the campaign; that triggered recusal. However, that 
regulation only applies to criminal prosecutions or 
investigations. When you recused yourself under James Comey's 
admission, that was a counterintelligence investigation, not a 
criminal investigation.
    So why did you cite that regulation to recuse from a 
counterintelligence investigation when its only applicability 
is for a criminal investigation?
    Attorney General Sessions. I'm not sure that that was 
expressed to me when I was given advice about it, in those 
terms, number one. Number two, it could likely be interpreted 
as both. And so I felt----
    Mr. DeSantis. Comey said that he--after you were recused, 
he testified March 20. He said, ``I'm authorized to say there's 
a counterintelligence investigation.'' He was telling the 
President, ``You're not under investigation.'' So that's what 
he said. So I think that that may have been misapplied. But I 
understand what you're saying. You----
    Attorney General Sessions. I did follow the advice I was 
given.
    Mr. DeSantis. No, I know you did. I know you did.
    You've talked about you can't confirm or deny 
investigations. I think that's a good policy.
    Why was Comey allowed to confirm that investigation on 
March 20, which invited all kinds of irresponsible speculation? 
You were recused. Somebody in the Department authorized him to 
do that. Why did they break with the policy?
    Attorney General Sessions. This was--this is March 20 
you're talking about?
    I'm not--I don't recall how that exactly occurred. But I do 
agree with you, Congressman, that Mr. Comey talked more than he 
should. And he had no power, right, or justification in 
announcing the conclusion of a criminal investigation. He was 
the investigator, not the----
    Mr. DeSantis. I agree. I don't want to--I'm sorry to 
interrupt, but I've got limited time. I agree with you.
    Let me move on. Uranium One case, I know you've been asked 
about it. Can you say--forget about whether it's under 
investigation. In the past, did the FBI or DOJ inform either 
President Obama, Secretary Clinton, or any Cabinet Secretary 
that it had uncovered evidence that Rosatom's main U.S. 
executive, Vadim Mikerin, was engaged in bribery, kickbacks, 
and money laundering before the Obama administration approved 
the Uranium One sale in 2010?
    Attorney General Sessions. It--that Mikerin matter is 
prosecuted in Maryland, and----
    Mr. DeSantis. 2014. But there was an informant in 2009-
2010. The FBI had evidence of bribery, kickbacks, and money 
laundering. Was that information conveyed to any of the 
relative people on the CFIUS board--Clinton, other Cabinet 
Secretaries--or was it given to the President?
    Attorney General Sessions. The way I understand that matter 
is that the case in which Mr. Mikerin was convicted was not 
connected to the CFIUS problem that occurred 2 to 3 years 
before. When the case came to the United States attorney's 
office, Mr. Rosenstein's office in Maryland, CFIUS had already 
been approved by 2 years or more.
    Mr. DeSantis. There was an FBI informant starting in 2009. 
Have you----
    Attorney General Sessions. Well, you're going to--I have 
not talked with him, but Department of Justice, I understand, 
has approved him providing information to the Congress. And 
he's--I understand it'll be set up in a few days, and you'll be 
able to hear from him directly.
    Mr. DeSantis. Well, I think you should, too, because, you 
know, from everything I've been proffered, he has evidence of 
illegal conduct, 2009 and 2010, before this deal was agreed to, 
involving Uranium One. It was all connected. And so I think 
that that's something that we need to do.
    And let me move on. The leaking you mentioned. You can't 
confirm or deny the existence of the leaks, Michael Flynn, some 
of these other leaks used politically against the 
administration.
    So let me ask you this. Since the President was elected, 
has anybody been held accountable, criminally or 
administratively, for leaking information against the 
administration in a political--with a political motive?
    Attorney General Sessions. Well, I think the individual in 
Georgia had a motive that's been charged. And--but a number--we 
have 27 ongoing investigations. Some of those involve leaks 
before President Trump took office and some after.
    Mr. DeSantis. Final question----
    Attorney General Sessions. But, before that, there was only 
three per year, only nine. There's three times as many this 
year as the entire 3 years before being investigated.
    Mr. DeSantis. Final question, very--why can't you just tell 
us whether or not the FBI expended resources to give money to 
Christopher Steele? It's not about going into the 
investigation. We have oversight over your department. Were 
taxpayer dollars used to give to Christopher Steele, yes or no?
    Attorney General Sessions. I'm not able to do that, I 
think, for several reasons. It's an ongoing matter, and also it 
may well involve classified information.
    Mr. DeSantis. Thank you, Mr. Attorney General.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Rhode Island, Mr. Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And I apologize in advance, Mr. Attorney General. I'm going 
to try to go through some questions quickly.
    Multiple trustworthy reports revealed last week that the 
Justice Department may require AT&T to sell CNN, among other 
assets, as a requirement for the approval of its proposed 
acquisition of Time Warner. Subsequently, more reports have 
surfaced that Rupert Murdoch, the chairman of 21st Century Fox 
and a confidant of President Trump, has twice contacted AT&T in 
an effort to buy CNN. This is, of course, very disturbing to 
those of us that are responsible for oversight of these issues.
    And my first question is, has any White House employee or 
official, including the President, contacted the Justice 
Department regarding the AT&T-Time Warner transaction or any 
other transaction?
    Attorney General Sessions. I'm not able to comment on the 
conversations or communications the Department of Justice top 
people have with top people at the White House.
    Mr. Cicilline. Well, Mr. Chairman, I'd ask that the witness 
be directed to answer the question.
    Either you're invoking the Fifth Amendment or you're 
invoking executive privilege. You just can't decline to answer 
because it's uncomfortable.
    So I would ask, Mr. Chairman, that the witness be directed 
to answer my question.
    Chairman Goodlatte. The witness can answer the question in 
the fashion that he has determined.
    Mr. Cicilline. Well, reserving my right, Mr. Chairman, I'll 
move on.
    Mr. Sessions, are you not going to answer the question, 
whether any White House or--any White House officials have 
attempted to interfere or speak to the Justice Department about 
this transaction?
    Attorney General Sessions. According to longstanding 
Department of Justice policy, the Department of Justice does 
not reveal privileged conversations or conversations----
    Mr. Cicilline. Okay. Reclaiming my time, then, Mr.----
    Attorney General Sessions [continuing]. Between the White 
House and Department of Justice.
    Mr. Cicilline. I'm going to move on to a new area. The 
Foreign Agents Registration Act, you're familiar with it?
    Attorney General Sessions. Right.
    Mr. Cicilline. Do you think it's good policy?
    Attorney General Sessions. I think it's a good law----
    Mr. Cicilline. You enforce it, correct?
    Attorney General Sessions [continuing]. And it has value. 
Yes.
    Mr. Cicilline. In addition to Paul Manafort and Michael 
Flynn, have any other Trump campaign advisers or senior 
administration officials lobbied for foreign governments 
without disclosing it under the Foreign Agents Registration 
Act?
    Attorney General Sessions. I'm not able to comment on that.
    Mr. Cicilline. Why not?
    Attorney General Sessions. Repeat the question. Perhaps I 
misunderstood it.
    Mr. Cicilline. In addition to Paul Manafort and Michael 
Flynn, have any Trump campaign advisers or senior 
administration officials lobbied for foreign governments 
without disclosing it under the Foreign Agents Registration 
Act?
    Attorney General Sessions. That would be a matter that 
should be directed to Mr. Mueller, I believe.
    Mr. Cicilline. Moving to a new question, on October 6, the 
Department of Justice--actually, you, on the behalf of the 
Department of Justice, issued a 25-page memo to all Federal 
agencies, purporting to provide guidance on religious liberty 
protections under Federal law.
    In the guidance, you direct--you indicate that an exemption 
or accommodation for religious organizations from anti-
discrimination law might be required even where Congress has 
not expressly exempted religious organizations.
    You remember that, right?
    Attorney General Sessions. Yes.
    Mr. Cicilline. Would that mean, under your interpretation, 
that an employee of FEMA could refuse to provide disaster 
assistance to an unmarried couple who live together based on 
the employee's religious belief that men and women should not 
cohabitate before marriage?
    Attorney General Sessions. I don't believe that it could be 
interpreted that way. It's just a----
    Mr. Cicilline. Would----
    Attorney General Sessions [continuing]. Policy document. We 
didn't try to write it----
    Mr. Cicilline. Thank you. Reclaiming my time, I'd really 
like to----
    Attorney General Sessions. I'm just trying to answer.
    Mr. Cicilline. This is a ``yes'' or ``no.'' Would the 
guidance you provided permit a HUD-funded shelter to refuse to 
house an unmarried pregnant woman based on the grant 
recipient's belief that sex outside of marriage is a sin?
    Attorney General Sessions. Every----
    Mr. Cicilline. Yes or no?
    Attorney General Sessions. Every manner--first, I don't 
think so, number one, under the guidance. But, also, the 
guidance does not repeal established laws that are in place. 
And it was written, that guidance was, to clarify the 
established----
    Mr. Cicilline. Thank you, Mr. Sessions.
    Attorney General Sessions [continuing]. Principles of 
religious freedom.
    Mr. Cicilline. I have very limited time. I appreciate 
your----
    Attorney General Sessions. Well----
    Mr. Cicilline [continuing]. Answer.
    Attorney General Sessions. Thank you.
    Mr. Cicilline. Now, returning to the Papadopoulos issue, in 
your October 18 testimony, you purport to have forgotten this 
conversation about--by Mr. Papadopoulos about Russia that you 
put an end to. You said you weren't being dishonest, you 
weren't making false--you simply forgot it. Do you remember 
that testimony?
    Attorney General Sessions. Something like that, yes.
    Mr. Cicilline. Okay. When did you remember the remarks of 
Mr. Papadopoulos? When did that memory come back to you?
    Attorney General Sessions. I think it was when the press 
came up with it or some--it was revealed in the press.
    Mr. Cicilline. That was the first time you remembered it?
    Attorney General Sessions. I would recall that my October 
statements was a broad question.
    Mr. Cicilline. No, I understand. I'm just----
    Attorney General Sessions. And I'm----
    Mr. Cicilline. I have a limited time. Reclaiming my time, 
you were a senior----
    Attorney General Sessions. This event occurred over----
    Mr. Cicilline. Mr. Sessions, you were a senior----
    Attorney General Sessions. It was over 18 months before----
    Mr. Cicilline [continuing]. Campaign official and a member 
of the national security team. Did you ever exchange any email, 
text message, or any other communication to or from Mr. 
Papadopoulos about Russia or any other subject?
    Attorney General Sessions. Repeat the category--the list of 
things.
    Mr. Cicilline. Did you exchange any email, text message, or 
any communication to or from Mr. Papadopoulos about any 
subject?
    Attorney General Sessions. I do not believe so. I'm 
confident I----
    Mr. Cicilline. Did anybody----
    Attorney General Sessions [continuing]. Did not.
    Mr. Cicilline. Did anybody every forward to you a 
communication from Mr. Papadopoulos?
    Attorney General Sessions. I don't recall it.
    Mr. Cicilline. Did anybody from the campaign ever 
communicate with you about Mr. Papadopoulos?
    Attorney General Sessions. I can't say that there were no 
conversations about him before or after this event.
    Mr. Cicilline. Were you told about the----
    Attorney General Sessions. I did push back at him----
    Chairman Goodlatte. The time of the gentleman has expired. 
The witness can answer the question.
    Attorney General Sessions. I don't have a specific 
recollection, Mr. Chairman.
    Mr. Cicilline. Mr. Chairman, I'd ask to make a unanimous 
consent request.
    I would ask unanimous consent to insert the following 
materials into the record: a letter from me and Ranking Member 
Conyers requesting a hearing on the President's interference 
with antitrust enforcement matters before the Justice 
Department; a letter from Senators Amy Klobuchar, Dianne 
Feinstein, and several others to the Justice Department urging 
it to oppose any attempt by the White House to interfere with 
antitrust laws, enforcement decisions, particularly for 
political reasons; a July article in The New York Times 
reporting that senior White House advisers have discussed using 
the AT&T-Time Warner merger as a potential point of leverage 
over CNN; and nine letters from as far as back as February of 
this year from various members of the Judiciary Committee 
seeking information on a wide range of subjects, addressed to 
the Attorney General of the United States, that have been 
ignored, that we have received no response on. And I ask----
    Chairman Goodlatte. Without objection, the documents will 
be made part of the record.
    This information is available at the Committee and can be 
accessed online at: https://docs.house.gov/meetings/JU/JU00/
20171114/106709/HHRG-115-JU00-20171114-SD002.pdf
    Chairman Goodlatte. The chair recognizes the gentleman from 
Texas, Mr. Ratcliffe, for 5 minutes.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Mr. Attorney General, good to see you.
    If FBI Director Chris Wray held a press conference tomorrow 
without your knowledge to announce a charging decision in a 
major Federal investigation, would you consider that an 
inappropriate departure from longstanding Department of Justice 
and FBI policies?
    Attorney General Sessions. Under the situation today, under 
the letter that Deputy Attorney General Rosenstein wrote with 
regard to Mr. Comey, I think it would be a terminateable 
offense.
    Mr. Ratcliffe. All right.
    Attorney General Sessions. That is not disciplined. We need 
to be disciplined in this department. We don't need to be 
leaking, and we don't need to have people taking actions 
outside their realm. Maybe sometimes people make an honest 
mistake, but that would be a very dramatic thing, which he 
would never do.
    Mr. Ratcliffe. So I'll take that as an emphatic ``yes.''
    Now, to your knowledge, are there currently Federal 
prosecutors in your office that are predetermining cases prior 
to the interviewing of key witnesses, to include the subjects 
or targets of those investigations?
    Attorney General Sessions. I don't believe so.
    Mr. Ratcliffe. Is it a practice in your Department of 
Justice to allow immunized witnesses to sit in the interviews 
of the subject or target of Federal investigations?
    Attorney General Sessions. That would not be a normal 
process, for sure.
    Mr. Ratcliffe. Mr. Attorney General, these are just a few 
of the irregularities or anomalies that have taken place in how 
the Department of Justice and the FBI have handled these 
investigations and prosecutions prior to 2016, and, now, 
apparently, a departure from how you're handling them. It's 
also these irregularities that have shaken the faith and trust 
of people in our Department of Justice.
    Look, I'm of the opinion that for the last 8 years we have 
survived the worst Presidency of my lifetime. My colleagues on 
the other side of the aisle have spent their time today trying 
to convince you that we have to survive a bad President right 
now. That's okay. For 240 years, our Republic has withstood 
that. Elected officials come and go.
    But, right now, where we are and what our history won't 
tell us is, what happens to our Republic if people lose all 
faith and trust in the Department of Justice and the FBI to 
fairly investigate and to prosecute violations of the rule of 
law?
    Now, at one point in time, you and I held the same position 
in the Department of Justice. I was a U.S. attorney, as were 
you. You've obviously been promoted. If public opinion polls 
tell us anything, the chair that I hold right now signals that 
I've been demoted. But my time as U.S. attorney taught me 
something that you said in your opening, which is that the 
Department of Justice must always transcend politics to uphold 
the rule of law.
    I think, more than anything else, what the American people 
want to hear from you today is that that is, in fact, the case. 
As Mr. Gowdy said in his line of questioning, Lady Justice is 
supposed to be holding a set of scales, wearing a blindfold; 
she is not supposed to have her finger on the scales. And I 
think that the American people have every reason to question 
whether or not that's where we are right now.
    So, more than anything else, what I'm asking from you is to 
hear from you that you are prepared--no, that you are committed 
to go wherever the facts and evidence lead you, regardless of 
the political consequences for any political party or any 
person, to include Donald Trump or Hillary Clinton or yourself.
    Attorney General Sessions. Yes, I am and the Department of 
Justice is. You will soon have Director Wray, I believe, coming 
before your committee. I hope you'll ask him these questions, 
and I think you'll be impressed with his commitment in that 
regard.
    As United States attorneys, it was--we were raised in that 
idea. I've never forgotten--I'm glad I had my 15 years in the 
Department of Justice before I came to Congress. You get your 
values shaped maybe at a younger age. But I think I understand 
the role I have, the responsibility we have to do justice.
    And I would say this, that, in the long run, if I want the 
respect of this body, both sides of the aisle, I've got to 
follow the rules in the Department. And it may frustrate you 
that I can't answer questions or confirm you or other members 
on this side, it may frustrate people on this side, but if I'm 
not prepared to do that, then I don't think I'll ever restore 
the Department of Justice.
    And that's what our goal would be, to hopefully--hopefully 
it's not as bad as you say, but I think there's danger out 
there, and we want to fix it.
    Mr. Ratcliffe. Mr. Attorney General, thank you for your 
continued service.
    I yield back.
    Chairman Goodlatte. The chair would advise members of the 
committee that there are about 8\1/2\ minutes remaining in this 
vote. The gentleman from California has persuaded me that we'll 
permit him to proceed, but other members are advised we will 
reconvene immediately following this vote series.
    And the gentleman from California, Mr. Swalwell, is 
recognized for 5 minutes.
    Mr. Swalwell. Thank you, Mr. Chairman.
    Thank you for appearing, Mr. Attorney General. And please 
express my gratitude to the men and women who serve the 
Department of Justice.
    You stated in your opening statement that ``my story has 
never changed.'' But, Mr. Attorney General, it's changed three 
times, and today we heard the third edition when you told us 
that you do now recall Mr. Papadopoulos mentioning that he had 
contacts in Russia.
    And so I have a slide for you that I'd like to display. 
It's a January 10, 2017, exchange with Senator Franken where he 
asks about campaign communications with Russia. And you stated, 
``Senator Franken, I'm not aware of any of these activities.''
    Mr. Attorney General, if were you asked that question 
today, recalling that you are now aware of what Mr. 
Papadopoulos said on March 31, would you answer that question 
differently?
    Attorney General Sessions. All I would say to you, 
Congressman, is, if you fairly treat the exchange I had with 
Senator Franken, I think you can understand where, when I 
answered the question, I felt like I was answering it properly.
    Mr. Swalwell. But you would agree, today, it should be 
answered differently, if it was asked in the same form today, 
considering your recollection that you just gave us.
    Attorney General Sessions. I believe that when I was--
you're asking me today, explicitly, did you meet with any other 
Russians----
    Mr. Swalwell. Today----
    Attorney General Sessions [continuing]. I am prepared to 
say I did. I met with the Ambassador in my office with at least 
two of my staff, senior, respected patriots, colonels, retired, 
in the Army.
    Mr. Swalwell. And, Mr. Attorney General----
    Attorney General Sessions. And nothing improper occurred at 
all.
    Mr. Swalwell [continuing]. Once and for all, can we answer 
the question?
    Attorney General Sessions. I am once and for all answering 
the----
    Mr. Swalwell. Well----
    Attorney General Sessions [continuing]. Question, 
Congressman. I don't understand why you won't take my answer.
    Mr. Swalwell. Well, we're on the third edition, Mr. 
Attorney General.
    So, during your time on the campaign, did any person on 
Earth state that they were communicating with Russians, 
traveling to Russia, or ask the campaign to meet with Russians, 
to your recollection?
    Attorney General Sessions. Did you get--was I asked that 
question?
    Mr. Swalwell. No. I'm asking you today, to your knowledge, 
did any person on the campaign tell you they were going to 
Russia----
    Attorney General Sessions. I'm prepared to answer the 
question, but I just will not answer it in a way that suggests 
that I in any way intentionally misled anyone when I answered 
the question. And----
    Mr. Swalwell. What's the answer to the question, Mr. 
Attorney General?
    Attorney General Sessions. The answer is I met with the 
Ambassador in my office for less than an hour, I believe. And I 
met--he came up to me after a speech at the convention. When it 
was raised to me that this--months later. Nobody said 
immediately it was an error. By a press--I immediately revealed 
and acknowledged or told them the meetings I'd had.
    Mr. Swalwell. With respect to Carter Page, he told you, as 
you just acknowledged, that he was going to Russia. He was also 
on the national security team. And this is the second person 
within about 3 months now that is bringing up Russian contacts. 
And you did not tell him to not go to Russia. Is that correct?
    Attorney General Sessions. No, I didn't tell him not to go 
to Russia.
    Mr. Swalwell. And you didn't tell anyone else on the 
campaign that he'd told you that----
    Attorney General Sessions. I don't recall him saying that, 
but--so am I supposed to stop him from taking a trip?
    Mr. Swalwell. Well, at that point, did you think that, now 
that two people have talked about either going to Russia or 
having contacts with Russia, that the campaign, where you were 
the chairman of the national security team, might have a Russia 
problem?
    Attorney General Sessions. Well, if I read what's been said 
about the Papadopoulos meeting, the one that was a little--
somewhat earlier than that, I did say, don't--you don't 
represent--something to that--I pushed back at his trip and was 
concerned that he not go off somewhere pretending to represent 
the Trump campaign. He had no authority for that. This young 
man didn't have any ability and ought not to be going off 
representing the campaign.
    Mr. Swalwell. Mr. Attorney General----
    Attorney General Sessions. Then the next one--the next one 
is Carter Page, and he says, from what I see in his testimony--
interviews, he said, after the meeting was over, he goes out 
and he----
    Mr. Swalwell. Moving on, Mr. Attorney General----
    Attorney General Sessions. He goes out, and he says he's 
going to Russia. I made no response.
    Mr. Swalwell. CIA Director Pompeo has called----
    Attorney General Sessions. What does that mean?
    Mr. Swalwell. Well, Mr.--the American people----
    Attorney General Sessions. I don't think it means that I've 
done anything dishonest----
    Mr. Swalwell. Mr. Attorney General----
    Attorney General Sessions [continuing]. And certainly 
doesn't----
    Mr. Swalwell [continuing]. The CIA Director has judged that 
WikiLeaks is a hostile nonstate intelligence service. Do you 
agree?
    Attorney General Sessions. I'm not able to disagree with 
that.
    Mr. Swalwell. But candidate Trump, who you were working 
for----
    Attorney General Sessions. He's more aware of its 
activities, perhaps, than I.
    Mr. Swalwell. But candidate Trump said throughout the 
campaign, ``I love WikiLeaks.''
    Do you love WikiLeaks, Mr. Attorney General?
    Attorney General Sessions. I'm not a fan of WikiLeaks.
    Mr. Swalwell. Do you think it was appropriate that Donald 
Trump, Jr., communicated with WikiLeaks during the course of 
the campaign?
    Attorney General Sessions. I'm not able to make a judgment 
about that.
    Mr. Swalwell. Thank you again for appearing.
    Chairman Goodlatte. The time of the gentleman has expired.
    The committee will stand in recess until immediately after 
this vote.
    [Recess.]
    Chairman Goodlatte. The committee will reconvene.
    And the chair recognizes the gentleman from Florida, Mr. 
Gaetz, for 5 minutes.
    Mr. Gaetz. Thank you, Mr. Chairman.
    On how many investigations have you recused yourself?
    Attorney General Sessions. I don't have the number of that. 
I'll recuse whenever it's appropriate. Doesn't mean there's 
anything improper, of course. It just means that----
    Mr. Gaetz. Not to--have you reused on more than one 
investigation since you've been Attorney General?
    Attorney General Sessions. Yes.
    Mr. Gaetz. More than 10?
    Attorney General Sessions. No more--I don't--could be close 
to that number.
    Mr. Gaetz. On all of the matters in which you've recused 
yourself, is Mr. Rosenstein functionally the Attorney General 
for those matters?
    Attorney General Sessions. Yes.
    Mr. Gaetz. Are there any matters where you've recused 
yourself where Mr. Rosenstein has also recused himself?
    Attorney General Sessions. I'm not aware of it.
    Mr. Gaetz. If there was such a circumstance, would you be 
aware of it?
    Attorney General Sessions. Probably.
    Mr. Gaetz. You're aware of the July 27 letter that the 
Judiciary chairman and 20 members of the committee sent 
demanding a special counsel?
    Attorney General Sessions. Yes.
    Mr. Gaetz. And you're aware of the November 13 response 
that we received late last evening provided by the Assistant 
Attorney General?
    Attorney General Sessions. Yes.
    Mr. Gaetz. Did you correct Mr. Boyd to draft that response?
    Attorney General Sessions. We discussed that, and he 
drafted it, yes.
    Mr. Gaetz. Did anyone else direct Mr. Boyd to draft this 
response, or was it just you?
    Attorney General Sessions. I think it would've been a 
direction from me.
    Mr. Gaetz. Did you review the letter before it was sent?
    Attorney General Sessions. Yes.
    Mr. Gaetz. And you agree with what's laid out in the 
letter?
    Attorney General Sessions. I think so.
    Mr. Gaetz. So I'm going to now quote--I think it's in the 
third paragraph. It says, ``The Attorney General has directed 
senior Federal prosecutors to evaluate certain issues raised in 
your letters. These senior prosecutors will report directly to 
the Attorney General and the Deputy Attorney General.''
    When you say the Deputy Attorney General, you're referring 
to Mr. Rosenstein?
    Attorney General Sessions. I'm impressed with Mr. 
Rosenstein. Yes. He's a friend.
    Mr. Gaetz. So, in this circumstance, you contemplate where 
senior prosecutors are doing the analysis of the issues raised 
in Chairman Goodlatte's letter and then reporting back. Do you 
contemplate, by using the conjunction ``and,'' that you and Mr. 
Rosenstein would be briefed simultaneously?
    Attorney General Sessions. I would think so.
    Mr. Gaetz. Who is the final decisionmaker, you or Mr. 
Rosenstein, on these matters?
    Attorney General Sessions. I would make a--the final 
decision, I would assume, unless it implicates an issue that 
I'm not--that I'm recused in or it'd be improper for me to be 
involved with.
    Mr. Gaetz. And that goes to the very basis of my questions. 
I'm trying to find out, on the very issues raised in Chairman 
Goodlatte's letter, on the very issues referenced in this 
response, it is stated in this response that it is the Attorney 
General and the Deputy Attorney General that make a decision. 
So are you saying that it is the Attorney General, it is your 
decision that is dispositive on those matters?
    Attorney General Sessions. Yes, unless there's a conflict 
or--that I would make a decision, yes. But he would report to 
both of us.
    Mr. Gaetz. Do you see such a conflict as we sit here now?
    Attorney General Sessions. Well, some of the matters could 
implicate matters that Mr. Mueller has, for example, that I 
have recused myself from----
    Mr. Gaetz. Well, let's go----
    Attorney General Sessions [continuing]. And other matters.
    Mr. Gaetz. Other than the matters that Mr. Mueller is 
dealing with, are there any other matters that you would see a 
circumstance where the issue has been raised in Chairman 
Goodlatte's letter where you would anticipate a recusal on your 
part?
    Attorney General Sessions. I won't prejudge that, but it's 
possible.
    Mr. Gaetz. Do you have the authority today, subject to your 
recusal, to appoint a special counsel to investigate the 
Uranium One matter?
    Attorney General Sessions. I believe I do.
    Mr. Gaetz. Do you have the authority to appoint a special 
counsel to investigate the Fusion GPS dossier?
    Attorney General Sessions. I don't believe that I should be 
talking about evaluating cases here today.
    Mr. Gaetz. I'm not asking you to evaluate----
    Attorney General Sessions. Well, you basically are.
    Mr. Gaetz. I'm asking you to evaluate your authority to 
appoint a special counsel, not the--I don't want to know 
anything about the investigations. I don't even want to know if 
the investigations are happening or not happening.
    Attorney General Sessions. So if I'm not recused, I have 
the authority, yes, and the duty and the responsibility to make 
that decision.
    Mr. Gaetz. Okay.
    As it relates to Loretta Lynch using the pseudonym 
``Elizabeth Carlisle,'' are you recused on that matter?
    Attorney General Sessions. I don't think so. And--but----
    Mr. Gaetz. Are you recused in the Fusion GPS matter?
    Attorney General Sessions. There, again, I'm not able to 
comment about that.
    But I would say, in defense of Attorney General Lynch, I 
use the same--I have a pseudonym also. I understand all Cabinet 
officials do, and maybe some sub-Cabinet officials do. So she 
would----
    Mr. Gaetz. Well, let's go back to----
    Attorney General Sessions [continuing]. Probably have been 
following the advice----
    Mr. Gaetz. I understand.
    Attorney General Sessions [continuing]. Of the Department 
of Justice. I'm just saying----
    Mr. Gaetz. That's fine.
    Attorney General Sessions [continuing]. We have to be 
careful----
    Mr. Gaetz. I'm no longer interested in that.
    So you--I just want to be clear that, as it relates to the 
Uranium One matter, you do believe you have the authority to 
appoint a special counsel, and you do not believe that that 
authority that you have is subject to any recusal at this time.
    Attorney General Sessions. I cannot say that.
    Chairman Goodlatte. The time of the gentleman has expired.
    The chair recognizes the gentleman from California, Mr. 
Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    Hello, Mr. Sessions.
    Attorney General Sessions. Yes.
    Mr. Lieu. Donald Trump has asked various individuals to 
pledge an oath of loyalty to him. Did Donald Trump ever ask you 
to pledge an oath of loyalty to him?
    Attorney General Sessions. No.
    Mr. Lieu. If Donald Trump were to ask you to pledge loyalty 
to him or to take such an oath, would you do so?
    Attorney General Sessions. Well, I don't know what a 
pledge-of-loyalty oath is. We all owe loyalty to our 
supervisors. I've always done that to my bosses and 
supervisors. So, you know, people are expected to be loyal to 
their----
    Mr. Lieu. The correct answer is----
    Attorney General Sessions [continuing]. Executive branch 
head. But if you're----
    Mr. Lieu. Reclaiming my time----
    Attorney General Sessions [continuing]. Talking about some 
sort of improper loyalty oath that goes beyond a commitment 
to----
    Mr. Lieu. Thanks you, Mr. Sessions. Let's----
    Attorney General Sessions [continuing]. Following a law, I 
have not.
    Mr. Lieu. Thanks you, Mr. Sessions.
    Reclaiming my time, let's talk about your contacts with a 
foreign power.
    So, last year, how many interactions did you have with the 
Russian Government official Sergey Kislyak? I just need a 
number. Is it three?
    Attorney General Sessions. Well--of all foreign officials 
or just----
    Mr. Lieu. Russian Government official Ambassador Sergey 
Kislyak. Last year, how many interactions did you have with 
him?
    Attorney General Sessions. I spoke at the Republican 
convention. I came off the platform, and people were there, and 
we chatted a moment, had an encounter. Several--a couple months 
later, I believe in September, he asked for a meeting, and I 
provided that. I met with over--approximately 25 ambassadors--
--
    Mr. Lieu. Thank you. So----
    Attorney General Sessions [continuing]. Last year. And I 
had that same day--well, excuse me. Go ahead.
    Mr. Lieu. Thank you, Mr. Sessions. Thank you.
    As Attorney General, you have a security clearance, 
correct?
    Attorney General Sessions. Yes.
    Mr. Lieu. And to get that security clearance, you submitted 
a security clearance application, also known as an SF-86 Form, 
correct?
    Attorney General Sessions. That's correct.
    Mr. Lieu. I submitted such a form when I served on Active 
Duty in the U.S. Air Force, and the form requires you to 
certify, under penalty of perjury, that information submitted 
was true, complete, and correct, to the best of your knowledge.
    You certified your security clearance form, correct?
    Attorney General Sessions. That is correct.
    Mr. Lieu. All right.
    I'm going to, on the video screen, show you a question from 
that form. And it says, ``Have you or any of your immediate 
family in the past 7 years had any contact with a foreign 
government, its establishment, such as embassy, consulate 
agency, military service, intelligence, or a security service, 
et cetera, or its representatives, whether inside or outside 
the U.S.?''
    The answer that you gave was ``no.'' What you just told us 
under oath was exactly the opposite. So I'm going to ask you, 
Mr. Sessions, were you lying then when you filled out the form 
or are you lying now?
    Attorney General Sessions. What I was told by my executive 
assistant when we did this form earlier and then again when I 
was nominated for Attorney General, that the FBI authority said 
Members of Congress and, effectively, government officials 
meeting people on an official basis, you were not required to 
list all these contacts.
    Mr. Lieu. Nothing in that question says you get to answer 
any differently because you're a U.S. Senator rather than, say, 
a young police officer. Isn't that right?
    Attorney General Sessions. Well----
    Mr. Lieu. Nothing in that question authorizes you to answer 
any differently. Isn't that right?
    Attorney General Sessions. I would say that nobody at the 
FBI or any other place, to my knowledge, said, ``You left that 
blank. Surely you've met with some foreign officials in the 
last 7 years.''
    I have not had any private business dealings or any things 
of that nature. My contacts would be in the normal course of--
--
    Mr. Lieu. Let me ask you----
    Attorney General Sessions [continuing]. Senatorial 
business.
    Mr. Lieu. Let me ask you about one----
    Attorney General Sessions. So I thought that was a 
reasonable answer.
    Mr. Lieu. You said under oath today that you had a meeting 
with Ambassador Kislyak of under an hour. That's pretty long. 
Was it more than 50 minutes?
    Attorney General Sessions. I doubt it was 50 minutes, but 
it may have been.
    Mr. Lieu. Forty-five?
    Attorney General Sessions. Forty-five, 50 minutes.
    Mr. Lieu. All right. Did you discuss campaign----
    Attorney General Sessions. The Ambassador of----
    Mr. Lieu. Did you discuss campaign-related items, such as 
Ukraine, with an Ambassador?
    Attorney General Sessions. Well, that's not campaign-
related.
    Mr. Lieu. All right. I'm going to ask you two simple 
questions----
    Attorney General Sessions. Yes, we did talk about Ukraine. 
We actually had an argument about the Ukraine, because, the day 
before, the Ukrainian Ambassador was in my office making his 
case against Russia. And I raised those issues with Mr. 
Kislyak, and he was, as I referred to it, I think, the classic, 
``We did nothing wrong, and Ukraine did everything wrong.'' 
That was his----
    Mr. Lieu. Let me ask you two simple questions, because, in 
a sense, you've already answered it.
    You did have communications with the Russians last year. 
Isn't that right?
    Attorney General Sessions. Repeat that.
    Mr. Lieu. You did have communications with the Russians 
last year. Isn't that right? Just ``yes'' or ``no.''
    Attorney General Sessions. I had a meeting with the Russian 
Ambassador, yes.
    Mr. Lieu. Great. That is exactly the opposite answer you 
gave under oath to the U.S. Senate. So, again, either you're 
lying to the U.S. Senate or you're lying to the U.S. House of 
Representatives.
    Attorney General Sessions. Well, that's----
    Chairman Goodlatte. The time of the gentleman has expired. 
The witness can answer it any further if he chooses to.
    Attorney General Sessions. I won't repeat it, Mr. Chairman. 
But I hope the Congressman knows and I hope all of you know 
that my answer to that question, ``I did not meet with the 
Russians,'' was explicitly responding to the shocking 
suggestion that I, as a surrogate, was meeting on a continuing 
basis with Russian officials, and the implication was to impact 
the campaign in some sort of nefarious way. And all I did was 
meet in my office with the Ambassador, which we didn't discuss 
anything like that.
    So I just want to say, I appreciate the Congressman's 
right. I guess he can say it's free speech, he can't be sued 
here. So I just--my response--and I'm sorry that--that's my 
response.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Louisiana, Mr. Johnson, for 5 minutes.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman.
    And, Mr. Attorney General, thank you for your service to 
this country. Thank you for being here today.
    Much has been said in recent months about the aggressive 
agendas of hostile foreign actors to undermine our Nation's 
democratic process, as we've talked a lot about today. The 
American people are rightfully concerned about these subversive 
efforts, because it seems to taint our public policy and our 
elections. That's at least the agenda that some have.
    And it's been almost 70 years since Congress first enacted 
the Foreign Agents Registration Act to limit and keep track of 
outside influences. And, as you know, that law created critical 
disclosure requirements for any lobbying group that works on 
behalf of foreign interests here in the U.S. so their advocacy 
and activities can be properly evaluated in light of their 
associations.
    General Sessions, the question today is: As you know, the 
current special counsel investigation has revealed several 
high-profile Washington elites, on both sides of the aisle--for 
example, Mr. Podesta and Mr. Manafort--who have violated the 
Foreign Agents Registration Act. Would you agree that without 
the special investigation these cases would likely not have 
become public?
    Attorney General Sessions. Perhaps. But I--let me back off 
of that to say, I really have not followed that closely, and 
I'm not have--I do not have privy to the information and that 
it would be inappropriate, really, for me to express an 
opinion.
    Mr. Johnson of Louisiana. I accept that. The point is that 
a lot of these things have stayed below the radar because 
there's not been appropriate focus and attention on it, and the 
special investigation has brought that. And, in the view of 
many of us, it's long overdue.
    There's historical evidence, going back as far as the 
administration of George H.W. Bush, highlighting failed 
attempts to reform the law in this area. And this is despite 
repeated recommendations to develop a strategy integrated with 
the DOJ's overall national security efforts and similar calls 
for higher means of enforcement. But there's been no 
substantive action by any Congress over all that time. And 
there's been a sharp decline, a corresponding decline, in 
compliance over the last two decades.
    So, clearly, everybody can agree much has changed in the 
world since the FARA law first was enacted in 1938. The 
question is, would you agree to work with us--us, me, and this 
committee--to correct these very serious problems so we can 
update our disclosure laws so that the American people can see 
what's going on behind the veil?
    Attorney General Sessions. I would. I believe our 
professional staff, who've been at this for some time, have 
communicated with some Senators who've got ideas and probably 
have communicated with you, and I would be glad to continue 
that.
    Mr. Johnson of Louisiana. And we appreciate it. Senator 
Grassley----
    Attorney General Sessions. We have taken some action. I 
think it's only seven cases in, what, years?
    Mr. Johnson of Louisiana. Yes.
    Attorney General Sessions. Decades?
    Mr. Johnson of Louisiana. In decades.
    Attorney General Sessions. And so we've brought one 
enforcement action against RT--Russian TV, I guess it is----
    Mr. Johnson of Louisiana. Right.
    Attorney General Sessions [continuing]. In effect, some 
part of that. And so it's a matter worth serious consideration. 
I thank you for giving it that.
    Mr. Johnson of Louisiana. Yes, sir. Senator Grassley and I 
have filed companion bills to clear up the ambiguities in 
existing law and allow DOJ more oversight. So we do appreciate 
your attention.
    Another issue. On September 5, I led a letter to your 
office, with 17 other Members from Louisiana and Texas, 
requesting a thorough investigation of Planned Parenthood Gulf 
Coast actions, harvesting and transferring fetal tissue for 
financial gain.
    And I would ask, Mr. Chairman, for unanimous consent to 
enter a copy of that letter into the record.
    Chairman Goodlatte. Without objection, it will be made a 
part of the record.
    This material is available at the Committee and can be 
accessed online at: https://docs.house.gov/meetings/JU/JU00/
20171114/106709/HHRG-115-JU00-20171114-SD003.pdf
    Mr. Johnson of Louisiana. Specifically, we requested that 
your office look into the congressional findings of the Select 
Investigative Panel on Infant Lives from last year. The panel 
stated that this was just 1 of 15 criminal and regulatory 
referrals made to various State and Federal agencies, 4 of 
which were referred to the Justice Department.
    So the question is, do you have any updates on that today, 
on those issues or our request? And if not, could we get one of 
those soon?
    Attorney General Sessions. I will review the letter. I do 
not have it at the top of my head, I'm sorry to say, but we'll 
look at it.
    And I believe that Congress, Mr. Chairman and members here, 
are entitled to a prompt response from the Attorney General and 
the Department of Justice. We've already reduced a backlog of 
some 400 letters by half. And we're going to--when the dust 
settles on our time here, I think you'll see we far--were more 
responsive than you've in the past. Because I was in your 
shoes, and I had, as Chairman Grassley reminded me, letters 
that I had had pending for a long time not answered, so----
    Mr. Johnson of Louisiana. Fair enough. And I know you've 
been busy.
    Third issue. I'm almost out of time. But October 12, you 
made remarks to the Executive Office for Immigration Review, 
and you stated how the immigration court system is being gamed 
in many ways. Today, you mentioned again about the ``credible 
fear'' process being abused.
    Is it your belief that Congress should act to enhance the 
``credible fear'' standard? And if we do that, what impact 
would it have on fraudulent and dilatory claims filed in 
immigration courts?
    Attorney General Sessions. It could have a very significant 
impact. We have--about 90 percent of the people who make those 
claims are referred for some sort of hearing. Many of those are 
quickly determined not to be substantial.
    I remember when the bill passed, and I remember an 
experienced Senator--I will say--Senator Jon Kyl of Arizona, he 
said, ``This is a huge thing. You don't know how big this is 
going to turn out to be.'' And it took a number of years, but 
it certainly proved to be--his prediction proved to be correct. 
We did not need to do that then, and we ought to go--we need to 
curtail it.
    Mr. Johnson of Louisiana. We filed some legislation----
    Attorney General Sessions. At least Chairman Goodlatte's 
proposals will fix some of that.
    Mr. Johnson of Louisiana. We're working on that.
    Appreciate your time, and I yield back.
    Attorney General Sessions. Thank you.
    Chairman Goodlatte. The chair thanks the gentleman.
    The chair recognizes the gentleman from Maryland, Mr. 
Raskin, for 5 minutes.
    Mr. Raskin. Thank you, Mr. Chair.
    Mr. Attorney General, President Trump has called the press 
the ``enemy of the people,'' although I think the Founders 
probably thought that a free press was the people's best 
friend.
    As Attorney General, will you commit not to prosecute 
investigative journalists for maintaining the confidentiality 
of their professional sources?
    Attorney General Sessions. I will commit to respecting the 
role of the press and conducting my office in a way that 
respects that and the rules within the Department of Justice.
    Mr. Raskin. But nothing specific----
    Attorney General Sessions. We have not had a conflict in my 
term in office yet with the press, but there are some things 
that the press seems to think they have an absolute right to 
they----
    Mr. Raskin. Gotcha.
    Attorney General Sessions [continuing]. Do not have an 
absolute right----
    Mr. Raskin. Thank you very much.
    Does your May 10, 2017, memorandum instructing Federal 
prosecutors to seek the most serious possible charges for 
criminal defendants and the longest possible sentences extend 
to defendants who are charged by Special Counsel Mueller, like 
Paul Manafort, Rick Gates, George Papadopoulos, and so on?
    Attorney General Sessions. I would think so. I haven't 
given that much thought.
    I would say it's not--it does not call for the most maximum 
sentence. It simply calls for charging the crime--the most 
serious crime and----
    Mr. Raskin. With the highest sentence.
    Attorney General Sessions [continuing]. The minimum 
sentence for that most serious crime.
    Mr. Raskin. Gotcha.
    I was confused about one thing that came up in the various 
questioning about the meetings with Mr. Papadopoulos. At one 
point, I heard you to say that you told him essentially, ``No, 
don't go.'' You tried to shut it down, the trip. At another 
point, I thought I heard you to say, ``Don't represent yourself 
as speaking for the campaign.''
    And I'm just wondering whether you could clarify that. Were 
you telling him not to go or just not to go and officially 
speak for the Trump campaign?
    Attorney General Sessions. I have no specific--I remember 
the pushback. I remember that he suggested an ability to 
negotiate with Russians or others, and I thought he had no 
ability or it would not be appropriate for him to do so. And I 
was pretty clear about that he shouldn't be pretending to 
represent----
    Mr. Raskin. And were you equally clear with Mr. Gates at 
the June meeting, not to go to Russia and not to represent the 
campaign? Or Mr. Page, rather.
    Attorney General Sessions. Mr. Page?
    Mr. Raskin. Mr. Page, yeah.
    Attorney General Sessions. Well, let me tell you what he 
says. I don't recall it. He says he was in the dinner, and as 
he walked out, he told me, ``I'm going to Russia,'' that I made 
no response whatsoever. He said it looked like it went in one 
ear and out the other, and that he did nothing improper when he 
went to Russia.
    So I don't know what he did and have no knowledge of it. He 
didn't report to me and didn't act for me, and, so far as I 
know, he didn't act for the campaign.
    Mr. Raskin. Fair enough.
    You've taken the position that Members of Congress have no 
standing to sue in Federal court to challenge President Trump's 
continuing receipt of foreign government payments at the Trump 
Hotel, the Trump Tower, the Trump golf courses, and so on.
    As Attorney General, our leading law enforcement official, 
what is the appropriate constitutional remedy for a President 
who collects foreign emoluments without obtaining congressional 
permission to do so? As a matter of law, what is the 
appropriate remedy?
    Attorney General Sessions. I would have to take a look at 
that. I'm not prepared to give you an answer. Our people have 
vastly----
    Mr. Raskin. Well, you've taken the position that we don't 
have any standing to raise it in court. So I guess what--in 
taking that position, that we don't have standing to raise it, 
what is the appropriate constitutional remedy?
    This was very serious business for the Founders of the 
country, who didn't want the President compromised by foreign 
government payoffs and by the intervention of foreign 
governments. So what do we do?
    Attorney General Sessions. The Emoluments Clause has not 
been the subject of a great deal of litigation. The Department 
of Justice has longstanding rules about standing and raised the 
defense of standing against Congress, against private parties, 
against groups, and it's pretty well-established law. I'd have 
to get you information----
    Mr. Raskin. Would you clarify that for us? Thank you.
    So, as Attorney General, you said you'd be a defender of 
the voting rights of the people. And America faces a number of 
voting rights crises today. We've got millions of people who 
are disenfranchised in Puerto Rico and the other territories. 
We have 650,000 people right here in Washington, D.C., who have 
no voting representation in Congress. We've got continuing 
voter purges and suppression at the State level. And we've got 
warnings from our intelligence community that there will be 
further attempts at cyber sabotage of our elections.
    What do you consider the most serious threat to our voting 
rights, and what are you doing about it?
    Attorney General Sessions. Well, we will not accept 
suppression and illegal activities against voters. So, if you 
have any, I'd appreciate you sending it to me.
    Mr. Raskin. We will absolutely will.
    Attorney General Sessions. We will make sure it's 
investigated by career attorneys in our Civil Rights Division.
    Mr. Raskin. And on the cybersecurity side, what are you 
doing to protect us from another hacking of our election, 
attempts to infiltrate with political sabotage, essentially?
    Attorney General Sessions. I believe that this is a danger, 
that I believe investigations have been ongoing and it's being 
considered. But, Congressman, I have to say, I'm not up to date 
on the latest of that. And I would be pleased to try to get you 
something in writing as to what we need to do--or, at least, 
what we are doing and what we may need to do to protect the 
integrity of our elections.
    Mr. Raskin. Thank you.
    I yield back, Mr. Chairman.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Arizona, Mr. Biggs, for 5 minutes.
    Mr. Biggs. Thank you, Mr. Chairman.
    Chairman Goodlatte. Please turn on your microphone.
    Mr. Biggs. Thanks.
    Thank you, Mr. Attorney General. Appreciate you being here 
today. Appreciate your frank testimony.
    And I'm going to try to go over some ground that's been 
covered without plowing it too much deeper. But please help me 
understand, what's Rod Rosenstein's role at the Department 
right now?
    Attorney General Sessions. The Department of Justice has a 
number of key positions. The Deputy Attorney General has 
supervisory control--responsibility for all of our 
investigative agencies and, basically, the most of--well, the 
entire Department.
    The Associate handles a part of that, and the Deputy--and 
the Associate reports through the Deputy to the Attorney 
General. And the Deputy--the FBI Director, for example, reports 
through the and to the Deputy, not directly to the Attorney 
General.
    Mr. Biggs. Okay. And so what's Andrew McCabe's 
responsibility and role?
    Attorney General Sessions. I think he's classified as the 
number-two guy at the FBI.
    Mr. Biggs. Okay. And in their positions--for instance, when 
Mr. Comey's position was terminated, Mr. McCabe was Acting 
Director, I think, for a period of time until a new Director 
was nominated, and Mr. Rosenstein's been serving with you and 
had served previously--was anything done to question or vet any 
potential conflicts those two gentlemen might have had with 
things like the Mueller investigation, with the Russia 
investigation, or anything like that?
    Attorney General Sessions. It's the responsibility, I 
guess, of a person involved in an investigation to be sure that 
nothing they do has a conflict of interest or that should 
require recusal.
    Mr. Biggs. So I appreciate that that's an individual 
responsibility, but--so I guess nothing formally or from the 
Department was done to vet--say, you know, we've got this going 
on, there's potential questions, particularly with regard to 
Mr. Rosenstein's and Mr. McCabe's roles all the way back to the 
Fusion One investigations and continuing on for that period of 
10 years. I suppose, if I understand you correctly, there was 
nothing done there formally to vet them.
    Attorney General Sessions. I think I understand you 
correctly, and I think that's correct.
    Mr. Biggs. Okay.
    And I know that you've answered this, so I'm going to go 
very quickly with these.
    With regard to the Fusion GPS dossier, it's been reported 
widely in the media that the FBI at least paid for some portion 
of it or reimbursed some expenses for that document. Do you 
know whether that's accurate or not, accurate reporting in the 
media?
    Attorney General Sessions. I do not.
    Mr. Biggs. And I guess it's also been widely reported in 
the media that the FBI at some point reviewed that dossier, 
particularly under Mr. Comey. So do you know if that ever 
occurred?
    Attorney General Sessions. I'm not able to comment on that.
    Mr. Biggs. Okay. When you say you're not able to comment, 
that means----
    Attorney General Sessions. Well, I don't----
    Mr. Biggs. You may not know, or there's an investigation--
--
    Attorney General Sessions. I have not been involved----
    Mr. Biggs. Okay.
    Attorney General Sessions. In that investigation, and I 
don't even read the newspapers that closely.
    Mr. Biggs. Good for you, I must say.
    And then we had an exchange earlier today with you and the 
Representative from Ohio, the gentleman from Ohio, Mr. Jordan, 
and he said, seems like this, it seems like that, seems like 
this.
    And at the end of that, you made a comment, and I don't 
want--I can only paraphrase, because I didn't write down the 
exact comment. My note just says ``seems like.'' You were 
saying, well, you can't base a case on something that ``seems 
like'' something.
    But, in essence, the notion--very notion of probable cause 
indicates that something seems like something and it seems like 
that person probably committed that act which seems like it's 
in violation of the law.
    And so I guess I'm trying to get clarification of that.
    Attorney General Sessions. This Congress has a right to ask 
for information, and it has a right to express its opinion 
about whether special counsel should be appointed, but it's my 
responsibility to evaluate it. And I would have to feel or, in 
some cases, the Deputy would have to feel that there are the 
kind of circumstances that would justify.
    And we just have to know that--I want you all to know that 
if a special counsel is required, I or, I'm sure, anyone else 
in the Department that had the responsibility would name one. 
If not, we have to say it is not required.
    I would say that our department, with Chris Wray at the FBI 
and our team at the Department of Justice, I feel like we can 
do work, but there are some cases that get so significant and 
have such a level that it becomes a public interest question 
that has to be evaluated.
    So I have no prejudgment. And----
    Mr. Biggs. Sure.
    Attorney General Sessions [continuing]. I really hope 
you'll give me--the chairman might have to give you a second.
    I did not mean to suggest I was taking a side, one way or 
the other, on that subject. I was simply responding that we 
would have to have full and effective and detailed, factual 
evaluation before we make a decision on whether or not a 
special counsel is required. And I make no--I have made no 
prejudgment.
    Mr. Biggs. And I appreciate that. But I guess what I'm 
getting at, in particular: Is that so, even with the idea that 
many people are questioning the impartiality of Mr. Rosenstein, 
who would be ostensibly in line to help make that decision on 
special counsel?
    Attorney General Sessions. I'm not aware that he has a 
problem in that regard. But, if so, we have senior counsels in 
the Department who would give advice on that. So I--and we all 
have to be sure that we're not crossing that line.
    Mr. Biggs. Thank you.
    And thank you, Mr. Chairman, for indulging me.
    Chairman Goodlatte. The chair recognizes the gentlewoman 
from Washington, Ms. Jayapal, for 5 minutes.
    Ms. Jayapal. Thank you, Mr. Chairman.
    And thank you, Mr. Attorney General, for being with us.
    I'd like to go back to some of your testimony on contacts 
with Russia. At the beginning, in your opening statement, you 
said, ``My testimony has not changed.'' Later, in response to 
some questions, you said, ``I do now recall.''
    And, Mr. Attorney General, with all due respect, it's 
difficult to take your assurances under oath when you seem to 
change your testimony each time new evidence emerges.
    And, specifically, you denied contact with Russians under 
oath during your confirmation hearings. That was revealed to be 
untrue, given multiple meetings with an ambassador.
    Later, you refined your response to more narrowly focus on 
discussion of campaign-related matters, but you denied that 
campaign surrogates communicated with Russian agents. That was 
revealed to be untrue, given the sworn statement offered by 
George Papadopoulos.
    You later again refined your answer, saying that you didn't 
remember Papadopoulos raising the issue in the March 2016 
meeting, but, once you remembered the meeting, you then 
remembered telling Papadopoulos to cease those conversations.
    You say that you cannot be expected to remember the details 
of what happened a year ago, but you are, in fact, a very 
seasoned prosecutor and a 20-year Member of the United States 
Senate--United States Congress, who is presumably capable of 
mind and memory.
    So, Attorney General Sessions, did you as a prosecutor 
accept a defense of lack of recall?
    Attorney General Sessions. Well, absolutely, people have a 
lack of recall----
    Ms. Jayapal. Thank you. And would you----
    Attorney General Sessions [continuing]. In the environment 
that we were operating in, with so much happening and meetings 
occurring. You assume a lot of matters that aren't accurate----
    Ms. Jayapal. Thank you, Mr. Sessions.
    Attorney General Sessions [continuing]. I would suggest, in 
the----
    Ms. Jayapal. Would you instruct the----
    Attorney General Sessions [continuing]. Nature of the 
question that----
    Ms. Jayapal. Would you instruct the attorneys who work for 
you at the Department of Justice to take at face value a 
defense of ``I don't recall''?
    Attorney General Sessions. If a person says they don't 
recall and has a justified reason for it, I certainly do.
    Ms. Jayapal. And that was not the case in the situation of 
the police officer that Mr. Jeffries referred to.
    Let me move on to another matter. On November 11, President 
Trump not only trusted the word of Vladimir Putin over the 
brave men and women who serve in our intelligence community, he 
proceeded to trash the reputations of its leaders. And I quote 
here, he said, ``Give me a break. They are political hacks.''
    The President went on to say that he believes that 
Vladimir--he believes Vladimir Putin when Putin says he 
absolutely did not meddle in our elections.
    Mr. Sessions, do you consider the leaders of our 
intelligence community, past and present, as political hacks?
    Attorney General Sessions. I would say to you the President 
speaks his mind as he chooses.
    Ms. Jayapal. Is that a ``yes'' or a ``no''?
    Attorney General Sessions. He also says he accepts their 
position.
    Ms. Jayapal. I'm not asking about the President, Mr. 
Sessions.
    Attorney General Sessions. I'm not giving a ``yes'' or 
``no.'' I'm giving you my answer.
    Ms. Jayapal. So you have no opinion on whether they're 
political hacks or not?
    Attorney General Sessions. I'm saying to you--I respect and 
value our intelligence community.
    Ms. Jayapal. Great. That's good to hear.
    And when President Trump said that he believes Vladimir 
Putin when Putin says he absolutely did not meddle in our 
election, help me refresh my memory: In January of this year, 
was it the unanimous opinion of our intelligence community that 
the Russian Government did, in fact, meddle in our election?
    Attorney General Sessions. I believe an opinion was 
expressed, and----
    Ms. Jayapal. That was a ``yes''?
    Attorney General Sessions [continuing]. I'm not aware of 
any dissent from that.
    Ms. Jayapal. Okay. And, to your knowledge, in the months 
since, has the intelligence community in any way changed its 
conclusion?
    Attorney General Sessions. I'm not aware of it.
    Ms. Jayapal. And on October 18, when testifying before the 
Senate Judiciary Committee, Senator Sasse asked you if the 
Department had taken adequate action to prevent election 
meddling in the future. You just said in response to some 
questions that you do believe this is a danger.
    Have you requested a review of what laws need to be updated 
in order to protect our elections from foreign interference?
    Attorney General Sessions. I have not and would be pleased 
to work with you to deal with the deficiencies we have.
    Ms. Jayapal. That's great.
    Attorney General Sessions. It would be--Congress would have 
to deal with that, not the--have to pass the laws.
    Ms. Jayapal. You would want to appoint a special counsel on 
that issue?
    Attorney General Sessions. On what--maybe I misunderstood 
your question. What--special counsel? I thought you were 
asking, should we have laws, new laws to deal with----
    Ms. Jayapal. Well, I'm asking if you're going to 
investigate what has happened with the meddling in our 
elections.
    Attorney General Sessions. Well, that's part of the special 
prosecutor.
    Ms. Jayapal. Great.
    Attorney General Sessions. It's not--I'm not participating 
in that. He has responsibility for----
    Ms. Jayapal. Let me move on to Mr. Miller, because I just 
have a few seconds here.
    Considering your prominent role in the Trump campaign, did 
you work closely with and communicate with Stephen Miller when 
he worked on the campaign?
    Attorney General Sessions. I worked with him. He'd worked 
with me previously.
    Ms. Jayapal. Thank you. And did Mr. Miller tell you that he 
was working on a letter with President Trump which detailed the 
President's reasons for firing then-FBI Director Comey?
    Attorney General Sessions. Mr. Miller is a high government 
official close to the President of the United States, and I'm 
not at liberty to reveal the nature of any conversations we may 
have had.
    Ms. Jayapal. Are you claiming executive privilege then?
    Attorney General Sessions. I'm not claiming executive 
privilege.
    Ms. Jayapal. So I'm not----
    Attorney General Sessions. I'm following the long-
established policies of the Department of Justice.
    Ms. Jayapal. The President has not invoked executive 
privilege. And so I understand your----
    Chairman Goodlatte. The time of the gentlewoman has 
expired.
    Mr. Cicilline. Parliamentary inquiry, Mr. Chairman.
    Chairman Goodlatte. The gentleman will state his 
parliamentary inquiry.
    Mr. Cicilline. Is there authority in this committee to 
permit a witness to refuse to answer a question without 
properly invoking a privilege?
    Chairman Goodlatte. The----
    Mr. Cicilline. And, if not, what is the appropriate 
response from the chairman to enforce the committee's ability 
to do proper oversight?
    Chairman Goodlatte. The chair recognizes that senior 
officials from both administrations, the current and past, and 
longstanding before that, have long stated their ability to not 
answer questions regarding communications at the highest level 
of our government.
    Mr. Cicilline. Well, Mr. Chairman, if I may be heard, I do 
not believe there is any such privilege or any right to assert 
a refusal to answer a question simply because----
    Chairman Goodlatte. If the gentleman is not stating a 
parliamentary inquiry, the gentleman will suspend.
    Mr. Cicilline. Well, I'm asking the chairman to rule so we 
can appeal the ruling of the chair if you're going to prevent 
us from getting answers to these questions.
    Chairman Goodlatte. There is no ruling of the chair, and 
the gentleman is out of order.
    Mr. Cicilline. Then I would ask that the witness be 
directed to answer the gentlelady from Washington's questions.
    Chairman Goodlatte. That is not a parliamentary inquiry.
    The gentlewoman from Georgia, Mrs. Handel, is recognized 
for 5 minutes.
    Mrs. Handel. Thank you, Mr. Chairman.
    And thank you, Attorney General Sessions, for being here.
    And I want to say a special thank you to Mrs. Sessions for 
being here, as well, and for, frankly, your patience and 
commitment through the many chapters of General Sessions' 
distinguished career. So thank you.
    Attorney General Sessions. Thank you for those comments.
    Mrs. Handel. I wanted to ask a pretty direct question, 
because there's been so much said here today about Russia and 
what you've testified to and not testified to and a great deal 
of parsing of words, along with what I would call not-so-veiled 
comments that, frankly, are an attempt to impugn your candor, 
your integrity, and your reputation.
    So I will ask very bluntly, have you ever deliberately lied 
or sought to deliberately mislead the United States Senate or 
this body here today?
    Attorney General Sessions. No, I have not.
    Mrs. Handel. Thank you.
    Let the record show that it was a direct ``yes'' or ``no'' 
on that, and it was an emphatic ``no.''
    I want to ask about the civil asset forfeiture program. As 
you know, under your leadership, the program was reinstated 
back in July, and you started some additional practices there.
    In March, the inspector general had a report and offered 
several different suggestions that might be put in place, 
recommendations put in place for the program. Can you give an 
update on that? Or if you don't have it today, you can send it 
to me.
    Attorney General Sessions. Well, thank you. I can.
    We spent considerable time evaluating the program. We 
recognized the concerns expressed in Congress, and I have been 
well aware of that, having seen it come up in the Judiciary 
Committee in the Senate. So we worked hard to produce a policy 
that had--reproduce, I guess, the policy that had been in place 
for as much as 40 years, that only recently, in the last 3 or 4 
years, 2 or 3 years, had been reversed.
    The law enforcement community was very concerned about the 
reversal of the sharing and the partnership that we have 
established. Every Federal agency and every U.S. attorney has 
to work closely every day with our State and local law 
enforcement. Eighty-five percent of all law enforcement in 
America is State and local. This has been one of the glues that 
hold that team together.
    So I would say that we've given--also, when we reinstated 
it, I appointed--directed the appointment, which will occur 
soon, of an individual to be an accountability officer for the 
whole forfeiture process----
    Mrs. Handel. Oh, great. Okay.
    Attorney General Sessions [continuing]. To receive any 
complaints we get from Congress or judges or lawyers or victims 
that claim victimhood and make sure we are doing it in a right 
way.
    We've added--we've shortened the time for the government to 
respond. We've said that we won't partner with a local law 
enforcement agency if they don't undergo training from the 
Federal Government to ensure they know how to handle 
forfeitures. And I've cautioned against seizing of homes and 
real estate unless people know--have clear proof.
    Mrs. Handel. Super. Thank you.
    Moving to a different topic, as you probably know, there 
was a recent media firestorm around what was a bipartisan piece 
of legislation, the Ensuring Patient Access and Effective Drug 
Enforcement Act, a 2016 law which, as I said, had great 
bipartisanship. It raised the standard for DEA to issue 
immediate suspension orders against pharmacies and prescription 
drug distributions who might be contributing to the opioid 
epidemic.
    From your viewpoint, however, have you seen--what have been 
the actual effects on prosecution and administrative actions 
around the drug distributors? And has the DEA been negatively 
impacted by that particular law?
    Attorney General Sessions. First, we would use the laws we 
have aggressively, both as to physicians and pharmacies and 
also distribution companies for Big Pharma, and we will hold 
them to account. Congress will establish the laws.
    So this bill passed with both DEA and Department of Justice 
acknowledgement or acquiescence, and I'm not sure to what 
extent it may have had a negative impact. I would have to get 
back with you to make sure I'm accurate in my statements.
    Mrs. Handel. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Illinois, Mr. Schneider, for 5 minutes.
    Mr. Schneider. Thank you, Chairman.
    Thank you to the Attorney General, General Sessions, for 
coming here today. I wish you had been here earlier, but we're 
glad you're here. I appreciate your patience and giving us all 
the opportunity to speak very much.
    As I've sat, listening to the hearing today, there were a 
number of things that I was looking to hear or better 
understand.
    First, this was, I believe, an opportunity for you to set 
the record straight on contacts between the Trump campaign and 
Russia. As has been noted by others, we continue to learn new 
evidence that demonstrates previous answers have been at best 
incomplete, at worst inaccurate. And I think there are still 
some questions around that.
    Second, I'm looking to understand what steps the Department 
of Justice is taking to protect our elections from foreign 
interference in the future.
    Mr. Schneider. Two thousand sixteen wasn't the first time, 
it won't be the last time, that Russian and others will try to 
interfere in our elections. And we have to take steps to make 
sure that the integrity of our elections remains solid and that 
we thwart any efforts, regardless of where they are coming 
from, from foreign entities to undermine our elections.
    And third, I've been looking for answers on policies 
pursued by this Department of Justice that I believe are taking 
aim at the rights of Americans, from undermining voting rights, 
to restricting LGBTQ rights, to targeting immigrants.
    We've talked about a lot of things. I would really like to 
turn my attention, though, to the idea of ensuring the 
integrity of our elections, protecting them from foreign 
influence.
    You've been asked a couple times today, I believe, what 
steps you've taken since you spoke a couple weeks ago, October 
18, in the Senate Judiciary Committee, what you were doing. 
Senator Sasse asked you there if the Department is doing enough 
to prevent foreign interference on our elections.
    Just to repeat what you said, and I'll quote, ``Probably 
not. We're not. And the matter is so complex that for most of 
us, we are not able to grasp the technical dangers that are out 
there.'' These are real dangers to our elections, and our 
elections are the foundations of our democracy.
    You also said at that time, several weeks ago, it requires 
a real review. But today you said there is no review taking 
place.
    So my first question is--I'm very concerned. With the 2018 
elections less than 1 year away, and given your acknowledgment 
that this is a serious, complex matter that is deserving of a 
real review, specifically what steps have you taken to protect 
our elections next year?
    Attorney General Sessions. You raise a good point. I have 
not followed through to see where we are on that. And I will 
personally take action to do so.
    There are a lot of things that have been happening. We're 
working on a lot of great agenda items. But this one is 
important and I acknowledge that. And I'm not--I should be able 
to give you better information today than I am.
    Mr. Schneider. And I appreciate that there are many things 
that are important, but I would hazard to state nothing more 
important to our democracy than the integrity of our elections. 
And as the head of the Department of Justice, it is important 
that as a Nation, as others have said, that justice remained 
blind, carrying the balanced scale, without a finger on the 
scale. We need do that. But protecting our elections is 
important.
    What steps does the Department need to do to address these 
issues? What can we be looking forward as the next steps?
    Attorney General Sessions. Well, one of things that needs 
to be done is our States need to review their own 
vulnerabilities. I would say our FBI has extraordinary 
capabilities when it comes to hacking and those kind of issues. 
We probably need to work on that with them. They should have a 
very important role. They are highly sophisticated in that.
    And then our intelligence communities also. To the extent 
that this is driven by some foreign power, then we're dealing 
with international--potential international involvement.
    So all of those agencies and the States need to be 
involved, I would think. And Congress. I appreciate your 
interest, because if we need legislation, it'll take some 
aggressive push to get anything through.
    Mr. Schneider. Hold that thought. I'm going to come back to 
that.
    Attorney General Sessions. At least through the Senate.
    Mr. Schneider. Another question. But you said earlier 
that--others have touched on this--that the intelligence 
community has said Russia has tried--did try to interfere in 
our elections in 2016. Do you feel that that is still a 
statement of truth or is it open for question?
    Attorney General Sessions. I have no basis to dispute that. 
I do think they have said that they don't believe votes were 
changed.
    Mr. Schneider. As I see I'm about to run out of time, my 
last question, I'll jump to the end, is to what you were just 
touching on. Can I ask for your commitment to provide a 
briefing to those of us on this committee that are interested 
in addressing this problem, making sure, irrespective of 
whether it's a Democratic or Republican State, community, that 
we have safe, sound elections with integrity, will you meet 
with us?
    Attorney General Sessions. I would be glad to. I think that 
would be valuable.
    Mr. Schneider. With that, I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Idaho, Mr. Labrador, for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman.
    Attorney General Sessions, thank you for appearing before 
our committee today. It's always great to talk to you and it's 
always great to have the opportunity to communicate.
    As a foundational principle of our great American 
experiment enshrined in our Constitution, religious liberty 
ought to be protected at every turn in our Nation's history, 
under every administration. Last month you issued a memo which 
focused on ensuring First Amendment protections for religious 
groups and individuals.
    The last two Congresses Senator Lee and I introduced the 
First Amendment Defense Act, which you were a cosponsor of. As 
you know, this legislation ensures the fundamental right to 
exercise one's religion by prohibiting the Federal Government 
from denying or excluding a person from receiving a Federal 
grant, contract, loan, license, certification, accreditation, 
employment, or other similar position or status based on their 
religious belief in marriage.
    Can you explain to us what inspired your October 6 memo and 
why you think it is important for the Department of Justice to 
issue such guidelines?
    Attorney General Sessions. Well, I've cared about this for 
a long time, and there's a lot of work has been done. I felt 
that there's some abuses that have occurred pretty clearly. 
We've had to settle some lawsuits because the government 
overreached.
    And I would say we will--what we need to understand at the 
most fundamental level is the First Amendment allows the free 
exercise of religion. It doesn't just allow you to think what 
you want to think, to meet in a closet somewhere and never 
express yourself. It allows the free exercise. And I think to a 
degree we've not respected that in recent years.
    And our opinion is based on the law. We believe it is based 
on the Constitution. And it's a guidance to ensure that the 
agencies of our government know what the fundamental principles 
are when they issue regulations and cite people for wrongdoing.
    Mr. Labrador. So what more could Congress do to protect the 
First Amendment and religious liberty?
    Attorney General Sessions. Repeat that.
    Mr. Labrador. What more could Congress do to protect the 
First Amendment and religious liberty?
    Attorney General Sessions. Thank you. We've got religious 
liberty, and also in the First Amendment is speech.
    Mr. Labrador. Yes.
    Attorney General Sessions. And I think it's time for us to 
take seriously the erosion it seems of the fundamental respect 
for the right of people to express differing views that's 
occurring today. We've seen it on the college campuses. We 
believe that free speech is a civil right, and the Department 
of Justice will not stand idly by if Federal constitutional 
rights are being constricted by unwise activities limiting 
speech.
    Mr. Labrador. So just as important to me as the First 
Amendment is also the Fifth Amendment to our Constitution, 
which prohibits the government from depriving the people of 
their property without due process. I'm concerned that the 
practice of civil asset forfeiture is increasingly threatening 
rights guaranteed under the Fifth Amendment to every American.
    While forfeiture can be an important tool for law 
enforcement, it has been abused. Unfortunately, in Idaho and 
throughout the country you have some--a number of cases where 
the practice of civil asset forfeiture has been used to 
improperly deprive individuals of their homes, their cash, and 
their property.
    Because of this, I have supported several pieces of 
legislation and floor amendments that make reforms to the 
Federal civil asset forfeiture.
    In light of the mounting evidence that civil asset 
forfeiture is being used improperly, how do you think we can 
strike the proper balance between justice and making sure 
criminal laws are being followed and preventing harm to 
innocent Americans?
    Attorney General Sessions. I know you care about that, 
Congressman Labrador, and other Members of Congress have 
expressed concerns to me. I do not take them lightly.
    I truly believe that if there is probable cause to believe 
that an item of value--often for police officers it's a stash 
of cash that they may catch in an automobile--if there's 
probable cause to believe it's connected to a drug enterprise, 
they have a right to seize it. Then we need to give the person 
who claims it a prompt and fair hearing.
    You can arrest a person on probable cause and put them in 
jail. I think it's appropriate to hold proceeds of a drug deal, 
at least for a trial.
    Mr. Labrador. I think it is appropriate to hold them.
    Attorney General Sessions. With probable cause.
    Mr. Labrador. But I don't think it's appropriate to take 
them until there has been guilty funding. In fact, Justice 
Thomas recently criticized the forfeiture laws.
    And I hope we can have a longer conversation about this, 
because I think this is an important issue. I've always found 
you to be very fair in our communications. And I think we need 
to reform the asset forfeiture laws in the United States and we 
need to make sure that people are protected.
    The Fifth Amendment is, to me, it's just as important as 
the First Amendment and every other amendment of the 
Constitution. I think that we should work together to make sure 
that we strengthen it.
    Attorney General Sessions. Some of the complaints that 
you've read about are State and local forfeitures and not 
Federal. We believe our people are operating at a high 
standard. I'm going to have an accountability office on all of 
these cases and we will not accept abuses of the law.
    Mr. Labrador. Thank you very much.
    Chairman Goodlatte. The chair recognizes the gentlewoman 
from Alabama, Mrs. Roby, for 5 minutes.
    Mrs. Roby. Thank you, Mr. Chairman.
    This is so great to have you here today. We are really 
excited to have you, Attorney General Sessions. And we just 
thank you for your many years of service to the State of 
Alabama and now your continued work for our Nation as our 
Attorney General.
    And I've known you for a very long time, and you've served 
our State for a very long time, and the people of Alabama know 
you well.
    So we've heard a lot about Russia today and things you may 
or may not have heard and that somehow you're guilty of 
collusion with Russia. So I have two questions for you.
    Have you ever worked with Russians to influence an 
election?
    Attorney General Sessions. No.
    Mrs. Roby. Have you ever, in any capacity, personally, 
politically, or officially, done anything to hurt or harm the 
national security of the United States of America?
    Attorney General Sessions. I don't believe I have. I've 
tried to protect the national security of our country.
    Mrs. Roby. Thank you.
    Attorney General Sessions. Thank you.
    Mrs. Roby. I want to move on to a different subject.
    I was pleased to see that your first act, official act 
after being sworn in as Attorney General, was to present 
President Trump an executive order to strengthen the 
enforcement of Federal law on transnational criminal 
organizations. And since this is an important initiative to 
curtail the international trafficking of drugs, weapons, and 
human beings, often victims of sex trafficking, including young 
children.
    One of the reasons that I was eager when asked to join the 
Judiciary Committee earlier in this Congress was to work 
towards making a difference on this issue. And we have worked 
with the Department of Justice already on some very important 
policy changes, particularly to our criminal code, to that 
effect.
    Both the House and the Senate Judiciary Committees have 
held hearings regarding specifically the legal liability of 
websites hosting advertisements for prostitution, to include 
the prostitution and abuse of children.
    Section 230 of the Communications Decency Act shields 
websites such as Backpage, Craigslist, Facebook, and many 
others from legal liability regarding content posted by their 
users.
    So I'm interested--we had a hearing just recently on this, 
and I'm really interested in finding the right balance between 
protecting the freedom of expression and protecting the rights 
of these young children who are victims, who are being abused, 
without impacting the innovation of the internet. And so I 
would appreciate your thoughts on this issue.
    I know that Mr. Farenthold already asked you a question 
specific to the SAVE Act, but I think this is very important 
for us to get this right and to do so working together. Because 
at the end of the day, we have to find a solution and we all 
want to do everything that we can to protect these children 
from these horrible, horrible abuses.
    Attorney General Sessions. Thank you very much. I think 
that's a valuable thing for us to address.
    In recent days I've talked about it with my staff. We 
haven't formed a clear picture of where we will go. But to the 
extent to which we could work with you on that, I would be 
pleased to.
    Mrs. Roby. Well, I do want to. And like I said, I think the 
most important thing here is that we get this right and strike 
that balance. Again, as a member of this committee, to have 
this opportunity to fight for those who are unable to fight for 
themselves is a tremendous privilege. And I appreciate the 
partnership with the Department on making sure that we get this 
right.
    So thank you so much. We appreciate you. And thank you for 
your service.
    Attorney General Sessions. Thank you. Thank you for your 
excellent service to the State of Alabama.
    Mrs. Roby. Thank you.
    I yield back.
    Attorney General Sessions. No doubt. And the United States.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Texas, Mr. Gohmert, for 5 minutes.
    Mr. Gohmert. Thank you.
    And, Attorney General Sessions, always good to see you.
    Attorney General Sessions. Thank you.
    Mr. Gohmert. And it's end of a short hearing, looks like, 
unless somebody else come in.
    First of all, you know, it seemed like to me you got 
mistreated a little bit. There were questions about your answer 
to Senator Franken's question. And I've got a copy of what he 
said.
    Now, he is explaining his question, he said: If there is 
evidence that anyone affiliated with the Trump campaign 
communicated with the Russian Government in the course of this 
campaign, what will you do? And we even had somebody offer into 
the record that Mother Jones basically said you lied. And I 
would submit this committee doesn't need Mother Jones to 
inaccurately describe, or depict, or tell us what happened when 
we can look at the conversation to see for ourselves.
    So let me ask you, was your meeting with the Russian 
diplomats, was that in the course and scope of your obligations 
with the campaign or in the course and scope of your duties as 
a United States Senator?
    Attorney General Sessions. Well, really they were mostly 
official business.
    Mr. Gohmert. As a U.S. Senator.
    Attorney General Sessions. I did speak at the Republican 
convention, but the conversation on the floor after I finished 
my remarks were brief. And I was in--and then with regard to 
the meeting in my office, it was substantively, essentially 
about foreign relations between the United States and----
    Mr. Gohmert. So what you talked about with them there are 
at the convention, it was not about the Presidential campaign 
of Donald Trump, it was as--in your capacity as a United States 
Senator, correct?
    Attorney General Sessions. Well, I think--so, you could 
say, I guess, that I was invited for other reasons, but----
    Mr. Gohmert. When you had talked before about that you had 
consulted with the career people about whether or not to recuse 
yourself, can you tell us whether or not one of those people 
with whom you consulted was Rod Rosenstein?
    Attorney General Sessions. Yes, I could say how that 
occurred.
    Mr. Gohmert. But did you--no, I'm just asking if you did.
    Attorney General Sessions. I understand. So I was just 
thinking out loud whether that's the kind of consultative 
relationships that I should----
    Mr. Gohmert. I'm not asking you to reveal what was said.
    Attorney General Sessions. I talked to another senior 
official in the Department of Justice who holds a position, and 
he also consults others within the Department before he makes 
opinions.
    Mr. Gohmert. Well, were you aware when you recused yourself 
of the investigation by the Justice Department into Yandex 
email account <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2e1ded3c2d3db8082828bf2ebd3dcd6d7ca">[email&#160;protected]</a>(ph)? Are you--Google email 
account <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="125f73606473787d767d52757f737b7e3c717d7f">[email&#160;protected]</a> (ph). Are you aware of those, the 
criminal complaint and all?
    Attorney General Sessions. No.
    Mr. Gohmert. All right. Were you aware that--and I've got a 
motion to seal here----
    Attorney General Sessions. I don't think so, I'll just say 
it that way.
    Mr. Gohmert. Yeah. Well, this was an investigation into 
Russia trying to corner the market with U.S. uranium. And there 
is actually a motion to seal--I'm sure you've filed them many 
times as a U.S. attorney--and this one is: Respectfully 
submitted, Rod J. Rosenstein, U.S. attorney, and Adam Hickey is 
the assistant U.S. attorney, asking Judge William Connelly to 
have this Russian investigation, the investigation into the 
Russian effort to corner our market, to seal those records.
    So you were not aware that Rosenstein had had this prior 
dealing with Russian uranium before you recused yourself, had 
you? You weren't aware of that, right?
    Attorney General Sessions. Well, my recusal that we made 
public was for the Mueller investigation, the campaign, Russian 
interference.
    Mr. Gohmert. Right. But that's--Mueller was appointed, but 
you weren't aware that Mueller had been central in the 
investigation before Jim Comey took over at the FBI, September 
of 2013. So you were not aware of the Mueller, Comey 
investigation into Russian uranium, were you, before you 
recused yourself?
    Attorney General Sessions. I don't think so. No, I was not 
of course. I wasn't in the Department of Justice and wasn't 
unaware of that when it was going on.
    Mr. Gohmert. Well, my time is running out, but we've got a 
chart here that shows just how integral the relationship is 
with Mr. Rosenstein, Mr. Mueller into this whole Uranium One 
thing. It sure stinks to high heaven and it doesn't appear to 
me they ought to be involved in investigating.
    But my time has run out, and I sure appreciate your 
service.
    Attorney General Sessions. Thank you. I appreciate your 
service.
    Mr. Chairman, I would just note that the matter that was 
prosecuted concerning uranium and Russian business companies 
was 2 years after this CFIUS investigation. That's when Mr. 
Rosenstein handled--it was brought to his office. It didn't hit 
his office until 2 years afterwards. And it is really unrelated 
to the allegations about Uranium One, as I understand it.
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Franks [presiding]. The gentleman from Florida, Mr. 
Rutherford, is recognized for 5 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman.
    Mr. Attorney General, thank you very much for service and 
your time here today. I'll try to make this as short as I can.
    But representing and speaking for the sheriffs across the 
country and other chiefs of police as well, one of the issues 
that I know that they have great concern about is through your 
grant process, if you could just have someone look at this 
situation where nonrelevant criteria are placed on grants to 
require agencies to meet some performance criteria.
    For example, one that I was familiar with was NIMS 
compliant, National Incident Management System. Had absolutely 
nothing to do with the grant, but they put that on as a 
criteria for grant application. And what that does is it takes 
away home rule from local law enforcement. And I know several 
sheriffs and chiefs are very concerned about that.
    Have you had any issues with that that you're aware of?
    Attorney General Sessions. Well, the statute Congress 
passed for the grant program allows the Department of Justice 
to place special conditions on grants. But the one we placed 
that deals in the future with sanctuary cities does--is 
minimal. It simply requires a cooperative relationship where 
Federal officials can go to the jail and that the people at the 
jail can communicate with the Federal law enforcement officers. 
It does not require the States to go arrest people or hold them 
past their release date, none of those things.
    We think it is a very reasonable thing. May still be some 
conditions on those grants from previous administrations. But 
that's the one I think that we have added to it.
    Mr. Rutherford. Well, I can tell you that's not the one 
that I'm concerned about.
    Attorney General Sessions. Okay.
    Mr. Rutherford. In fact, the sheriffs and the chiefs that I 
was talking to support that wholeheartedly.
    Attorney General Sessions. All right. Well, thank you. I 
will be glad to look at that.
    Mr. Rutherford. The other issue dealing with--you know, if 
they can force you to be NIMS compliant, they can force you to 
carry revolvers versus semiautomatics, you know, it just goes 
down a slippery slope.
    But more important than that I want to talk to you briefly 
about the VIPR program under TSA. That's the Visible Intermodal 
Prevention and Response teams that work surface transportation 
around--some around our rail, our buses, our subways, those 
sorts of things.
    But there was a move at one time to actually--by TSA--to 
actually move those VIPR operation out on to public roads and 
highways. And there's a lot of pushback within local law 
enforcement on those issues as well.
    Have you looked into that, the legality of it? Because 
clearly those suspicionless searches that you go through--and 
every air traveler in America has been through that, they get 
the suspicionless search as you go through at the airport, as 
you know.
    And it's based on special needs out of a Supreme Court 
decision that suspends the Fourth Amendment under those special 
needs, and that is you have a significant threat, you have a 
verifiable threat to public safety. And none of that exists out 
on those public roads.
    Now, if there was a specific threat, then I don't think 
anybody would have issue with that. However, that's never been 
the case. And in fact I was told they want do that for training 
purposes within TSA, and that I think should be unacceptable.
    Attorney General Sessions. I have not looked at that. Of 
course they are not in the Department of Justice, but we may 
have legal opinions that could be relevant to that. But I have 
not engaged in that issue, Congressman.
    Mr. Rutherford. Right. And that's why I bring it up here 
today to see what is your legal opinion of those suspicionless 
searches by TSA without the special needs concerns out of that 
Supreme Court decision about significant risk and the 
verifiable public safety threat.
    If you could look into that, I would appreciate it.
    Attorney General Sessions. I will ask about it, I sure 
will. Thank you.
    Mr. Rutherford. Thank you.
    Mr. Chairman, I yield back.
    Mr. Franks. I thank the gentleman.
    I now recognize the gentleman from New York; he has 
something to place in the record.
    Mr. Nadler. Mr. Chairman, I ask unanimous consent to place 
in the record an article from today's Washington Post entitled, 
``Has Jeff Sessions Got the World's Worst Memory or What?''
    Mr. Franks. Without objection.
    This material is available at the Committee and can be 
accessed online at: https://docs.house.gov/meetings/JU/JU00/
20171114/106709/HHRG-115-JU00-20171114-SD004.pdf.
    Mr. Franks. And I understand the gentlelady from Texas has 
something to place in the record.
    Ms. Jackson Lee. Yes, sir. And a parliamentary inquiry. I 
just want to put in the record a January 10, 2017, Senate 
Judiciary hearing on the nomination of the Attorney General, 
and October 18, 2017, Senate Judiciary hearing on oversight of 
the Justice Department.
    Parliamentary inquiry is to----
    Ms. Franks. Without objection.
    Ms. Jackson Lee. Thank you.
    The General said a number of things that I hope we can work 
together on, but in particular a parliamentary inquiry to be 
able to put in the record and require an answer to the creation 
of a task force on sexual crimes against children by the DOJ.
    Mr. Franks. I don't think that's a parliamentary objection.
    Ms. Jackson Lee. If I could put it in the record, please. 
And then also a----
    Mr. Franks. I don't think that's a parliamentary objection.
    Ms. Jackson Lee. I'm sorry. Pardon me?
    And then also the parliamentary inquiry is that we will 
have opportunity for questions to be put in the record and one 
on the 702 reauthorization regarding sharing information with a 
foreign entity that interfered with the election.
    Mr. Franks. The gentlelady can submit questions for the 
record.
    Ms. Jackson Lee. I thank the gentleman.
    I thank the General for his kindness.
    I yield back.
    Mr. Franks. Thank you.
    I now recognize myself for 5 minutes.
    General Sessions, you have to know that I hold you in 
tremendously high regard. I know you've had a bumpy ride, but 
there are some of us who truly appreciate who you are.
    With that, as the Justice Department knows, the House and 
the Senate have conducted investigations into the illegal sale 
of little body parts of little babies by some Planned 
Parenthood executives, as made clear via undercover videos that 
surfaced 2 years ago.
    And according to a report yesterday published in The Hill, 
the FBI sought documents the Senate obtained from abortion 
providers as a result of their investigation into illegal sale 
of these little body parts. And so if the FBI has requested 
several what is now several thousand pages of testimony and 
findings the Senate has gathered through their investigation of 
Planned Parenthood, that may mean that they could be readying 
indictments against individuals who have committed the sale of 
these little body parts for profit.
    So I want to ask a question that you can answer and not put 
you in an impossible spot. But generally speaking, are findings 
made by any Senate investigation, any subsequent referral 
sufficient evidence for the Justice Department to bring charges 
upon any party guilty of violating Federal law?
    Attorney General Sessions. Well, it depends on the 
substance of those congressional findings, but they certainly 
can provide a basis for starting an investigation, verifying 
the findings of the Congress, and could provide a basis for 
charges.
    Mr. Franks. Well, I hope that----
    Attorney General Sessions. I think that's an appropriate 
way for us to relate to one none.
    Mr. Franks. Yes, sir. Well, I hope the Justice Department 
obviously will take a very close look at the evidence that the 
Senate is providing to the FBI.
    Given the standard that you have personally demonstrated 
for recusal to avoid even the appearance of partiality, it 
seems clear to me, this is my opinion, that Mr. Mueller should 
recuse himself based on your standard here from investigating 
involving Russian collusion a long time ago. That's my 
perspective.
    I've suggested many times that the existing Russia-Trump 
investigation that Mr. Mueller is conducting is a snipe hunt. 
And as many of the members of this committee have indicated, 
however, there does seem to be damning evidence related to 
Russia and Hillary Clinton's State Department.
    If there had been as much evidence, in my judgment, against 
the President as we have against the Obama administration and 
Mrs. Clinton, I'm afraid Mr. Trump would have been burned at 
the stake by now.
    There is a clear inequity. The FBI and the Department of 
Energy court documents detail an extensive, coordinated scheme 
of kickbacks, bribery, extortion threats, and general 
wrongdoing related to the acquisition of an American uranium 
trucking firm and the Canadian mining company Uranium One by 
the Russian nuclear giant, Rosatom. The FBI investigation 
obtained an eyewitness account, backed by documents indicating 
Russian nuclear officials, of routing millions of dollars to 
the U.S. which benefited the Clinton administration--or Clinton 
Foundation, the Clinton Foundation.
    Despite this evidence, rather than to bring charges in 
2010--that was not on your watch--the FBI continued the 
investigation for 4 more years and allowed the acquisition of 
20 percent of our strategic uranium supply to take place 
without informing Congress. The head of the FBI at that time 
was Robert Mueller.
    So, General Sessions, I guess my question is really sort of 
just one for the record here. I think the committee is about to 
close up here.
    What do you think the Justice Department can do to correct 
this seeming lack of or reversal of priority here and what 
appears to be to some to be an injustice? How can we just look 
at the evidence and the facts for what they are and do what 
appears to be the right thing?
    Attorney General Sessions. Well, you raised a question that 
we have much, much going on in the Department of Justice.
    Yesterday, I sent, I believe to you and to the chairman, 15 
or more members of this committee, a response to a request that 
you've made some time ago, that we are going to bring an 
independent prosecutors to review a host of matters out there 
so I can look you in the eye and tell you that we've done the 
right thing and we've done an objective evaluation of matters 
that have been raised, and raised by this committee.
    And hopefully, we can decide if there are some matters that 
need to be investigated. Some may need to be closed. Some need 
to be opened. Some may need more money and resources and 
agents.
    So I feel like that's my responsibility. I don't believe 
that is a giving in to politics. I believe that I should 
evaluate your request on the merits. And you raised some 
matters that I think I'm duty bound to respond to.
    Mr. Franks. Well, General Sessions, I'll just put it like 
this. That sounds pretty good to me. And I appreciate you 
appearing before the committee today.
    Are there other--oh, we have other--I'm sorry.
    Mr. Gohmert. Well, I don't have a question.
    Mr. Franks. After the battle is over, they always show up 
for dinner, you know?
    Mr. Gohmert. I just was going to ask unanimous consent, 
since there's been all this stir about Senators meeting or not 
meeting with Russians, I would ask to have this part of the 
record. It is an article from March 3, 2017, 17 by Katie 
Pavlich. It is a list of Democrats who also met with the 
Russian ambassador.
    And then also this article from June 26 regarding Senator 
McCaskill's tweet that she got no call or meeting with the 
Russian ambassador ever. And then it turns out, the article 
points out, actually she met with the Russian ambassador at his 
home.
    And I would like those in the record.
    Mr. Franks. Without objection.
    This material is available at the Committee and can be 
accessed online at: https://docs.house.gov/meetings/JU/JU00/
20171114/106709/HHRG-115-JU00-20171114-SD005.pdf.
    Mr. Franks. And now the gentleman from Georgia is 
recognized for 5 minutes. I'm sorry you snuck up on me there.
    Mr. Collins. No. Thank you, Mr. Chairman. I've been in that 
other little thing we've got going on tax reform. Getting ready 
to do that tonight.
    Attorney General Sessions and Mary, thank you for being 
here.
    Now, I will say I'm from Georgia. There was something that 
was said earlier in this hearing that I was going to just pass 
by, was going to let it go. But that sound of fingernails on a 
chalkboard, especially this week, when I heard War Eagle.
    Congratulations. Y'all did well and we didn't.
    But I think the biggest thing is, one, I want to thank you 
for coming. I want to thank you for answering. I've listened to 
your questions. I have listened to the answers. I appreciate 
your honesty, even if we disagree, because I sat here before 
and talked to previous Attorney Generals that I couldn't even 
get them to admit that 65 in a 55 was against the law.
    You would agree that is against the law, correct?
    Attorney General Sessions. It is against the law.
    Mr. Collins. There we go. We are far ahead of where we were 
last time.
    But I do have an interesting issue and it is bipartisan, 
because I believe that this committee actually works, and I do 
believe your work in the Senate shows that we can come together 
and there is compromise.
    One of the areas that is very important to this committee, 
but it is very important to our chairman, also bipartisan and 
important to me, is criminal justice reform. One of the 
problems we always have, though, is we seem to go to the--we 
seem to gravitate toward the sticking points instead of finding 
areas where we can work together.
    Wouldn't you say that an approach in which we can start 
finding solutions would help us get to those points maybe where 
we have sticking points? Do you think that would be a good 
thing?
    Attorney General Sessions. Yes. I think there are things 
that definitely are doable that we all could agree need to be 
fixed.
    Mr. Collins. Well, I think so. And I have worked across the 
aisles, and we've worked from a very conservative to a very 
liberal perspective, it doesn't matter. Because at the end of 
day, I believe that those in our system are valued human beings 
by the gift of God that's given to each. They've made mistakes, 
they are paying for those mistakes many times. It's a money and 
moral issue: Are we doing what we can to redeem the folks who 
are in there and actually give them a chance, if they choose 
to, to have a better life as they get out?
    We have a bill called the Redemption Act, and it is 
bipartisan, we have been working on this. It is something that 
is for basically taking those once they get into the Federal 
system, starting them early, and making sure that they have a 
path toward getting back out and having a--lowering their 
recidivism rate.
    What we've run into, though, and we've talked to the White 
House about this, and there seems to be always this knee-jerk, 
well, we'll just package it together with a bigger bill.
    I believe, and I would love to get your work on this, that 
if we could work with the Bureau of Prison to start this one 
bill, this simple bill that doesn't deal with the sentencing, 
it just gives them time to get time off, transition earlier to 
work release, to give them settable, attainable goals that is 
about accountability and responsibility, so that when they come 
out the recidivism rate is lower because they have marketable 
skills and things that we can do.
    What I would like to know is, do you think, if we could 
work that in the House and the Senate, get that to the 
President, who has been supportive of this and his 
administration, do you believe that is a workable solution, 
given your time in the Senate? We get so stuck on things we 
can't do, wouldn't it be good if we start on something we could 
do?
    Attorney General Sessions. I believe a pre-release program 
can be effective. Most of the time, according to my experience, 
they don't achieve huge results, but if they achieve 10, 15, 20 
percent improvement, that's of value.
    What I have learned, and perhaps you'd like to examine it, 
the inspector general at the Department of Justice has done a 
review of pre-release programs and found some of them are not 
very effective, some of them are effective, and not enough 
attention has been put on it. And maybe the money could be 
better and more effectively spent.
    And we got a new prison commissioner, Bureau of Prisons. 
He's open to this. We've talked about it. So I'm hopeful that 
we can improve that.
    And fundamentally, we do need to make sure that anything 
that's done with regard to these reentry programs, that we 
studied the best ones and try to make sure our money is going 
to the better programs as opposed to some that may not be as 
efficient.
    Mr. Collins. Well, thank you for the rousing endorsement of 
the bill, because that's exactly what it does. It gets the 
people from the minute they start in so that the Bureau of 
Prisons evaluates them and puts them on a plan while they are 
in still prison. We are not talking about this get them out 
quick. We are saying, here's while they are serving their 
sentence and earning that time up to where they are able to 
then have skills and skill sets so that when they do leave the 
recidivism rate is down.
    It's based on science, it's based on an evidence-based 
approach. We're not saying just put them out because we're soft 
on crime or not soft on crime. This is an evidence-based 
approach that we've seen work in places like Georgia, Texas, 
Kentucky, I mean, all over the place, conservative States that 
have said, this is something we need to do.
    I appreciate your commitment to law and order. And my 
father's a Georgia State trooper, he was 31 years. Believe me, 
I fought the law every day and lost. But he's still my dad. And 
I understand law enforcement's role, but I also understand, 
after we get there, after they've paid for that crime, what can 
we do as a society to make sure our money is well spent, and 
also actually look into these folks eyes and say, we're going 
to give you a chance, but it's up to you.
    And I appreciate your discussion on that. I want to see 
that move forward. It's something I think we can move forward 
both in the House and the Senate and gives the President and 
the Department of Justice something to build on as we get to 
the tougher issues of sentencing reform and mandatory minimums 
and those kind of things that we know always bog us down.
    I appreciate you being here today, the President, and what 
you all are working on has been appreciated. And it is always 
good to see Mary as well. So thank you all for being here. 
Thanks much.
    Attorney General Sessions. Thank you.
    Mr. Collins. And, Chairman, I yield back.
    Chairman Goodlatte [presiding]. Thank you very much. I want 
to thank the gentleman from Georgia for ending on a high note.
    And I will say that, General Sessions, Mr. Conyers and I 
both look forward to working with you and others in the 
administration on criminal justice reform. I think you'll find 
the approach here will be very bipartisan, perhaps in contrast 
to some of the other issues that have come up here today.
    But I also want to say to you thank you for your time, 
thank you for the careful manner in which you have listened to 
questions and concerns here on this committee for the better 
part of 5-1/5 hours.
    And I truly believe that this has been a very, very good 
hearing. Some of the members asked you questions for which 
answers have already been provided. Apparently, they've 
forgotten that those questions were asked and answered 
previously. But you've answered all of our questions here today 
in what I think is a manner that befits you as the Attorney 
General of the United States. I thank you very much for that.
    And with that, I want to thank you, and I want to thank all 
the members for participating.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witness or 
additional materials for the record.
    And the hearing is adjourned.
    [Whereupon, at 3:30 p.m., the committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
